No. _________
In the Supreme Court of the United States
_____________________________________________________
BRADLEY LITTLE, in his official capacity as Governor of
Idaho; LAWERENCE DENNEY, in his official capacity as
Idaho Secretary of State
Applicants,
v.
RECLAIM IDAHO, an Idaho political action committee; LUKE
MAYVILLE,
Respondent.

On Application to the Honorable Elena Kagan to Stay the Orders
of the U.S. District Court for the District of Idaho
EMERGENCY APPLICATION FOR STAY
____________________________________________
LAWRENCE G. WASDEN
ATTORNEY GENERAL
STATE OF IDAHO
BRIAN KANE
Assistant Chief Deputy
STEVEN L. OLSEN
Chief of Civil Litigation
MEGAN A. LARRONDO
ROBERT A. BERRY
Deputy Attorneys General
Counsel of Record
954 W. Jefferson - 2nd Floor
P. O. Box 83720
Boise, ID 83720-0010
Tel: (208) 334-2400
robert.berry@ag.idaho.gov
Counsel for Applicants
July 14, 2020

PARTIES TO THE PROCEEDING
Applicants are Bradley Little, in his official capacity as Governor of Idaho, and
Lawerence Denney, in his official capacity as the Idaho Secretary of State. Applicants
here were defendants in the district court proceedings and are the appellants in the
Ninth Circuit appeal.

Respondents are Reclaim Idaho, an Idaho-based political

action committee, and Luke Mayville, the co-founder of Reclaim Idaho. Respondents
were the plaintiffs in the district court proceeding and are the appellees before the
Ninth Circuit.

i

TABLE OF CONTENTS
PARTIES TO THE PROCEEDING ............................................................................... i
TABLE OF AUTHORITIES ......................................................................................... iii
INTRODUCTION .......................................................................................................... 1
JURISDICTION............................................................................................................. 4
STATEMENT OF THE CASE....................................................................................... 5
A. Reclaim Idaho gave itself six months, instead of the 18 months Idaho
law allows, to collect signatures on its initiative petition ................................. 5
B. Reclaim Idaho voluntarily suspended its campaign because of the
COVID-19 pandemic after a few token contacts to State officials and
then waited for months, until well after the signature-gathering
deadline to file suit.............................................................................................. 6
C. The district court granted Reclaim Idaho’s motion for a preliminary
injunction, took control of Idaho’s initiative laws and delegated much
of that authority to Reclaim Idaho ..................................................................... 9
D. The Ninth Circuit denied Applicants’ emergency motion for stay.................. 13
REASONS FOR GRANTING THE STAY .................................................................. 15
A. There is a reasonable probability that at least four Justices will find
certiorari warranted.......................................................................................... 16
1. The district court’s orders disregard this Court’s binding precedent ........ 16
2. There is a reasonable probability that at least four Justices will
vote for certiorari to resolve a circuit split ................................................. 25
3. The question that will be presented to this Court involves
frequently recurring issues of exceptional national importance ............... 27
B. There is at least a fair chance that the district court’s decision will be
overturned ......................................................................................................... 28
C. Applicants will suffer irreparable harm if the requested stay is not
granted .............................................................................................................. 35
CONCLUSION ............................................................................................................................. 37

ii

TABLE OF AUTHORITIES
Cases
Abbot v. Perez,
138 S. Ct. 49 (2017) .................................................................................................. 17
Abbott v. Perez,
138 S. Ct. 2305 (2018) ........................................................................................ 13, 35
Anderson v. Celebrezze,
460 U.S. 780 (1983) .................................................................................................. 30
Angle v. Miller,
673 F.3d 1122 (9th Cir. 2012) .......................................................................... passim
Benisek v. Lamone,
138 S. Ct. 1942 (2018) ........................................................................................ 16, 17
Buckley v. Am. Constitutional Law Found., Inc.,
525 U.S. 182 (1999) ............................................................................................ 29, 30
Burdick v. Takushi,
504 U.S. 428 (1992) ............................................................................................ 30, 31
Democratic Nat’l Comm. v. Bostelmann,
Nos. 20-1538, 20-1546, 20-1539, 20-1545, 2020 WL 3619499
(7th Cir. Apr. 3, 2020) ........................................................................................ 27, 28
Esshaki v. Whitmer,
No. 20-1336, 2020 WL 2185553 (6th Cir. May 5, 2020).......................................... 28
Eu v. San Francisco Cty. Democratic Central Comm.,
489 U.S. 214 (1989) ............................................................................................ 35, 36
Garcia v. San Antonio Metropolitan Transit Authority,
469 U. S. 528 (1985) ................................................................................................... 4
Gill v. Whitford,
137 S. Ct. 2289 (2017) .............................................................................................. 17
Hollingsworth v. Perry,
558 U.S. 183 (2010) (per curiam) ............................................................................. 15
iii

Husted v. Ohio State Conference of N.A.A.C.P.,
573 U.S. 988 (2014) .................................................................................................. 17
In Re Mayfield,
No. 16-22134-D-7, 2016 WL 3958982 (E.D. Cal. Jul. 15, 2016) ............................. 20
In re Roche,
448 U.S. 1312 (1980) ................................................................................................ 28
Initiative and Referendum Institute v. Walker,
450 F.3d 1082 (10th Cir. 2006) .......................................................................... 25, 29
Jacobson v. Massachusetts,
197 U.S. 11 (1905) ................................................................................................ 4, 34
John Doe No. 1 v. Reed,
561 U.S. 186 (2010) .................................................................................................. 35
Jones v. Markiewicz-Qualkinbush,
892 F.3d 935 (7th Cir.), cert. denied, 139 S. Ct. 568 (2018) .............................. 26, 29
Libertarian Party of Ill. v. Cadigan,
No. 20-1961, 2020 WL 3421662 (7th Cir. Jun. 21, 2020)........................................ 28
Marijuana Policy Project v. United States,
304 F.3d 82 (D.C. Cir. 2002) .............................................................................. 26, 29
Marshall v. United States,
414 U. S. 417 (1974) ................................................................................................... 4
Maryland v. King,
567 U.S. 1301 (2012) ................................................................................................ 35
Merrill v. People 1st of Ala.,
__S. Ct.__, 2020 WL 3604049 (Mem.) (U.S. Jul. 2, 2020) (No. 19A1063)..... 1, 15, 18
Meyer v. Grant,
486 U.S. 414 (1988) ............................................................................................ 29, 30
Miller v. Thurston,
No. 20-2095, 2020 WL 3240600 (8th Cir. Jun. 15, 2020)........................................ 27
Morgan v. White,
No. 20-1801, 2020 WL 3818059 (7th Cir. Jul. 8, 2020)........................................... 27
iv

New Motor Vehicle Bd. of Cal. v. Orrin W. Fox Co.,
434 U.S. 1345 (1977) ................................................................................................ 35
North Carolina v. League of Women Voters of N.C.,
574 U.S. 927 (2014) .................................................................................................. 17
People 1st of Ala. v. Merrill,
No. 2:20-cv-00619-AKK, 2020 WL 3207824 (N.D. Ala. Jun. 15, 2020) ...... 18, 24, 25
People 1st of Ala. v. Sec’y of State for Ala.,
No. 20-12184, 2020 WL 3478093 (11th Cir. Jun. 25, 2020).............................. 19, 28
Prete v. Bradbury,
438 F.3d 949 (9th Cir. 2006) .................................................................................... 31
Purcell v. Gonzalez,
549 U.S. 1 (2006) .............................................................................................. passim
Republican Nat’l Comm. v. Democratic Nat’l Comm.,
140 S. Ct. 1205 (Apr. 6, 2020) .......................................................................... passim
Reynolds v. Sims,
377 U.S. 533 (1964) .................................................................................................. 36
Riley v. Nat’l Fed’n of the Blind of N.C., Inc.,
487 U.S. 781 (1988) .................................................................................................. 30
South Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020) ......................................................................................... 4, 34
Tex. Democratic Party v. Abbott,
140 S. Ct. 2015 (Jun. 26, 2020) .................................................................................. 1
Tex. Democratic Party v. Abbott,
961 F.3d 389 (5th Cir. Jun. 4, 2020) ........................................................................ 27
Thompson v. Dewine,
959 F.3d 804 (6th Cir. 2020) ............................................................................ passim
Wirzburger v. Galvin,
412 F.3d 271 (1st Cir. 2005)..................................................................................... 27
Constitution and Statutes
28 U.S.C. § 2101(f) ....................................................................................................... 15
v

28 U.S.C. § 1254(1) ........................................................................................................ 4
28 U.S.C. § 1651(a) ........................................................................................................ 4
28 U.S.C. § 2101(f) ......................................................................................................... 4
52 U.S.C. § 20302 ......................................................................................................... 14
Idaho Const. art. III, § 1 .......................................................................................... 5, 36
Idaho Code title 34, Chapter 10 .................................................................................. 10
Idaho Code § 34-909..................................................................................................... 14
Idaho Code § 34-1801................................................................................................... 19
Idaho Code § 34-1802................................................................................................... 36
Idaho Code § 34-1802(1) ...................................................................................... 5, 6, 22
Idaho Code § 34-1802(2) .......................................................................................... 6, 22
Idaho Code § 34-1802(3) .................................................................................... 6, 22, 36
Idaho Code § 34-1802(4) .............................................................................................. 22
Idaho Code § 34-1804................................................................................................... 12
Idaho Code § 34-1805............................................................................................... 5, 23
Idaho Code § 34-1807................................................................................... 5, 21, 22, 36
Idaho Code § 34-1809..................................................................................................... 5
Idaho Code § 34-1812A .......................................................................................... 14, 23
1933 Idaho Sess. Laws 435.......................................................................................... 21
Other Authorities
CISA Guidance,
https://www.cisa.gov/sites/default/files/publications/Version_3.0_CISA_Gui
dance_on_Essential_Critical_Infrastructure_Workers_1.pdf ............................ 8, 33

vi

Emergency Appl. For Stay, Merrill v. People 1st of Ala., No. 19A1063 (U.S. Jun.
29, 2020) ............................................................................................................. 18, 27

vii

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
INTRODUCTION
This Court should stay, pending disposition on the appeal in the Ninth Circuit
and any timely filed petition for certiorari, the federal district court’s preliminary
injunction orders that seize control of Idaho’s initiative process and delegate the vast
majority of the Idaho Legislature’s, Secretary of State’s and county clerk’s
constitutional and statutory authorities and duties to the very private entities
invested in getting their initiative petition on the ballot.
This Court has repeatedly and recently stayed or upheld stays of orders that
fundamentally alter a state’s election laws, threaten the integrity of the electoral
process, and undermine voter confidence in the electoral process. See Merrill v.
People 1st of Ala., __S. Ct.__, 2020 WL 3604049, at *1 (Mem.) (U.S. Jul. 2, 2020) (No.
19A1063); Tex. Democratic Party v. Abbott, 140 S. Ct. 2015 (Jun. 26, 2020);
Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1207 (Apr. 6,
2020) (“RNC”). The district court’s orders do just these things.
The district court gave Reclaim Idaho, a political action committee, and its cofounder, Luke Mayville (collectively “Reclaim Idaho”), a 117-day extension of the
statutory deadline to collect the signatures on its initiative petition that were due on
May 1, 2020. The length of the extension results from the district court’s grant of a
48-day extension for Reclaim Idaho to collect electronic signatures starting July 9,
2020 and the fact that Reclaim Idaho did not file its lawsuit until over a month after
the deadline to collect signatures had passed. In addition, the district court ordered
1

the State to accept electronic signatures that the State is unable to verify, which are
being gathered by Reclaim Idaho under a process and protocol created by Reclaim
Idaho and the private company, DocuSign, which Reclaim Idaho selected and is
compensating.
The district court’s orders contravene an almost century-old principle of Idaho
law requiring in-person collection of petition signatures. Worse, the district court
assumed the State legislature’s constitutional authority to set the process by which
initiatives are made, as well as the statutory authority of Idaho’s election officials,
and then delegated almost all of that authority to Reclaim Idaho. The petition
circulator now has the authority to make up its own rules on the fly governing its
collection of electronic signatures.
No system of checks and balances can support such an arbitrary abandonment
of constitutional and statutorily-assigned election responsibilities.
The breadth of the orders is astounding.

The district court enjoined an

unspecified swath of Idaho’s statutory scheme governing initiative petitions; created
confusion for non-party county clerks as to whether their statutory duty to verify
signatures and registered voter status on initiative petitions has been enjoined; added
a heavy layer of additional work for the county clerks while they undertake the
difficult task of conducting elections in August and November during a pandemic;
created confusion for voters as to how the initiative process works; sowed distrust in
the electoral process; and created confusion and distrust for other initiative
campaigns. Indeed, just days before this Application was filed, another initiative

2

campaign that missed the April 30 deadline to get on the ballot for the November
election asked the Secretary of State for the same extension to collect signatures and
the ability to collect signatures electronically.
Compounding its error, the district court granted this relief to Reclaim Idaho
after it (1) voluntarily shortened the time it had to collect signatures to six months
instead of using the 18 months allowed by State statute; (2) chose to leave most of its
signature gathering efforts for the last two months of that six month period;
(3) admitted that the circumstances caused by the COVID-19 pandemic prevented it
from collecting signatures in-person by March 18, 2020, but did nothing until June
other than make a few token contacts to State officials on one day, March 16, 2020;
and (4) allowed the April 30, 2020 deadline to collect signatures to run without
seeking any assistance or judicial intervention.

Reclaim Idaho did not file its

Complaint until June 6, 2020.
Without a stay, the State of Idaho and the public interest will be irreparably
injured. The State is currently experiencing irreparable harm as its statutes
governing initiatives are enjoined and “electronic signatures,” which are not at all
real signatures as required by Idaho law, are currently being collected in
contravention of legislative policy judgments regarding fraud prevention. There can
be no question that there is a significant risk of fraud in an online system
implemented on nine days’ notice without any testing or vetting by the State—all of
which threatens the public interest in maintaining the integrity of, and voter
confidence in, the election. Indeed, how can the public trust this completely new

3

process full of unknown issues and problems that may be caused by this hasty and
abrupt departure from State law? (App. 50-54.) Moreover, the only competent
evidence is that the injunction will be “near impossible” to implement and disrupt
Idaho’s election officials’ (most of whom are not parties to this case) ability to prepare
and conduct fair, free, and safe elections in August and November during a once-ina-century pandemic. (App. 87.)
Finally, Reclaim Idaho admits that it was COVID-19 that stopped its initiative
efforts, not State action. (App. 15.) In any case, this Court has emphasized the
“especially broad” authority of public officials during a pandemic as “[o]ur
Constitution principally entrusts ‘[t]he safety and the health of the people’ to the
politically accountable officials of the States ‘to guard and protect.’” South Bay United
Pentecostal Church v. Newsom, 140 S. Ct. 1613, 1613-14 (2020) (quoting Jacobson v.
Massachusetts, 197 U. S. 11, 38 (1905); Marshall v. United States, 414 U. S. 417, 427
(1974)). Public officials “should not be subject to second-guessing by an ‘unelected
federal judiciary[.]’” Id. at 1613-14 (citing Garcia v. San Antonio Metropolitan Transit
Authority, 469 U. S. 528, 545 (1985)).

It cannot be a constitutional violation for

Reclaim Idaho to be subject to the same content-neutral, nondiscriminatory laws
governing the initiative process that apply to everyone else.
A stay pending appeal is properly granted and necessary here.
JURISDICTION
This Court has jurisdiction over this Application under 28 U.S.C. §§ 1254(1),
1651(a), and 2101(f). Applicants have unsuccessfully sought stays of the district

4

court’s preliminary injunction orders from both the district court and from the Ninth
Circuit.
STATEMENT OF THE CASE
The Idaho Constitution provides that legal voters may access ballot initiatives
“under such conditions and in such manner as may be provided by acts of the
legislature[.]” Idaho Const. art. III, § 1 (emphasis added).
A. Reclaim Idaho gave itself six months, instead of the 18 months Idaho
law allows, to collect signatures on its initiative petition.
Reclaim Idaho filed its initiative on August 30, 2019. (App. 91.) After review
by the Secretary of State and Attorney General, Reclaim Idaho received the ballot
titles and sample petition for its initiative on October 25, 2019. (Id.); see Idaho Code
§ 34-1809. Upon receipt of these documents, Reclaim Idaho could begin collecting
signatures on the initiative petition. Idaho Code § 34-1802(1).
In circulating the petition, Reclaim Idaho was bound by a statute that has been
in effect since 1933 requiring that “[a]ny person who circulates any petition for an
initiative … shall be a resident of the state of Idaho and at least eighteen (18) years
of age.” Idaho Code § 34-1807. Each sheet of a petition containing signatures “shall
be verified on the face thereof” by the person circulating the petition in a statutorily
prescribed form. Id. This requirement applies equally to all initiative petitioners.
By April 30, 2020, Reclaim Idaho was required to gather the signatures of legal
voters equal to at least six percent of the qualified electors at the time of the last
general election in each of at least 18 legislative districts. See Idaho Code § 34-1805.

5

For Reclaim Idaho’s initiative petition to appear on the November 2020 ballot, it was
required to collect 55,057 or more valid signatures. (App. 21.)
Rather than take advantage of the full 18 months allowed by Idaho Code § 341802(1) and (2) to circulate the initiative petition, Reclaim Idaho chose to seek to
place the initiative on the ballot in November 2020, leaving it only six months to
collect the necessary signatures. (App. 91.) Reclaim Idaho left the vast majority
(almost three-quarters) of its efforts for March and April 2020. (App. 111-12.)
B. Reclaim Idaho voluntarily suspended its campaign because of the
COVID-19 pandemic after a few token contacts to State officials and
then waited for months, until well after the signature-gathering
deadline to file suit.
Reclaim Idaho’s signatures had to be submitted to the appropriate county clerk
for verification by May 1, 2020. Idaho Code § 34-1802(2). County clerks have 60 days
to verify the signatures, “but in no event shall the time extend beyond” June 30, 2020.
Idaho Code § 34-1802(3). The county clerks typically reject 30 to 40 percent of
signatures on initiative petitions during the verification process as a result of
checking that the physical signatures are valid, that the signor is a registered voter,
and that the correct address was used. (App. 86.)
At the time it suspended its campaign on March 18, 2020, Reclaim Idaho had
collected 10,593 signatures that had been verified by county clerks. (App. 119.)
Reclaim Idaho has asserted that it had also collected an additional 20,000 signatures
that still needed to be verified by the county clerks. (App. 118.) In April, Reclaim
Idaho instructed the county clerks not to continue with the process of verifying
signatures. (App. 74, 78-79.)
6

Reclaim Idaho missed its May 1 deadline because it voluntarily suspended its
campaign on March 18, 2020 after it felt uncomfortable collecting signatures during
the COVID-19 pandemic in light of federal public health guidance. (App. 114-17.)
Reclaim Idaho tried only briefly to figure out a way that it felt comfortable
collecting signatures during the COVID-19 pandemic before suspending its
campaign. (App. 114-15.) A Reclaim Idaho staffer emailed a member of Governor
Little’s staff on March 16, 2020 requesting a meeting between Reclaim Idaho’s
founder and the Governor to discuss “the safest way to move forward with the ballot
initiative.” (App. 102-03, 107.) Reclaim Idaho made no other communications with
the Governor’s office. (App. 103.) The Secretary of State’s office was emailed once that
same date about electronic signature gathering and that office correctly informed
Reclaim Idaho that the Secretary did not have jurisdiction to make the change. (App.
97-101.)
Importantly, on March 16, 2020, no state law or action prevented Reclaim
Idaho from continuing to collect signatures for its petition.
The Governor is not involved in the initiative process. (App. 107.) His office’s
only involvement was the March 16th email correspondence with a staff member.
(App. 102-08.) On March 25, 2020, Governor Little issued Idaho’s first stay-home
order. The order required individuals in the State of Idaho to stay at home except for
certain essential activities. (App. 24-25.) The order was amended on April 15, 2020
and extended to April 30, 2020. (App. 25.) The stay at home order incorporated federal
standards that allowed “[e]lections personnel to include both public and private sector

7

elections support” to continue to operate during the term of that order. (See App. 5572, ¶¶ 8.f and 8.k (incorporating the Memorandum on Identification of Essential
Critical Infrastructure Workers During COVID-19 Response issued by the
Cybersecurity Infrastructure Security Agency of the United States Homeland
Security (“CISA Guidance”) dated March 28, 2020); CISA Guidance available at
https://www.cisa.gov/sites/default/files/publications/Version_3.0_CISA_Guidance_on
_Essential_Critical_Infrastructure_Workers_1.pdf.
By the time the order was issued on March 25, 2020, Reclaim Idaho had
already suspended its campaign for a week. (App. 114-15.) Reclaim Idaho took no
action after March 18, 2020 to contact any Idaho official about any concerns about
collecting signatures on its initiative petition or about any concerns about its First
Amendment rights. Reclaim Idaho has admitted that it would not have collected
signatures after March 18, 2020 in any case. 1 (App. 15.)
Having missed the deadline to submit its signatures and sat on its rights for
weeks, Reclaim Idaho filed suit on June 6, 2020, alleging that Applicants had violated
its First Amendment rights by not suspending Idaho law to allow it to collect
signatures electronically during the pandemic.

The Court: All right. One of the comments that were made in the briefing was that
the governor did not make an exception for First Amendment activities. I guess I was
a little skeptical whether that would have made any difference. . . . Ms. Ferguson: In
all candor, no. I don’t think so. (App. 15.)

1

8

C. The district court granted Reclaim Idaho’s motion for a preliminary
injunction, took control of Idaho’s initiative laws and delegated much
of that authority to Reclaim Idaho.
The district court granted Reclaim Idaho’s motion for a preliminary injunction
orally at the close of arguments on June 23, 2020 and issued a written decision on
June 26, 2020 further explaining its decision. (App. 13-44.) The district court
concluded that Reclaim Idaho had standing to bring its claim against Governor Little
“because of the extraordinary circumstances caused by the COVID-19 pandemic and
the Governor’s authority to issue executive orders in times of declared emergency.”
(App. 30.) It concluded that Reclaim Idaho had standing as to its claim against
Secretary Denney because a staff member in the Secretary’s office (correctly)
informed Reclaim Idaho of the requirements of Idaho’s statutes governing election
law. (App. 31.) The district court then concluded that the “inaction of the State
resulted in the alleged injury to Reclaim Idaho.” (Id.) The district court found
Reclaim Idaho’s voluntary inaction to be irrelevant. (App. 32.)
The district court construed Reclaim Idaho’s challenge as an “as applied”
challenge to unspecified Idaho statutes governing the initiative process. (App. 33.)
The district court then applied the framework set out by the Ninth Circuit in Angle
v. Miller, 673 F.3d 1122, 1132 (9th Cir. 2012), to determine whether Reclaim Idaho’s
First Amendment rights had been violated by “the State’s action to strictly enforce”
the law. (App. 38.) The district court found that the State had burdened Reclaim
Idaho’s First Amendment rights by “refus[ing] to take executive action to ensure
Reclaim Idaho could continue to safely gather signatures” during the period from

9

March 16, 2020 until the statutory deadline of April 30, 2020. (App. 34.) After
discounting Reclaim Idaho’s dilatory behavior and voluntary inaction as irrelevant
largely because Reclaim Idaho had succeeded in qualifying a different initiative
petition for the ballot the year prior, the district court concluded that Reclaim Idaho
had been reasonably diligent. (App. 38-40.) The district court gave the State’s
regulatory interests almost no weight because the State had allowed voters to register
to vote online for the recent election. 2 (App. 40-41.) The district court ignored the
vital differences between collecting signatures on initiative petitions and registering
to vote online. 3 The district court concluded Reclaim Idaho was likely to succeed on
the merits and then found Reclaim Idaho would likely suffer irreparable harm solely
because the initiative would not appear on the 2020 general election ballot,
discounting the fact that Reclaim Idaho could seek to get the initiative on the ballot
the very next year. (App. 39-40.) The district court then found the equities favored
Reclaim Idaho because of “technology.” (App. 40.)
With regard to a remedy, the district court “struggled,” aware of the problems
with “tell[ing] the State how to run the initiative process.” (App. 42.) The district
court ordered the State to choose between one of two options: (1) certify the signatures
that Reclaim Idaho had collected thus far and place the initiative on the November

Notably, the state system that the district court found justified Reclaim Idaho’s
collection of electronic signatures required three non-public factors to authenticate
the identity of the requesting party: date of birth, Idaho driver’s license or voter
identification number; and the last four digits of a person’s social security number.
(App. 81.)
3 The State utilized Idaho’s existing statutory system to allow for absentee voting in
its May 2020 primary. See Idaho Code title 34, chapter 10.
2

10

2020 ballot or (2) provide Reclaim Idaho with 48 more days to “gather signatures
through online solicitation and submission.” (App. 26-27.)
Applicants declined to choose either option as both are fundamentally contrary
to Idaho law and sought a stay from the district court, which was denied. (App. 912.)
The district court then ordered an online signature-gathering system to be
created and implemented in just nine days. (App. 8.) On June 30, 2020, the district
court ordered Applicants to meet and confer with Reclaim Idaho to “implement the
process and protocol for accepting signatures gathered through the DocuSign
technology.” (Id.) “Should counsel be unable to reach an agreement[,] … Reclaim
Idaho may implement an industry standard process and protocol.” (Id.) The district
court ordered that Reclaim Idaho could begin collecting electronic signatures on July
9, 2020. (Id.)
The 48-day period for Reclaim Idaho to collect electronic signatures began on
July 9, 2020. The parties were unable to agree on a process and protocol. The
discussions regarding electronic signature collection only reinforced the State’s grave
concerns about the collection of signatures on initiative petitions electronically. (App.
50-54.)
On July 10, 2020, Reclaim Idaho filed a notice with the district court describing
the process it had unilaterally decided to use to collect electronic signatures. (App.
45-49.) Reclaim Idaho has created a website for the purposes of electronic signature
collection. (App. 130-33.) The “landing page” created by Reclaim Idaho and populated

11

by language generated by Reclaim Idaho asks people to enter their name, voter
registration address, city and zip code, last 4 digits of their social security number,
and their email address. (Id.) Reclaim Idaho has refused to collect driver’s license
numbers out of concern that this requirement “restrict[s] the pool of registered voters”
even though most people register to vote using their driver’s license number. (App.
47.) The “landing page” does not include the measure in violation of Idaho Code 341804. If a person is interested in signing the initiative petition, they click “next” and
are directed to a PDF of the initiative petition approved by the Secretary of State that
Reclaim Idaho has modified. (Id.) There, the signor must enter the last 4 digits of
their social security number and the county where they reside. (Id.) The signor does
not sign the petition. (Id.) Instead, a computer generated generic cursive “signature”
is placed on the petition. (Id.) DocuSign will capture the person’s IP address, GPS
location, and the time the person signed the petition.

(Id. 48.)

Reclaim Idaho

represents that these factors, combined with the last four digits of the signor’s social
security

number,

authentication.”

place

(Id.)

the

petition “well

above

industry

standards

for

However, Reclaim Idaho will not provide this ostensibly

authenticating data to either the county clerks or the Secretary of State.

(Id.)

Further, Reclaim Idaho has provided no indication that either it or DocuSign will
actually review this authenticating data to attempt to verify the signatures on its
petition are legitimate. Reclaim Idaho will provide the county clerks with only the
signor’s name, address, and city or zip code for “verification.” (Id.) However, the
county clerks will be unable to verify any signature as Reclaim Idaho will not provide

12

them with the individual’s actual signature, which the county clerks compare against
voter registration records in the verification process. (App. 87.)

Each voter

registration record includes a copy of the voter’s actual signature, including those
voters registering online.
D. The Ninth Circuit denied Applicants’ emergency motion for stay.
On July 9, 2020, the Ninth Circuit denied Applicants’ emergency motion to
stay the district court’s orders. (App. 1-2.) Judge Callahan dissented. (App. 3-4.)
Citing Purcell v. Gonzalez, 549 U.S. 1, 4 (2006), and RNC, Judge Callahan concluded
that Applicants had “made a substantial showing that the district court exceeded its
authority by awarding relief that effectively rewrites Idaho’s election laws,
particularly its law designed to protect against fraud in the initiative process.” (App.
3.) She also concluded that “appellants have made a substantial showing that the
appellees failed to act with the necessary diligence to trigger the heightened standard
of review applied by the district court.” (Id.) Finally, quoting Abbott v. Perez, 138
S. Ct. 2305, 2324 (2018), and Purcell, Judge Callahan concluded that the remaining
factors supported granting a stay as well. (App. 4.)
Reclaim Idaho is currently collecting electronic signatures. (App. 131-33.)
Under the district court’s orders, Reclaim Idaho has until August 26, 2020 to collect
signatures. (App. 8.) This extension will invalidate or gravely impact many other
existing deadlines governing Idaho’s elections. For example, the deadlines for the
submission of arguments and rebuttal arguments regarding initiative petitions that
would otherwise appear in voters’ pamphlets will pass before it is known whether

13

Reclaim Idaho has qualified its initiative for the ballot. See Idaho Code §§ 34-1812A,
1812B (setting deadlines on July 20 and August 1 to submit proposed arguments and
rebuttals to the Secretary of State for inclusion in the voter’s pamphlet).
The Secretary of State will have mere days after Reclaim Idaho finishes
collecting signatures to determine whether it qualified its initiative for the ballot and
to finalize ballots for the November election. Sample ballots from the Secretary of
State are due September 7, 2020 to the county clerks, along with certified copies of
the names of State office candidates, and a certified copy of the ballot titles and
number of measures to be voted upon at the next general election. Idaho Code § 34909. All absentee ballots must be printed no later than September 14, 2020 and
mailed by September 21, 2020. See 52 U.S. Code § 20302. This is important and
challenging to carry out in any year, and incredibly demanding during a once-in-acentury pandemic.
As stated by Ada County Clerk McGrane (who is in charge of Idaho’s largest
county), it is already difficult enough to prepare for a presidential general election,
which consistently sees the largest turnout. (App. 74-76, 85.) It takes an enormous
amount of preparation and work to ensure each election goes smoothly, and even
more so due to COVID-19. (Id.) There are numerous practical and procedural
challenges to the relief the district court has ordered, most notably the time needed
to complete all related requirements. (Id.) This is compounded by the required tasks
of conducting the November election, and at least as Ada County (Idaho’s largest
county) is concerned, an August election as well, all of which makes this relief near

14

impossible to complete. (Id.) Reclaim Idaho submitted no competent evidence to the
contrary.
This Court should grant the requested stay to halt the irreparable harm
currently occurring to the State of Idaho as a result of the district court’s decision to
take over the State’s election law.
REASONS FOR GRANTING THE STAY
This Court will stay a district court’s order while a case is pending before the
court of appeals to allow the applicant to obtain a writ of certiorari from this Court
when an applicant shows “(1) a reasonable probability that four Justices will consider
the issue sufficiently meritorious to grant certiorari; (2) a fair prospect that a majority
of the Court will vote to reverse the judgment below; and (3) a likelihood that
irreparable harm will result from the denial of a stay.” Hollingsworth v. Perry, 558
U.S. 183, 190 (2010) (per curiam); 28 U.S.C. § 2101(f); Merrill v. People 1st of Ala.,
__S. Ct.__, 2020 WL 3604049, at *1 (Mem.) (U.S. Jul. 2, 2020) (No. 19A1063) (staying
the preliminary injunction order of the district court pending disposition of the appeal
before the Eleventh Circuit and disposition of the petition for writ of certiorari, if
sought). “In close cases,” this Court “will balance the equities and weigh the relative
harms” to the parties. Hollingsworth, 558 U.S. at 190 (citations omitted).
The requirements for a stay of the district court’s decision pending the Ninth
Circuit’s decision on appeal and the disposition of a petition for writ of certiorari are
met here.

15

A. There is a reasonable probability that at least four Justices will find
certiorari warranted.
The district court’s orders both violated this Court’s binding precedent and lay
bare a circuit split. This Court should grant the requested stay because there is a
reasonable probability that at least four Justices will vote in favor of granting
certiorari.
1. The district court’s orders disregard this Court’s binding
precedent.
1.

The district court’s orders violated this Court’s precedent.

As Judge

Callahan correctly identified, the district court “exceeded its authority by awarding
relief that effectively rewrites Idaho’s election laws” close to an election, creating “by
judicial fiat a process for electronic signature gathering that is not otherwise
permitted under Idaho’s laws.” (App. 3) (Callahan, J. dissenting). This Court has
repeatedly and clearly instructed district courts that they may not alter state election
procedures in a way that could fundamentally alter the nature of the election and
cause voter confusion, particularly close to or in the midst of an election. See Purcell,
549 U.S. at 4-5; RNC, 140 S. Ct. at 1207; Benisek v. Lamone, 138 S. Ct. 1942, 1944
(2018).
Thus, in Purcell, this Court vacated a Ninth Circuit Court of Appeals’ order
that enjoined Arizona election law 33 days before an impending election because court
orders that alter elections, particularly those issued close to an election, “can
themselves result in voter confusion and consequent incentive to remain away from
the polls.” 549 U.S. at 4-5. This Court’s decision in Purcell reflects “a due regard for

16

the public interest in orderly elections[.]” Benisek, 138 S. Ct. at 1944 (citing Purcell,
549 U.S. at 4-5).
2. The principle underlying the decision in Purcell is so fundamental to this
Court’s jurisprudence that this Court’s practice is to step in and stay district court
orders that alter state election proceedings close to an election. See Abbot v. Perez,
138 S. Ct. 49 (2017) (this Court stayed a lower court order issued 75 days before
Election Day); Gill v. Whitford, 137 S. Ct. 2289 (2017) (staying order directing that
federal court would change election law unless the legislature did so within
approximately 5 months); North Carolina v. League of Women Voters of N.C., 574 U.S.
927 (2014) (this Court stayed a lower court order that would have changed election
laws about 30 days before Election Day); Husted v. Ohio State Conference of
N.A.A.C.P., 573 U.S. 988 (2014) (this Court stayed a lower court order issued 61 days
before Election Day changing election laws).
This Court recently applied the Purcell principle in RNC to stay a district
court’s preliminary injunction order issued before a scheduled election that required
the State to count absentee ballots mailed after Election Day. 140 S. Ct. at 1206-08.
This Court concluded that the district court’s order must be stayed because it
“fundamentally alter[ed] the nature of the election.” Id. at 1207.

The “unusual

nature” of the district court’s order emphasized the need for a stay. Id. The fact that
the district court had to issue a subsequent order enjoining nonparties to effectuate
the relief it had ordered “further underscore[ed] the wisdom of the Purcell principle,
which [sought] to avoid this kind of judicially created confusion.” Id.

17

Less than two weeks ago, this Court again reinforced this vital principle when
it ordered a stay of the district court’s preliminary injunction order over a denial of
stay by the Eleventh Circuit in Merrill v. People 1st of Alabama, __S. Ct.__, 2020 WL
3604049, at *1 (Mem.) (U.S. Jul. 2, 2020) (No. 19A1063). See also People 1st of Ala.
v. Sec’y of State for Ala., No. 20-12184, 2020 WL 3478093, at *1 (11th Cir. Jun. 25,
2020). The district court had granted a preliminary injunction enjoining enforcement
of Alabama laws that required a notary or witnesses and photo identification for
absentee voting and imposed a de facto ban on curbside voting. People 1st of Ala. v.
Merrill, No. 2:20-cv-00619-AKK, 2020 WL 3207824, at *2 (N.D. Ala. Jun. 15, 2020).
The district court concluded that the possibility that those laws could dissuade some
voters from voting due to their fears of contracting COVID-19 was not justified by
Alabama’s argument that the challenged laws were important “to preserve the
legitimacy of upcoming elections by preventing voter fraud and safeguarding voter
confidence.” Id., 2020 WL 3207824, at *2, 17-19. Alabama sought a stay from this
Court arguing that (1) the federal court rewrote State election law in the middle of
an election; (2) federal courts may not change the rules of an ongoing or rapidly
approaching election; and (3) the district court’s order, which enjoined enforcement
of the State’s anti-fraud provisions, threatened the integrity of the election and
undermined voter confidence in the election. Emergency Appl. For Stay, Merrill v.
People 1st of Ala., No. 19A1063, at 2-3 (U.S. Jun. 29, 2020).
3. Based on this Court’s decisions in Purcell, RNC, and Merrill, a stay must be
issued here. There can be no doubt that the district court’s orders requiring Idaho to

18

allow Reclaim Idaho to collect signatures electronically over the legislature’s express
command have fundamentally altered its election. The district court and Reclaim
Idaho are “run[ning] the elections, run[ning] the initiative process for the state. . . .”
(App. 16.) Reclaim Idaho is currently collecting electronic signatures on its initiative
petition using a protocol it devised, a website it developed, and the assistance of a
private out-of-state third party that it selected and that Reclaim Idaho is
compensating. (App. 45-49.)
The district court’s orders have eviscerated the State’s legislatively enacted
procedures for ensuring voter integrity and for balancing the voters’ voices
throughout the state and has fundamentally altered and rewritten the State’s
initiative and election procedures. The Idaho Legislature enacted the scheme that
the district court discarded based on legislative findings of past occurrences of
fraudulent and misleading signature-gathering practices, past placement of false
signatures on initiative petitions, and difficulties “in determining the identity of
petition circulators.” Idaho Code § 34-1801.
In order to prevent and deter such behavior, the legislature determines
that it is necessary to provide easy identity to the public of those persons
who solicit or obtain signatures on initiative . . . petitions . . ., and of
those persons for whom they are soliciting and obtaining signatures and
to inform the public concerning the solicitation and obtaining of such
signatures.
Id.
In direct contravention of the Idaho Legislature’s intent and concerns, the
district court’s orders allow the entire signature collection process to be completed
anonymously using the internet. The authenticity of a “signature” (in reality, a
19

computer-generated approximation of a generic cursive signature), will be
determined solely based on a few data points that a person chooses to type into a
computer. There is a grave risk that this system, which the district court ordered to
be developed hastily over the course of nine days, will be defrauded, either by a goodintentioned person entering data for multiple family members or friends or by a
hacker or computer program entering swathes of false data. See In Re Mayfield, No.
16-22134-D-7, 2016 WL 3958982, at * 2 (E.D. Cal. Jul. 15, 2016).
Worse, Reclaim Idaho has stated it will collect data that it argues could be used
to verify signatures, but it refuses to use that data to verify signatures, to provide
that data to the county clerks to perform their statutory duty of verification, or even
to provide that data to the Secretary of State’s office. Given the testimony of Ada
County Clerk Phil McGrane that 30 to 40 percent of signatures collected on an
initiative petition are typically rejected as invalid in the verification process, it is
clear that the federal district court did not just discard the considered judgments of
the State’s elected representatives, it put the fox in charge of the henhouse. (App.
86.) There can be no doubt that this will have a grave impact on voter confidence and
election integrity.
There is also a grave risk of voter confusion and distrust resulting from the
court’s orders, which allow Reclaim Idaho to collect “signatures” via a private website.
In this day and age, how can voters be sure of the authenticity and trustworthiness
of a random private website that is asking them to disclose their personal information
(name, voter registration address, city and zip code, last 4 digits of their social

20

security number, email address, and county of residence) and which will capture their
IP address, GPS location, and the time they signed the initiative petition? (App. 4549, 131-33.) How can they be assured of the security of that data and the uses to
which it will be put? What happens if and when this now-privatized system fails or
data is leaked? What happens to the confidence of the electorate? The voter confusion
and distrust that will inevitably result from the district court’s orders mandate a stay
under Purcell. See Purcell, 549 U.S. at 4-5.
Further, the relief the district court ordered allowing Reclaim Idaho to collect
electronic signatures until August 26, 2020 bulldozed a multitude of Idaho
requirements related to initiative petitions, including:
•

The almost 100 year-old requirement for initiative petitions to be physically
signed in the circulator’s presence, see Idaho Code § 34-1807; and see 1933
Idaho Sess. Laws 435;

•

The requirement that petition circulators be a resident of the state of Idaho
and at least 18 years old, see Idaho Code § 34-1807, given that the initiative
petition now exists as a webpage (App. 131-33) and anyone who forwards the
link to the webpage, shares the link on social media, or shares any electronic
document containing the link must be considered a petition circulator and once
the link exists on the internet, there is no way for Reclaim Idaho to control who
may forward or share the link;

•

The requirement that petition circulators verify by affidavit that every
signature on the initiative petition was signed in the circulator’s presence and

21

the other verifications that petition circulators are required to provide
regarding the signatures they collect, see Idaho Code § 34-1807;
•

The April 30, 2020 deadline to collect signatures on Reclaim Idaho’s initiative
petition, see Idaho Code § 34-1802(1);

•

The May 1, 2020 deadline for Reclaim Idaho to submit signatures on initiative
petitions to the non-party county clerks for verification, see Idaho Code § 341802(2);

•

The June 30, 2020 deadline for the county clerks to verify signatures, see Idaho
Code § 34-1802(3) (this is particularly problematic because county clerks still
have to verify the physical signatures that Reclaim Idaho told them not to
verify back in April, it severely shortens the verification time, and it moves the
time when county clerks are verifying signatures from a lull in election season
to a period when county clerks are ramping up for August elections and for the
November 2020 general election);

•

The ability of the non-party county clerks to verify signatures on initiative
petitions, see Idaho Code § 34-1807, given that Reclaim Idaho will not collect
or disclose data that could allow them to authenticate signatures (App. 45-49);

•

The July 6, 2020 deadline for initiative petitions with sufficient signatures
attached to be filed with the Secretary of State, see Idaho Code § 34-1802(4);
and

22

•

The statutory process to allow public argument and rebuttal on the initiative
petitions, which by law is required to be completed by August 1, 2020, see Idaho
Code §§ 34-1812A, 1812B.
The district court’s orders also overturn the implicit requirement in the

statutory scheme that initiative petitions have either the support of a large number
of volunteers statewide or the support in the form of donations sufficient to hire paid
signature gatherers. This is because, prior to the district court’s orders, initiative
campaigns must undertake the notable effort of gathering in-person signatures from
at least 18 of Idaho’s 35 legislative districts. See Idaho Code § 34-1805. However,
under the district court’s orders, a small group of people with enough social media
followers and media attention can obtain the necessary signatures through a few
clicks and the power of the internet.
On top of all this, it is unclear how the non-party county clerks can carry out
their statutory duty to verify signatures on initiative petitions against the signatures
on voter registration cards when Reclaim Idaho is not even collecting those
signatures. The district court may have to issue another order clarifying this point.
Just as in RNC, this court-imposed confusion necessitates a stay. See RNC, 140 S. Ct.
at 1207. Reclaim Idaho is not even providing the data that it asserts authenticates
the signatures to the county clerks. (App. 45-49, 131-33.) As noted above, it is common
for 30 to 40 percent of the physical signatures collected on a typical initiative petition
to be rejected by the county clerks as invalid. (App. 86.) The district court has
mandated that the State outsource signature verification to the very entity that has

23

a vested interest in getting its initiative on the ballot and is requiring the State to
trust the representations of an out-of-state private entity with whom the State has
never had any prior relationship. On top of all this, the verification process is
completely contrary to existing statute as decided by Idaho’s legislature. (See App.
50-54.)
4. There can be no argument that the proximity of this stay request to Election
Day compels a different conclusion. At the outset, the concern this Court expressed
in Purcell regarding the disenfranchising effect of voter confusion resulting from
court orders that fundamentally alter election procedures was not limited to court
orders issued in immediate proximity to an election. This Court warned that all
“court orders affecting elections” can negatively affect voters and elections; it is just
that “that risk” only “increase[s]” “[a]s an election draws closer.” Purcell, 549 U.S. at
5. All interested parties, voters, candidates, political parties, and election officials
must be able to know and adhere to the same rules throughout the election process.
Thus, a stay is warranted regardless of temporal proximity.
However, even if this Court’s decisions are interpreted as requiring imminent
temporal proximity between the district court’s orders and their impact on an
election, that requirement is met. We are already in the election process for the
November 2020 general election. The urgency is even greater here than it was in
RNC, where the district court entered its injunction five days before the election,
RNC, 140 S. Ct. at 1206, and greater than it was in Merrill, where the district court
entered its injunction 29 days before in-person voting was to take place, Merrill, 2020

24

WL 3207824, at *3. The district court allowed Reclaim Idaho to start circulating its
initiative petition electronically on July 9, 2020, almost six weeks after the statutory
deadline for submitting signatures. Thus, the preliminary injunction is currently
sowing voter confusion, confusion at the county clerk level, undermining the integrity
of the election, and fundamentally altering the nature of the State’s election, and has
been since July 9, 2020.

The State is already deep “into unchartered waters” that

may “pose serious security concerns and other, as yet unrealized, problems.”
Thompson v. Dewine, 959 F.3d 804, 812 (6th Cir. 2020).
2. There is a reasonable probability that at least four Justices will
vote for certiorari to resolve a circuit split.
A circuit split exists as to whether state laws regulating the mechanics of the
initiative process can violate the Free Speech Clause of the First Amendment. The
Tenth Circuit, the Seventh Circuit, and the D.C. Circuit have held that such laws do
not implicate the First Amendment. The First, Sixth, and Ninth Circuits disagree.
There is a reasonable probability that at least four Justices would vote for certiorari
to resolve this circuit split.
1. The en banc Tenth Circuit, in Initiative and Referendum Institute v. Walker,
450 F.3d 1082, 1099-1103 (10th Cir. 2006), held the First Amendment was
inapplicable to a provision in Utah’s Constitution that required certain initiatives to
pass with a supermajority. The Tenth Circuit reasoned that such laws are laws that
“determine the process by which legislation was enacted,” rather than laws that
“regulate or restrict the communicative conduct of persons advocating a position in a
referendum.” Id. at 1099-1100.
25

Similarly, in Jones v. Markiewicz-Qualkinbush, the Seventh Circuit held an
Illinois law that limited to three the number of referenda that could appear on a ballot
did not implicate the First Amendment because “it did not distinguish by viewpoint
or content.” 892 F.3d 935, 937 (7th Cir.), cert. denied, 139 S. Ct. 568 (2018). “[T]he
ballot is not a public forum” the Seventh Circuit wrote. Id. at 938. The D.C. Circuit
reached a similar conclusion in Marijuana Policy Project v. United States, 304 F.3d
82 (D.C. Cir. 2002), with regard to a law that prohibited the District of Columbia from
enacting any law reducing penalties associated with possession, use or distribution
of marijuana. Id. at 83, 85-87 (“the legislative act—in contrast to urging or opposing
the enactment of legislation—implicates no First Amendment concerns”).
2. In contrast, the Ninth Circuit has concluded that laws that regulate the
initiative process can violate First Amendment rights because they “indirectly impact
core political speech.” See Angle, 673 F.3d at 1133. It can only be assumed the Ninth
Circuit will follow its precedents in ruling on this matter in the upcoming appeal.
Further, the First Circuit in Wirzburger v. Galvin, 412 F.3d 271, 276 (1st Cir. 2005),
and the Sixth Circuit in Thompson v. Dewine, 959 F.3d 804, 808 (6th Cir. 2020), agree
with the Ninth Circuit in the basic proposition that laws governing the initiative
process can result in a First Amendment violation.
As discussed below, this circuit split presents recurring issues of national
importance and warrants a grant of certiorari and the requested stay.

26

3.

The question that will be presented to this Court involves
frequently recurring issues of exceptional national importance.

As Alabama correctly pointed out in its Emergency Application for Stay, the
district courts are facing a flood of requests for preliminary injunctions either at the
last minute or after important statutory deadlines have passed that would alter state
election laws in light of the pandemic. Emergency Appl. For Stay, Merrill v. People
1st of Ala., No. 19A1063, at 18 (U.S. Jun. 29, 2020). The circuit courts of appeals are
suffering the repercussions of these lower court decisions. This Court must take
action to clarify that States retain their constitutional authority to manage elections
even in a pandemic.
Since April 3, 2020, and in addition to the Ninth Circuit’s denial of a stay
below, the following voter related matters have all been considered by the circuit
courts of appeals regarding election laws. See Thompson v. Dewine, 959 F.3d 804 (6th
Cir. 2020 May 26, 2020) (granting stay in favor of State defendants where plaintiffs
alleged that State’s stay-at-home orders during the pandemic violated their First
Amendment rights for circulating initiative); Tex. Democratic Party v. Abbott, 961
F.3d 389 (5th Cir. Jun. 4, 2020) (granting stay in favor of State defendants where
plaintiffs challenged constitutionality of State’s voting by mail); Miller v. Thurston,
No. 20-2095, 2020 WL 3240600 (8th Cir. Jun. 15, 2020) (granting stay in favor of
State defendants on pre-existing legislation regarding the initiative process during a
pandemic ); Morgan v. White, No. 20-1801, 2020 WL 3818059 (7th Cir. Jul. 8, 2020)
(affirming the denial of a motion for preliminary injunction); cf. Democratic Nat’l
Comm. v. Bostelmann, Nos. 20-1538, 20-1546, 20-1539, 20-1545, 2020 WL 3619499
27

(7th Cir. Apr. 3, 2020) (denying stay in part when absentee ballots needed to be
mailed to be counted); Esshaki v. Whitmer, No. 20-1336, 2020 WL 2185553 (6th Cir.
May 5, 2020) (denying and granting stay in part in favor of State defendants);
Libertarian Party of Ill. v. Cadigan, No. 20-1961, 2020 WL 3421662 (7th Cir. Jun. 21,
2020) (denying stay for State defendants on those wishing to run for office and
enjoining signature collection requirements in light of the pandemic); People 1st of
Ala. v. Sec’y of State for Ala., No. 20-12184, 2020 WL 3478093 (11th Cir. Jun. 25,
2020) (denying stay for State defendants).
Given the impending elections in November and the continuing impact of the
pandemic, this Court must take action to clarify the deference that district courts
must give the policy judgments of state election officials and to clarify whether
regulations governing election procedures implicate First Amendment rights. It is
vital that this Court act now to restore voter confidence and the integrity of election
systems for the upcoming elections.
B. There is at least a fair chance that the district court’s decision will
be overturned.
Given the reasonable probability that four Justices would grant certiorari, it is
doubtful that the prospects of reversal even need to be considered. See In re Roche,
448 U.S. 1312, 1314 n.1 (1980) (Brennan, J., in chambers) (“[T]he consideration of
prospects for reversal dovetails, to a great[] extent, with the prediction that four
Justices will vote to hear the case. Thus, it may be that the ‘fair prospect’-of-reversal
criterion has less independent significance in a stay determination when review will

28

be sought by way of certiorari.”). However, even if this factor must be independently
considered, it is met.
1. This Court’s instruction in Purcell demonstrates that Applicants have a fair
chance of success on the merits. Idaho “has a compelling interest in preserving the
integrity of its election process. Confidence in the integrity of our electoral processes
is essential to the function of our participatory democracy.” Purcell, 549 U.S. at 4
(citation omitted). The district court’s remedy undermined this compelling interest.
The district court violated this Court’s instruction in Purcell by issuing orders in the
midst of an election that fundamentally alter the election and will cause voter
confusion. The district court’s extreme deviation from Purcell’s dictates demonstrates
there is at least a fair chance that the district court’s decision will be overturned as
violating this principle.
2. In addition, this Court should approve the conclusions of the en banc Tenth
Circuit in Initiative and Referendum Institute, the Seventh Circuit in Jones, and the
D.C. Circuit in Marijuana Policy Project and hold that the First Amendment does not
apply to neutral, nondiscriminatory statutes governing the process by which
initiatives are conducted.
This Court has held that the First Amendment protects political speech that
typically attends an initiative campaign.

Meyer v. Grant, 486 U.S. 414 (1988)

(striking down a Colorado law that made it a felony to pay any person to circulate an
initiative petition because the process of requesting signatures necessarily involves
interactive

communication

concerning

29

political

change);

Buckley

v.

Am.

Constitutional Law Found., Inc., 525 U.S. 182 (1999). However, the effect of the
regulations at issue are “completely incidental” to speech and therefore do not
implicate the First Amendment’s protections. Riley v. Nat’l Fed’n of the Blind of N.C.,
Inc., 487 U.S. 781, 789 n.5 (1988) (citation omitted) (stressing the difference between
a “statute regulating how a speaker may speak” and a statute with a “completely
incidental” effect on speech).
There is, at most, an incidental restriction on speech as a result of Idaho’s laws
that require that signatures on initiative petitions be collected within a generous 18month period. 4 Idaho’s requirement that signatures be collected in-person, rather
than anonymously online with no opportunity for “interactive communication
concerning political change,” actually protects and facilitates speech. Meyer, 486 U.S.
at 422. There is at least a fair likelihood this Court will find that the district court
erred in finding a First Amendment violation here.
3. If this Court concludes that the First Amendment does apply to contentneutral statutes that regulate the initiative process, the State has the authority to
establish the procedures for ballot initiatives—not private companies.

E.g.,

Thompson, 959 F.3d at 808. Content-neutral initiative requirements that are
reasonable and nondiscriminatory are subjected to rational basis review. Burdick v.
Takushi, 504 U.S. 428, 434 (1992) (quoting Anderson v. Celebrezze, 460 U.S. 780, 788
(1983) (Rehnquist, J., dissenting)). Severe restrictions “such as exclusion or virtual

This argument was not made before the district court because it was foreclosed by
binding Ninth Circuit precedent. See Angle, 673 F.3d at 1133-36.
4

30

exclusion from the ballot” are judged under strict scrutiny. Thompson, 959 F.3d at
809 (citing Burdick, 504 U.S. at 434) (remaining citation omitted). Cases in-between
weigh the burden imposed by the State against the State’s interests, and take into
consideration “the extent to which those interests make it necessary to burden the
plaintiff’s rights.” Id. (citation omitted).
There is a reasonable likelihood that this Court will conclude that the State’s
interests here outweigh the reasonable and nondiscriminatory requirements that
Idaho imposes for initiative procedures. The approximately six-week period that
Reclaim Idaho did not collect signatures because of the pandemic has not been shown
to be a burden on the 18 months Reclaim Idaho had to collect signatures or on even
the six-month period it voluntarily chose. Further, any burden is far outweighed by
the State’s interest in the integrity of Idaho’s duly enacted election and ballot
initiative laws, the prevention of disruption, uncertainty and loss of public confidence
in its impending elections, and in the prevention of fraud.
4. Even if this Court applies the framework from Angle v. Miller, 673 F.3d 1122
(9th Cir. 2012), and Prete v. Bradbury, 438 F.3d 949 (9th Cir. 2006), there is again a
fair likelihood that the district court’s orders will be reversed because Reclaim Idaho
failed to show that a reasonably diligent initiative proponent could not have gotten
its initiative on the ballot. Under this framework, if a regulation imposes a severe
burden on a plaintiff’s rights, it must be narrowly tailored and advance a compelling
governing interest. Angle, 673 F.3d at 1132 (citations omitted). Regulations imposing
lesser burdens are usually justified by the State’s important regulatory interests. Id.

31

(citation omitted). The level of burden is determined by looking at whether
“reasonably diligent” initiative proponents can normally gain a place for their
proposed initiative on the ballot. Id. at 1133 (citations omitted).
Here, Reclaim Idaho did not show that no reasonably diligent initiative
proponent could have managed to qualify for the ballot. Reclaim Idaho failed to take
reasonable action before the expiration of the deadline to get its initiative on the
ballot this year. The district court wrongly concluded this was irrelevant.
Reclaim Idaho’s failure to meet the deadline was the result of its own choices
to significantly shorten its timeline for collecting signatures, to employ an approach
that left most of the signature-gathering to the end of the statutory period, and to
voluntarily cease all signature-gathering activities in response to federal public
health guidance. Reclaim Idaho made three token contacts to state officials about its
concerns before suspending its campaign: (1) email communications on March 16 with
a staffer with the Governor’s office seeking a meeting with the Governor in order to
propose an idea that was contrary to statute during an exceptionally busy time when
no State law prevented signature gathering; (2) one email with a staffer for the
Secretary of State in which Reclaim Idaho was correctly informed of the requirements
of statute; and (3) one contact on March 18 with a State Representative about the
possibility of legislation.
Reclaim Idaho never inquired whether it could gather signatures under the
stay-home order, which incorporated federal standards that allowed “Elections
personnel to include both public and private sector elections support” to continue to

32

operate during the term of that order. (App. 55-72), ¶¶ 8.f and 8.k (incorporating the
Memorandum on Identification of Essential Critical Infrastructure Workers During
COVID-19 Response issued by the Cybersecurity Infrastructure Security Agency of
the United States Homeland Security (“CISA Guidance”) dated March 28, 2020);
CISA Guidance available at https://www.cisa.gov/sites/default/files/publications/
Version_3.0_CISA_Guidance_on_Essential_Critical_Infrastructure_Workers_1.pdf
(last visited July 13, 2020)). Instead, Reclaim Idaho let the deadline for the
submission of signatures pass and then, over a month later, filed suit seeking relief
from the consequences of its own inaction.
The First Amendment does not protect against the consequences of
procrastination. The State’s important regulatory interests described above justify
any burden that State law placed on Reclaim Idaho’s ability to circulate its petition.
5. Finally, Reclaim Idaho cannot show a First Amendment violation or any
burden from a state action. Thompson, 959 F.3d at 810 (citation omitted) (“First
Amendment violations require state action.”).

Reclaim Idaho has repeatedly

acknowledged that it suspended its campaign due to the COVID-19 pandemic before
issuance of the stay-home order it claims violated its right to collect signatures. (App.
114-15.) Counsel for Reclaim Idaho admitted at oral argument that there was no
state action involved in its decision to stop collecting signatures and that it would not
have mattered if the Governor had made an exception for their First Amendment
activities. (See App. 14-15, 23-24.) As described above, Reclaim Idaho engaged in
token contact with state officials to which those officials could not reasonably have

33

been expected to respond, even despite the State’s demonstrated willingness to work
to protect First Amendment rights.
Moreover, the stay-home order cannot be the basis of a First Amendment
claim.

This Court has been clear that the exercise of “all rights” is subject to

“reasonable conditions” deemed “essential to the safety, health, peace, good order,
and morals of the community.” Jacobson v. Massachusetts, 197 U.S. 11, 26 (1905); see
also S. Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613, 1613 (Mem.) (May
29, 2020) (citing Jacobson, 414 U.S. at 38) (“The precise question of when restrictions
on particular social activities should be lifted during the pandemic is a dynamic and
fact-intensive matter subject to reasonable disagreement. Our Constitution
principally entrusts ‘[t]he safety and the health of the people’ to the politically
accountable officials of the States ‘to guard and protect.’”). Such a condition must
have a substantial relation to public health, and not be “beyond all question, a plain,
palpable invasion of rights secured by the fundamental law[.]” Jacobson, 197 U.S. at
31 (citations omitted). The at-issue orders were neutral laws of general applicability
that had a clear and substantial relation to public health, slowing the spread of a
pandemic.
In short, there is at least a fair chance that this Court will reverse the district
court’s orders on one or more of the above-described grounds.

34

C. Applicants will suffer irreparable harm if the requested stay is not
granted.
Unless a statute is unconstitutional, enjoining a “State from conducting [its]
elections pursuant to a statute enacted by the Legislature . . . would seriously and
irreparably harm the State[.]” Abbott, 138 S. Ct. at 2324 (footnote and citation
omitted). This Court has been clear, “any time a State is enjoined by a court from
effectuating statutes enacted by representatives of its people, it suffers a form of
irreparable injury.” Maryland v. King, 567 U.S. 1301 (2012) (quoting New Motor
Vehicle Bd. of Cal. v. Orrin W. Fox Co., 434 U.S. 1345, 1351 (1977) (Rehnquist, J., in
chambers)) (alteration omitted).
The remedy presented by the district court has caused and will continue to
cause irreparable harm. It has enjoined Idaho law, will create confusion amongst
Idaho voters, and has put at significant risk the State’s ability to prepare for, and
thus the integrity of, the upcoming August and November elections. The State is
already suffering irreparable injury to the voting system established by the Idaho
legislature given that the federal district court has discarded it in favor of a system
established by the district court and a private entity.
States have an “undoubtedly important” “interest in preserving the integrity
of the electoral process,” including “efforts to ferret out” “mistake[s]” and “promot[e]
transparency and accountability in the electoral process,” and a “particularly strong”
interest in their efforts to “root out fraud.” John Doe No. 1 v. Reed, 561 U.S. 186, 197
(2010). This Court has described the State’s interest in preventing voter fraud as
“compelling.” Purcell, 549 U.S. at 4 (quoting Eu v. San Francisco Cty. Democratic
35

Central Comm., 489 U.S. 214, 231 (1989)). The consequences of voter fraud include
driving “honest citizens out of the democratic process,” “breed[ing] distrust” in
government, a sense of disenfranchisement, and, ultimately, denial of the “‘right of
suffrage.’” Id. (quoting Reynolds v. Sims, 377 U.S. 533, 555 (1964)). The State has a
strong interest in ensuring that Idaho’s citizens have an electoral system they can be
confident in. Idaho Const., art. III, § 1. By requiring that the initiative process be
changed to an electronic signature collection process of Reclaim Idaho’s creation, the
district court has eliminated by judicial fiat the processes chosen by the Idaho
Legislature to ensure voter integrity and to root out fraud. Idaho Code § 34-1807; see
also Idaho Code § 34-1802.
Further, by requiring another 48 days to gather signatures, and allowing
gathering of signatures electronically, the district court enjoined multiple provisions
of Idaho law as described above.

The district court also created an extremely

burdensome, if not impossible, timeline for the county clerks. The district court’s
orders will place an exceptional burden on the county clerks to quickly verify, to the
extent they can, signatures submitted during a pandemic and during preparations
for the August and November elections, when they are short staffed and when they
normally have 60 days to do such verification. See Idaho Code § 34-1802(3); (App. 7377, 84-89.)
Should this Court find it necessary to balance harms and consider equitable
principles, the equities weigh heavily in favor of Applicants. Any harm Reclaim Idaho
might incur by a stay of the district court’s orders is largely attributable to Reclaim

36

Idaho. It controlled the timing of its actions throughout the initiative process, just as
it chose to suspend its own signature-gathering efforts prior to the stay-home order.
Any perceived harm to Reclaim Idaho is due to its own lack of diligence in failing to
bring this matter to the courts before the deadline for filing signatures.
And there is no irreparable harm to Reclaim Idaho. It is not prohibited from
re-filing its initiative. The district court erred when it equated the purpose and effect
of the measure and how it may affect education in Idaho with what is fundamentally
at issue in this case—Reclaim Idaho’s circulation of its petition. Reclaim Idaho failed
to meet Idaho’s legislatively created procedures and deadlines governing initiatives
and this “one-time” exception cannot be condoned, no matter the subject matter of the
initiative. The district court further erred when it found irreparable harm based on
speculation that Reclaim Idaho’s initiative would pass and have its intended effect
and then attributed this theoretical speculative injury to education to Reclaim Idaho.
Reclaim Idaho’s substantial delay has rendered it impossible to grant it an
extension without thoroughly interfering with Idaho’s election process. The serious
harm that Applicants and the voters of the State of Idaho will suffer far outweigh any
injury to Reclaim Idaho.
CONCLUSION
Applicants respectfully request that this Court stay the district court’s
preliminary injunction orders during the appeal before the Ninth Circuit and through
final disposition of a petition for writ of certiorari, if timely filed.

37

Respectfully submitted,

uti24L~--

ATTORNEY GENERAL STATE OF IDAHO

BRIAN KANE

Assistant Chief Deputy
STEVEN L. OLSEN

Chief of Civil Litigation
A. LARRONDO
MEGAN
I
ROBERT A. BERRY
Deputy Attorneys General
Counsel of Record
954 W. Jefferson - 2nd Floor
P. 0. Box 83720
Boise, ID 83720-0010
Tel: (208) 334-2400
robert.berry@ag.idaho.gov
July 14, 2020

38

No. _________
In the Supreme Court of the United States
_____________________________________________________
BRADLEY LITTLE, in his official capacity as Governor of
Idaho; LAWERENCE DENNEY, in his official capacity as
Idaho Secretary of State
Applicants,
v.
RECLAIM IDAHO, an Idaho political action committee; LUKE
MAYVILLE,
Respondent.

On Application to the Honorable Elena Kagan to Stay the Order
of the U.S. District Court for the District of Idaho
APPENDIX TO EMERGENCY APPLICATION FOR
STAY
____________________________________________
LAWRENCE G. WASDEN
ATTORNEY GENERAL STATE OF
IDAHO
BRIAN KANE
Assistant Chief Deputy
STEVEN L. OLSEN
Chief of Civil Litigation
MEGAN A. LARRONDO
ROBERT A. BERRY
Deputy Attorneys General
Counsel of Record
954 W. Jefferson - 2nd Floor
P. O. Box 83720
Boise, ID 83720-0010
Tel: (208) 334-2400
robert.berry@ag.idaho.gov
Counsel for Applicants
July 14, 2020

TABLE OF CONTENTS
Court of Appeals Order Denying Emergency Stay and Dissent
(July 9, 2020).................................................................................................... App. 1
District Court Order Granting in Part and Denying in Part
Plaintiffs’ Motion to Enforce the Court’s Order (June 30, 2020) ................... App. 5
District Court Order Denying Motion to Stay (June 29, 2020)...................... App. 9
Excerpt of Transcript of Video Conference Proceedings Before the
Honorable B. Lynn Winmill (June 23, 2020) ................................................ App. 13
District Court Memorandum Decision and Order (June 26, 2020) ............. App. 18
Exhibit A to Status Report Filed by Reclaim Idaho in the District
Court (July 10, 2020) (Letter from Attorney Deborah A. Ferguson
to Deputy Attorney General Robert Berry dated July 8, 2020) ................... App. 45
District Court Notice Re: Dkt. 19 (July 9, 2020) .......................................... App. 50
Statewide Stay-Home Order (dated March 25, 2020, effective
April 15, 2020 and Amended April 15, 2020) ............................................... App. 55
Corrected Supplemental Declaration of Phil McGrane in Support
of Defendants and Exhibit (June 23, 2020) .................................................. App. 73
Supplemental Declaration of Jason Hancock in Support of
Defendants (June 23, 2020) ........................................................................... App. 80
Declaration of Phil McGrane in Support of Defendants (June 18,
2020) ............................................................................................................... App. 84
Declaration of Jason Hancock in Support of Defendants and
Exhibit A (June 18, 2020) ............................................................................. App. 90
Declaration of Sheryl Millard in Support of Defendants and
Exhibit A (June 17, 2020) .............................................................................. App. 97
Declaration of Andrew Mitzel in Support of Defendants and
Exhibit A (June 18, 2020) ............................................................................ App. 102
Declaration of Luke Mayville in Support of Motion for Preliminary
Injunction (June 5, 2020)............................................................................. App. 109
Declaration of Linda Larson in Support of Motion for Preliminary
Injunction (June 6, 2020)............................................................................. App. 126
View of www.reclaimidaho.org (taken July 13, 2020) ................................ App. 131

Case: 20-35584, 07/09/2020, ID: 11747404, DktEntry: 14-1, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

(1 of 4)

FILED
JUL 9 2020
MOLLY C. DWYER, CLERK

RECLAIM IDAHO, an Idaho political
action committee; LUKE MAYVILLE,
Plaintiffs-Appellees,
v.
BRAD LITTLE, in his official capacity as
Governor of Idaho; LAWERENCE
DENNY, in his official capacity as Idaho
Secretary of State,

No.

20-35584

U.S. COURT OF APPEALS

D.C. No. 1:20-cv-00268-BLW
District of Idaho,
Boise
ORDER

Defendants-Appellants.
Before: THOMAS, Chief Judge, SCHROEDER and CALLAHAN, Circuit Judges.
Appellants’ motion (Docket Entry No. 2) to stay the district court’s June 26,
2020 and June 30, 2020 orders pending appeal is denied. See Nken v. Holder, 556
U.S. 418, 425–26 (2009).
The court sua sponte expedites this appeal. The opening brief is due July 17,
2020. The answering brief is due July 29, 2020. The optional reply brief is due
August 3, 2020.
No streamlined extensions of time will be approved. See 9th Cir. R. 312.2(a)(1). No written motions for extensions of time under Ninth Circuit Rule 312.2(b) will be granted absent extraordinary and compelling circumstances.

App. 001

(2 of 4)

Case: 20-35584, 07/09/2020, ID: 11747404, DktEntry: 14-1, Page 2 of 2

The Clerk shall place this case on the calendar for August 2020. See 9th Cir.
Gen. Order 3.3(g).

2

20-35584

App. 002

Case: 20-35584, 07/09/2020, ID: 11747404, DktEntry: 14-2, Page 1 of 2

(3 of 4)

CALLAHAN, Circuit Judge, dissenting:
I respectfully dissent.

The appellants have demonstrated the requisite

likelihood of success on the merits and probability of irreparable harm to warrant a
stay pending appeal, and the remaining stay factors weigh in their favor. See Nken
v. Holder, 556 U.S. 418, 425–26 (2009).
The appellants have made a substantial showing that the district court
exceeded its authority by awarding relief that effectively rewrites Idaho’s election
laws, particularly its law designed to protect against fraud in the initiative process.
See Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (explaining that states have a vital
interest in regulating their election processes); see also Republican Nat’l Comm. v.
Democratic Nat’l Comm., 140 S. Ct. 1205, 1207 (2020) (reiterating that the Supreme
Court “has repeatedly emphasized that lower federal courts should ordinarily not
alter the election rules on the eve of an election”). The district court cannot create
by judicial fiat a process for electronic signature gathering that is not otherwise
permitted under Idaho’s laws. That is up to the state’s legislature.
The appellants also have made a substantial showing that the appellees failed
to act with the necessary diligence to trigger the heightened standard of review
applied by the district court. See Angle v. Miller, 673 F.3d 1122, 1133–34 (9th Cir.
2012).

App. 003

Case: 20-35584, 07/09/2020, ID: 11747404, DktEntry: 14-2, Page 2 of 2

(4 of 4)

The remaining factors support granting the stay as well. See Abbott v. Perez,
138 S. Ct. 2305, 2324 (2018) (explaining that absent a constitutional violation, an
injunction that bars a “State from conducting [its] elections pursuant to a statute
enacted by the Legislature . . . would seriously and irreparably harm the State”);
Purcell, 549 U.S. at 4 (“A State indisputably has a compelling interest in preserving
the integrity of its election process.”).
Accordingly, I would grant the appellants’ motion to stay.

2
App. 004

Case 1:20-cv-00268-BLW Document 19 Filed 06/30/20 Page 1 of 4

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,
Plaintiffs,
v.
BRADLEY LITTLE, in his official
capacity as the Governor of Idaho, and
LAWERENCE DENNEY, in his
official capacity as Idaho’s Secretary
of State,

Case No. 1:20-cv-00268-BLW
ORDER GRANTING IN PART
AND DENYING IN PART
PLAINTIFFS’ MOTION TO
ENFORCE THE COURT’S
ORDER

Defendants.
INTRODUCTION
Pending before the Court is Reclaim Idaho’s Expedited Motion to Enforce
the Court’s Order. Dkt. 18. For the reasons that follow, the Court will grant in part
and deny in part Plaintiffs’ motion.
BACKGROUND
On June 23, 2020, the Court heard oral argument on Plaintiffs’ Expedited
Motion for Preliminary Injunction. Dkt. 2. At the close of arguments, the Court
orally granted the motion. A written order was subsequently filed to set forth the
facts, circumstances, and legal framework the Court considered in conducting its

ORDER DENYING MOTION TO ENFORCE THE COURT’S ORDER – 1
App. 005

Case 1:20-cv-00268-BLW Document 19 Filed 06/30/20 Page 2 of 4

analysis of the motion and in fashioning relief. Dkt. 14. Thereafter, Defendants
filed a motion seeking a stay of the Court’s order pending their appeal to the Court
of Appeals for the Ninth Circuit. Dkt. 16. The Court denied the motion for a stay—
and its order granting Plaintiff’s motion for injunction stands. Dkt. 17.
The Court’s decision allowed the State to choose between two options
available to secure Reclaim Idaho’s constitutional rights in the initiative process.
The State could choose between (1) certifying the signatures already gathered are
sufficient to have the initiative placed on the 2020 ballot; or (2) allowing Reclaim
Idaho an additional 48-days to gather signatures through online solicitation and
submission. The State has indicated it will file an appeal, and declined to choose
either option. See Dkt. 16. Citing the State’s refusal, Reclaim Idaho now asks the
Court to order Defendants to certify the initiative for the November ballot. Dkt. 18
at 2.
DISCUSSION
Reclaim Idaho argues the option to gather signatures through an online
process would require the State to engage in developing a “process and protocol”
with Reclaim Idaho. Id. Reclaim Idaho argues that, “Defendants’ clear response
shows that they have no intention of cooperating with Reclaim Idaho” and thus the
only relief available is an order that Defendants certify the initiative for the
November 2020 ballot. Id. However, it is not clear that the State is unwilling to

ORDER DENYING MOTION TO ENFORCE THE COURT’S ORDER – 2
App. 006

Case 1:20-cv-00268-BLW Document 19 Filed 06/30/20 Page 3 of 4

work with Reclaim Idaho in fashioning an online solicitation process if ordered to
do so by the Court. And, ordering an online solicitation pays greater respect to the
State’s right to limit the initiative process in ways which do not violate the
Plaintiffs’ First Amendment rights. Finally, online solicitation is the specific
remedy originally sought by the Plaintiffs. For these reasons, the Court will grant
the Plaintiffs’ motion in directing the State to comply with the Court’s order, but
will not require immediate certification of the Plaintiffs initiative for the 2020
ballot.
At this point, no appeal has been filed by the State, and it necessarily follows
that no stay has been granted by the Ninth Circuit Court of Appeals. Unless such a
stay is granted, the State must fully comply with the Court’s orders. Having
declined to choose between certifying the initiative for the 2020 ballot and
accepting online solicitation of signatures, the Court will direct the State to
immediately begin implementation of the remedy originally requested by the
Plaintiffs – online solicitation and acceptance of signature.
According to Reclaim Idaho’s motion for injunction, “it has developed a
plan to contract with DocuSign, a company trusted by financial institutions with an
impeccable tradition for reliability in gathering electronic signatures.” Dkt. 2-1 at
2. Reclaim Idaho stated that DocuSign, “stands ready to provide its service
immediately.” Id. at 10. Counsel will be ordered to meet and confer by Thursday,

ORDER DENYING MOTION TO ENFORCE THE COURT’S ORDER – 3
App. 007

Case 1:20-cv-00268-BLW Document 19 Filed 06/30/20 Page 4 of 4

July 2, to implement the process and protocol for accepting signatures gathered
through the DocuSign technology. Absent an agreement of counsel to the
contrary, that process and protocol shall be completed by Thursday, July 9, and
Plaintiffs may thereafter resume the solicitation of signatures for a period of 48
days. Should counsel be unable to reach an agreement as to the process and
protocol, Reclaim Idaho may implement an industry standard process and protocol.
Such process and protocol must ensure the highest available standards are used to
verify a signer’s identity, legislative district, and the authenticity of the signature.
ORDER
IT IS ORDERED that:
1.

Plaintiff’s Expedited Motion to Enforce the Court’s Order (Dkt. 18) is
GRANTED IN PART and DENIED IN PART as explained in this
decision.

2.

The 48-day period provided for Reclaim Idaho to resume its petition
gathering activities begins July 9, 2020.

DATED: June 30, 2020
_________________________
B. Lynn Winmill
U.S. District Court Judge

ORDER DENYING MOTION TO ENFORCE THE COURT’S ORDER – 4
App. 008

Case 1:20-cv-00268-BLW Document 17 Filed 06/29/20 Page 1 of 4

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,
Plaintiffs,
v.

Case No. 1:20-cv-00268-BLW
ORDER DENYING MOTION TO
STAY

BRADLEY LITTLE, in his official
capacity as the Governor of Idaho, and
LAWERENCE DENNEY, in his
official capacity as Idaho’s Secretary
of State,
Defendants.
On June 23, 2020, the Court heard oral argument on Plaintiffs’ Expedited
Motion for Preliminary Injunction. Dkt. 2. At the close of arguments, the Court
orally granted the motion. A written order was subsequently filed to set forth the
facts, circumstances, and legal framework the Court considered in conducting its
analysis of the motion and in fashioning relief. Dkt. 14.
In its oral pronouncement and written order, the Court applied the test set
out by the Ninth Circuit in Angle v. Miller, to conclude that the State’s refusal, in
the face of a global pandemic, to extend the statutory deadline and permit online
ORDER DENYING MOTION TO STAY – 1
App. 009

Case 1:20-cv-00268-BLW Document 17 Filed 06/29/20 Page 2 of 4

solicitation and gathering of signatures to have a citizen’s initiative placed on the
2020 ballot amounts to an unconstitutional burden on the Plaintiffs’ First
Amendment rights. See 673 F.3d 1122, 1132 (9th Cir. 2012). Based on that
determination, the Court concluded that Plaintiff had established it is likely to
succeed on the merits, it will suffer irreparable harm in the absence of preliminary
relief, the balance of the equities tips in its favor, and an injunction is in the
interests of the public.
The Court acknowledged in its decision that the issue of an appropriate
remedy was challenging. Ultimately, however, the Court concluded that the State
could either certify the signatures already gathered are sufficient to have the
initiative placed on the 2020 ballot, or could allow Reclaim Idaho an additional 48days to gather signatures through online solicitation and submission. The Court’s
order gave the State until Friday, June 26, 2020 to choose between the two
alternative remedies.
The State declined the Court’s invitation and, instead, filed a Notice and
Motion to Stay Pursuant to F.R.C.P. 62(d) and F.R.A.P. 8. Dkt. 16. The State’s
motion challenges the Court’s decision, and requests that the Court stay the effect
of its decision pending an appeal.
Unless the Court orders otherwise, “an interlocutory or final judgment in an
action for an injunction” is not stayed after being entered, even if an appeal is

ORDER DENYING MOTION TO STAY – 2
App. 010

Case 1:20-cv-00268-BLW Document 17 Filed 06/29/20 Page 3 of 4

taken. Fed. R. Civ. P. 62(c)(1). Federal Rule of Civil Procedure 62(d) governs
injunctions pending an appeal. The rule provides that, “[w]hile an appeal is
pending from an interlocutory order or final judgment that grants or refuses to
modify an injunction” the Court may “suspend, modify, restore, or grant an
injunction” on “terms that secure the opposing party’s rights.” Fed. R. Civ. P.
62(d). Thus, Rule 62(d) affords the Court discretion when a party requests a stay of
an injunction pending appeal.
A stay pending appeal overlaps with the function of a preliminary
injunction—each prevents “some action before the legality of that action has been
conclusively determined.” Nken v. Holder, 556 U.S. 418, 428-29 (2009). “A stay is
an ‘intrusion into the ordinary processes of administration and judicial review.’”
Id. at 427 (citing Virginia Petroleum Jobbers Assn. v. FPC, 259 F.2d 921, 925
(C.A.D.C.1958) (per curium). Accordingly, a stay pending resolution on appeal “is
not a matter of right, even if irreparable injury might otherwise result to the
appellant.” Virginian R. Co. v. United States, 272 U.S. 658 (1926).
Here, the Court will exercise its discretion to deny the State’s motion.
Simply put, staying the effect of the Court’s decision will deny the Plaintiffs an
effective remedy. There is a narrow window of opportunity to provide Reclaim
Idaho and the State the time necessary to establish the process and protocol for
gathering signatures on-line and then provide Recall Idaho with the requested 48-

ORDER DENYING MOTION TO STAY – 3
App. 011

Case 1:20-cv-00268-BLW Document 17 Filed 06/29/20 Page 4 of 4

days to complete the on-line solicitation and gathering of signatures. Granting a
stay of the Court’s decision would effectively prevent Reclaim Idaho from having
its initiative placed on the 2020 general ballot, and thereby deny it the remedy
required by the First Amendment.
ORDER
IT IS ORDERED that:
1.

Defendants’ Notice And Motion To Stay Pursuant To F.R.C.P. 62(D)

and F.R.A.P. 8 (Dkt. 16) is DENIED.

DATED: June 29, 2020
_________________________
B. Lynn Winmill
U.S. District Court Judge

ORDER DENYING MOTION TO STAY – 4
App. 012

1

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF IDAHO

3
4
5
6
7
8
9
10

RECLAIM IDAHO, an Idaho
political action committee,
and LUKE MAYVILLE,

) Case No. 1:20-cv-00268-BLW
)
) MOTION HEARING
)
Plaintiffs,
)
)
vs.
)
)
BRADLEY LITTLE, in his official )
capacity as Governor of Idaho, )
and LAWERENCE DENNEY his
)
official capacity as Idaho
)
Secretary of State,
)
)
Defendants.
)
_______________________________ )

11
12
13

TRANSCRIPT OF VIDEO CONFERENCE PROCEEDINGS
BEFORE THE HONORABLE B. LYNN WINMILL
TUESDAY, JUNE 23, 2020; 2:00 P.M.
BOISE, IDAHO

14
15
16
17

FOR PLAINTIFFS
Deborah Ferguson
Craig H. Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
Boise, ID 83712

18
19
20
21
22
23
24
25

FOR DEFENDANTS
Robert A. Berry, Deputy Attorney General
Civil Litigation Division
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 83720
Boise, ID 83720-0010
Proceedings recorded by mechanical stenography, transcript
produced by computer.
___________________________________________________
TAMARA I. HOHENLEITNER, CSR 619, CRR
FEDERAL OFFICIAL COURT REPORTER
550 WEST FORT STREET, BOISE, IDAHO 83724

App. 013

12

They realized, at some point then, the danger to the

1
2

public to continue to circulate among it and collect signatures

3

was just far too great.

4

volunteers, that army of volunteers, primarily senior citizens,

5

who are -- you know, have extra exposure and risk of death from

6

COVID.

It was also too great for the

So once that became clear, it really forced a

7
8

suspension.

This occurred after the governor had

9

initiated -- declared a state of emergency and then extreme

10

emergency.

And then there was the shelter in place, and that

11

became a misdemeanor to try to -- to attempt to collect

12

signatures or to leave our homes during those many weeks.
And so that brings us to:

13

What's Reclaim doing now?

14

And there was a real tone of criticism from the state in its

15

brief that Reclaim should have brought this lawsuit sooner.
And I would -- I would say this can't be viewed in

16
17

some bubble or isolation.

This is being brought during the

18

middle of the pandemic and the shutdown.

19

Like the courts, our law office here was closed, and

20

Mr. Durham and I worked from our respective homes at makeshift

21

offices.
I was contacted by Mr. Mayville on a weekend as he

22
23

described the situation of the initiative, and there was a big

24

ask:

25

home, already trying to just patch through our clients and

In the middle of this pandemic, while you're working from

App. 014

17

1

reading these -- these cases, reading Angle and other cases

2

about initiatives when they arise in the context of the

3

government, state legislatures making it more difficult and then

4

the courts grasping -- you know, looking at, you know, how

5

severe is this burden.
Well, we have got a totally different paradigm here.

6
7

I mean, the burden with the stay-at-home order subject to

8

criminal misdemeanor penalties is -- is absolute.

9

It's -- it's -- it's severe.

So I don't think there is

10

any -- any doubt that this has inflicted just an incredible

11

burden and really made it impossible for Reclaim Idaho to

12

continue to get this important initiative on the ballot.
THE COURT:

13

All right.

One of the comments that were

14

made in the briefing was that the governor did not make an

15

exception for First Amendment activities.

16

I guess I was a little skeptical whether that would

17

have made any difference because just people -- well, I mean,

18

maybe it's belied by the fact that people were willing to go out

19

and protest, obviously, after the Black Lives Matter issue

20

arose.

21

than to take to the streets to protest something as dramatic as

22

what occurred in Minneapolis.

23

But it's a little bit different to collect signatures

(Inaudible) had exempted First Amendment activity from

24

his stay-at-home order?

25

MS. FERGUSON:

In all candor, no.

I don't think so.

App. 015

48

1
2

something on the ballot and do nothing more than that.
The other alternative is to permit online solicitation

3

for another -- I think it was 48 days -- whatever the number of

4

days were between the cutoff and the date in which they stopped

5

soliciting and allow online solicitation, collection, and

6

certification of signatures similar to the manner suggested by

7

the plaintiffs.

8
9
10
11

But frankly, I find that more problematic because I
think it does force the court to run the elections, run the
initiative process for the state, which I'm reluctant to do.
But I also understand that the state may have

12

reasons -- perhaps the relationship between the governor and

13

secretary of state and the legislature may be such a compelling

14

reason -- that they would -- that they would prefer to undertake

15

that substantial effort as opposed to simply allow

16

certification.

17

So what I'm going to order is that the state will be

18

given the choice, which they must exercise by week's end, to

19

either simply certify the initiative or inclusion on the general

20

election ballot or extend by the same number of days that we

21

discussed earlier -- I want to say 48 days -- and then allow

22

online solicitation, collection, and certification of signatures

23

similar to the manner suggested by the plaintiffs.

24
25

I wish it were possible to just extend the date and
still require in-person certification.

But as I noted, I don't

App. 016

1

REPORTER'S CERTIFICATE

2
3
4

I, TAMARA I. HOHENLEITNER, CSR, RPR, CRR, certify that

5

the foregoing is a correct transcript of proceedings in the

6

above-entitled matter.

7
8
9
10
11
12
13
14
15

/s/ Tamara I. Hohenleitner
_____________________________________
TAMARA I. HOHENLEITNER, CSR, RPR, CRR

06/26/2020
__________
Date

16
17
18
19
20
21
22
23
24
25

App. 017

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 1 of 27

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,

Case No. 1:20-cv-00268-BLW
MEMORANDUM DECISION
AND ORDER

Plaintiffs,
v.
BRADLEY LITTLE, in his official
capacity as the Governor of Idaho, and
LAWERENCE DENNEY, in his
official capacity as Idaho’s Secretary
of State,
Defendants.

INTRODUCTION
On June 23, 2020 the Court heard oral argument on Plaintiffs’ Expedited
Motion for Preliminary Injunction. Dkt. 2. At the close of arguments, the Court
orally granted the motion. As stated during the hearing, oral decision was
warranted given the expedited nature of the situation and the rights at issue. This
written order further details the facts, circumstances, and legal framework the
Court considered in conducting its analysis of the motion and in fashioning relief.

MEMORANDUM DECISION AND ORDER – 1
App. 018

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 2 of 27

BACKGROUND
Reclaim Idaho is a volunteer-run political action committee that is seeking to
place a citizen initiative on the November 2020 general election ballot. Dkt. 2-1 at
1. Luke Mayville is the committee’s co-founder. Id. The Court will refer to the
Plaintiffs collectively as “Reclaim Idaho.” Reclaim Idaho filed suit against the
Governor of Idaho, Bradley Little, and Idaho’s Secretary of State, Lawrence
Denny. The Court will refer to the Defendants collectively as “the State.” Reclaim
Idaho sued the State for alleged violations of federal constitutional rights within
Idaho’s citizen initiative process. See Compl., Dkt. 1. The complaint was
accompanied by Reclaim Idaho’s expedited motion for preliminary injunction
seeking redress for the alleged constitutional violations.
Reclaim asks the Court to: (1) declare the State’s application of I.C. § 341802 in the unprecedented COVID-19 pandemic scenario violates the U.S.
Constitution by unfairly burdening the initiative process; (2) declare that the
State’s application of I.C. § 34-1807 on the facts and circumstances violates the
U.S. Constitution by unduly the burdening signature gathering efforts in support of
the Invest in Idaho initiative; (3) issue a preliminary injunction enjoining the
State’s enforcement of I.C. § 34-1802 and I.C. § 34-1807 for as long as necessary
to remove the undue burden; (4) issue a preliminary injunction extending the
deadline to submit petition signatures to county clerks for verification; (5) issue a

MEMORANDUM DECISION AND ORDER – 2
App. 019

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 3 of 27

preliminary injunction extending the deadline to submit petition signatures to the
Secretary of State; (6) issue a preliminary injunction to permit the electronic
circulation of the initiative and to the State to accept electronic signatures. Dkt. 1 at
11.
The State filed a response in opposition, asserting Reclaim Idaho lacks
standing to bring this matter due to its own dilatory conduct and, relatedly, is
barred by the doctrine of laches due to its delay in bringing the suit and motion
more than a month after the applicable deadline. Dkt. 8 at 1-2. In addition, the
State argues Reclaim Idaho asks the “Court to aggressively invade the Idaho
Legislature’s constitutionally-created authority and create a signature-gathering
alternative that is nowhere contemplated by the Idaho Constitution or Code.” Id. at
2. The State argues also that, the Court should decline the request for preliminary
relief because Reclaim Idaho will not be successful on the merits of its claim and
the burdens the relief would impose on the State are substantial. Id. at 3.
The following facts and circumstances form the backdrop of this dispute.
A.

Idaho’s Ballot Initiative Process

Idaho citizens may enjoy the right reserved by Idaho’s Constitution to
propose and enact laws independent of any act of the state legislature. See Idaho
Const. Art. III, sec. 1. Since the 1890 approval of Idaho’s Constitution, the state
legislature has enacted a statutory scheme to define the citizen initiative process.

MEMORANDUM DECISION AND ORDER – 3
App. 020

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 4 of 27

See Idaho Code §§ 35-1801 et. seq. The laws set forth conditions that a petitioner
must meet before an initiative will be placed on a general election ballot by the
Secretary of State. Id.
A petitioner begins the process by filing a proposed ballot initiative with the
Secretary of State’s office. Idaho Code § 34-1801(a). After review and approval of
the initiative’s form, the Secretary of State provides the petitioner with a ballot
title. Id. at § 34-1809(2)(b). With the ballot title and approval in hand, the
petitioner may begin to collect signatures in support of the initiative. The statue
allows petitioners up to 18 months to collect signatures—with a final submission
deadline of April 30 in the election year the initiative will be held. Idaho Code §
34-1802.
Idaho law requires petitioners to gather the signatures of legal voters equal
to 6 percent of the qualified electors from the last election in 18 of Idaho’s
legislative districts. Idaho Code § 34-1805. In this case, the last election was the
November 2018 general election. Considering the number of qualified electors
from 2018, a petitioner seeking to place an initiative on the November 2020 ballot
must have collected 55,057 or more valid signatures. Dkt. 1 at 4. The law requires
also that, any person working to gather signatures be a citizen of Idaho. Idaho
Code § 34-1807. The signature gatherer must verify that they personally witnessed

MEMORANDUM DECISION AND ORDER – 4
App. 021

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 5 of 27

each person sign the petition—in other words, Idaho has an in-person signature
requirement. Id.
All signatures must be submitted to the appropriate county clerk for
verification no later than the close of business on May 1 in the year of the election,
(or 18 months from the date the petitioner receives the official ballot title from the
SOS, whichever is earlier). Idaho Code § 34-1802(2). County clerks must verify
the signatures by June 30 of the election year. Id. at § 34-1802(3). The verified
signatures are submitted to the Secretary of State’s office, which makes the final
count to determine if enough signatures have been collected to meet the statutory
requirement. Id. If so, the initiative is included on the general election ballot for
citizen consideration and vote.
B.

Reclaim Idaho’s Initiative Actions

In 2019, Reclaim Idaho started “Invest in Idaho,” an initiative drive aimed at
getting an initiative on the 2020 general election ballot which would allow voters
to approve an increase in funding for kindergarten through 12th grade education in
Idaho. Dkt. 2-1 at 2. Reclaim Idaho was formed in 2017 and successfully
petitioned to place an initiative to expand Medicaid on the November 2018 ballot.
Id. at 4. Idaho citizen voters passed the initiative into law. Id.
Reclaim Idaho used the successful model it developed for the Medicaid
petition to organize its Invest in Idaho initiative drive. Id. The model included

MEMORANDUM DECISION AND ORDER – 5
App. 022

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 6 of 27

“early stage” volunteer recruitment events, where the group worked to build teams
in Idaho’s legislative districts. Id. at 4–5. The model also included a plan to
gradually scale up signature collection efforts in the final months before the May 1,
2020 submission deadline. Id. at 5. According to declarations submitted in support
of the motion, the gradual scaling of Reclaim Idaho’s efforts reached “critical
mass” in early March 2020—the surge in volunteers and favorable springtime
weather and daylight hours was anticipated to boost its organizing efforts in the
final stages of its drive. Silver Decl., Dkt. 2-4 at 4.
According to its model, Reclaim Idaho began its initiative drive in
September 2019. Schroeder Decl., Dkt. 2-3 at 3. Reclaim Idaho held twenty-five
volunteer organizing meetings and signature gathering events between September
14, 2019 and December 15, 2019. Id. at 2–3. Reclaim Idaho held five more events
between the first of the year and January 3, 2020. Id. at 4. Thereafter, Reclaim
Idaho’s organizing leaders held signature gathering events in their own districts
throughout the month of February and into early March. Id. In some districts, such
as District 4, Reclaim Idaho held a signature gathering event each week. Id.; see
also Prince Decl., Dkt. 2-5 at 2.
These efforts slowed with the news of the COVID-19 pandemic. Dkt. 2-3 at
4–5. During the week of March 8, 2020, Reclaim Idaho’s leadership began to
communicate with its local volunteer leaders regarding a set of guidelines it

MEMORANDUM DECISION AND ORDER – 6
App. 023

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 7 of 27

developed for safer signature collection. Id. Around that time, the Centers for
Disease Control (CDC) issued guidance to curb the spread of the novel
coronavirus. Id. at 5. Maintaining a distance between oneself and others of at least
six feet was – and still is – one of the CDC’s main recommendations to prevent the
spread of the virus. See id. Provided this guidance and rising health concerns
voiced by its volunteers, Reclaim Idaho cancelled all door-to-door canvassing
events and signature gathering efforts at larger public events on or around March
18, 2020. Id. at 8.
C.

Executive COVID-19 Response

Meanwhile the State of Idaho was also responding to the threat of the virus.
As news of Idaho’s first confirmed case broke, Idaho Governor Bradley Little
quickly took executive action to curb the spread of COVID-19 in the state. See
Dkt. 8 at 5–6. On March 13, 2020, he declared a state of emergency by
proclamation due to “the occurrence and imminent threat to public health and
safety arising from the effects of the 2019 novel coronavirus (COVID-19).” Dkt. 21 at 7. On March 25, 2020, the Governor issued an extreme emergency
proclamation which contained a broad stay-at-home order for most Idahoans. Id. at
9. The stay-at-home order was in effect until April 15, 2020. The order required
“all individuals anywhere in the State of Idaho to self-isolate – that is, stay at home
– except for certain essential activities and work to provide essential business and

MEMORANDUM DECISION AND ORDER – 7
App. 024

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 8 of 27

government services or perform essential public infrastructure construction,
including housing.” The order stated that failure to comply with its provisions
could constitute a misdemeanor. It included exceptions for certain people or
activities, but did not include an exception for First Amendment activities.1 The
stay at home order was amended on April 15, 2020 and extended to April 30, 2020.
The amended order also did not include an exception for First Amendment
activities. When the amended order expired, it was replaced with Idaho’s first
“Stay Healthy Order,” which was part of the State’s staged reopening plan set forth
in the broader “Idaho Rebounds” action. Idaho began to reopen according to the
staged plan on May 1, 2020.
D.

State Response to Reclaim Idaho’s Inquiries

On March 16, 2020, Reclaim Idaho contacted the offices of the Governor
and Secretary of State. Dkt. 2-1 at 12; Dkt. 8 at 5. Because the parties dispute the
express intent of the communications, the Court will briefly detail their content.
According to the record before the Court, the public relations director for
Reclaim Idaho, Rebecca Schroeder, emailed Andrew Mitzel, Senior Advisor to
Governor Little, the morning of March 16, 2020. Dkt. 2-3 at 5. Ms. Schroeder’s

1

The Court takes judicial notice pursuant to the authority granted in Federal Rule of
Evidence 201(b) and (c)(1) of the full text of the Governor’s emergency proclamations and stayat-home orders to the extent they have not been fully referenced and included in the briefing on
this matter.

MEMORANDUM DECISION AND ORDER – 8
App. 025

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 9 of 27

email voiced Reclaim Idaho’s concerns about the potential negative health effects
involved in in-person signature collection efforts. She indicated that continuing to
gather petitions face-to-face would put volunteers and the general public at risk
and was contrary to the guidelines from public health officials. Id. at 6. Ms.
Schroeder noted that, as a result of health risk posed by in-person signature
gathering, “Idahoans are no longer able to exercise their constitutional right to
bring forward a ballot initiative.” Id. She asked for the opportunity for Reclaim
Idaho to meet with the Governor to discuss the safest way to move forward and
stated the “extraordinary situation requires action by the Governor to ensure the
public safety is maintained” while Reclaim Idaho exercised its Constitutional
rights. Id.
Mr. Mitzel’s response to the email was as follows: “Thanks for reaching out.
I would encourage you to reach out to the Secretary of State’s office with your
concerns regarding ballot initiatives as they oversee the process.” Id. Ms.
Schroeder sent a reply that she had simultaneously reached out to the Secretary of
State’s office, and had been advised that it would take Legislative or Executive
action to extend the signature deadline. Id. The email exchange included a final
response from Mr. Mitzel where he indicated “the Governor’s Office has no
intention of taking executive action on this matter.” Id. at 7.

MEMORANDUM DECISION AND ORDER – 9
App. 026

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 10 of 27

Ms. Schroeder also contacted the Secretary of State’s office on March 16,
2020. Her email to Secretary Denny included in part:
Dear Mr. Denney:
We are faced with a global pandemic. Idahoans are responding by
cancelling public events and dramatically reducing face-to-face
interactions. This reality creates extraordinary obstacles for Idaho's
ballot initiative process and the constitutional right of every Idahoan to
participate in that process. Idaho's initiative qualification laws, which
are among the strictest in the country, require tens of thousands of faceto-face interactions. In the interest of safeguarding the health of the
public and protecting the constitutional rights of Idahoans, we are
asking to authorize temporary online petitioning for Idaho ballot
initiatives. The state of Idaho conducts much of our public business
online, from voter registration to campaign finance documentation to
the registration of new corporations. It is well within our capacity as a
state to process petition signatures online. During these extraordinary
times, online petitioning is the most effective way to protect public
safety while maintaining the constitutional right of Idahoans to
participate in the ballot initiative process.
Please advise if this is within the realm of the SOS, or whether it would
require Legislative or Executive action.
Dkt. 2-3 at 7-8.

In response to the inquiry, a member of the Secretary of State’s staff replied as
follows:
Thank you and your fellow supporters for sharing your concern with us
via email. While we understand the current situation we are in is
unprecedented and can appreciate how the further efforts in attaining
the remaining signatures for your petition will be complicated
logistically, we are sorry to say that there is no statute allowing
electronic signatures for petitions in Idaho Statutes 34 Chapter 18.
Dkt. 2-3 at 8.

MEMORANDUM DECISION AND ORDER – 10
App. 027

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 11 of 27

According to the record before the Court, the exchanges detailed above
represent the entirety of communications between the parties regarding the issue of
signature collection during the pandemic.
The Court considered Reclaim Idaho’s motion for temporary restraining
order with these facts and circumstances in mind. Next, the Court will set forth the
standard of law and applicable legal framework for its analysis of the motion and
the State’s opposition.
STANDARD OF LAW
Motions for preliminary injunctions are governed by Federal Rule of Civil
Procedure 65. A plaintiff seeking a preliminary injunction must establish that: 1) it
is likely to succeed on the merits; 2) it is likely to suffer irreparable harm in the
absence of preliminary relief; 3) the balance of equities tips in its favor; and 4) an
injunction is in the public interest. See Winter v. Natural Resources Defense
Council, Inc., 555 U.S. 7, 20 (2008). A preliminary injunction is “an extraordinary
remedy never awarded as of right.” Id. at 24. “In each case, courts ‘must balance
the competing claims of injury and must consider the effect on each party of the
granting or withholding of the requested relief.’ Id. (citation omitted).
ANALYSIS
In addition to arguing Reclaim Idaho is unlikely to succeed on the basis of
its First Amendment-based claim, the State argues Reclaim Idaho lacks Article III

MEMORANDUM DECISION AND ORDER – 11
App. 028

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 12 of 27

standing. Prior to addressing the Winter factors, the Court will provide greater
detail regarding its finding that Reclaim Idaho has standing to bring this action and
seek a preliminary injunction.
A.

Standing

To establish standing under Article III, Reclaim Idaho had the burden of
establishing three elements: (1) it has “suffered an injury in fact—an invasion of a
legally protected interest which is (a) concrete and particularized, and (b) actual or
imminent, not conjectural or hypothetical”; (2) the injury is “fairly traceable to the
challenged action”; and (3) “it [is] likely, as opposed to merely speculative, that the
injury will be redressed by a favorable decision.” Lujan v. Defenders of Wildlife,
504 U.S. 555, 560–61 (1992) (internal citations and footnote omitted).
When the suit is one challenging the legality of government action or
inaction, the nature and extent of facts that must be averred […] to establish
standing depends considerably upon whether the plaintiff is […] an object of
the action (or forgone action) at issue. If he is, there is ordinarily little
question that the action or inaction has caused him injury, and that a judgment
preventing or requiring the action will redress it.

Id. at 561–62.
As I noted during the motion hearing, the first and third elements of the
standing inquiry are easily recognized and established under these facts and
circumstances. Indeed, the State focused its standing argument on the second
element, arguing the alleged First Amendment violation was not fairly traceable to
the actions or inaction of the State. See Dkt. 8 at 7.

MEMORANDUM DECISION AND ORDER – 12
App. 029

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 13 of 27

Reclaim Idaho is challenging the legality of the State’s refusal to make
reasonable accommodations for the continuation of its signature gathering and
petition circulation activities during the pandemic, which resulted in the stay-athome order discussed above. See Dkt. 1 at 11. As primary support for the
contention that the State’s refusal to act resulted in injury to its First Amendment
rights, Reclaim Idaho cites the declaration of Ms. Schroeder. Dkt. 2-3. In the
declaration, Ms. Schroeder details her communications with the offices of
Governor Little and Secretary Denny. Id. In her communication with the
Governor’s office, Ms. Schroeder was clear that the impact of health concerns and
the guidance of public health officials made it impossible for Idahoans to continue
to exercise their constitutional rights to bring forth a ballot initiative. Id. at 6. She
noted also that, the “extraordinary situation requires action by the Governor to
ensure the public safety is maintained” while also preserving the constitutional
rights within the initiative process. Id.
In response, the State argues that because the Governor is not involved in the
oversight, management, or legislation of the initiative process, his inaction does
not give Reclaim Idaho standing to sue. Dkt. 8 at 5. The Court finds the State’s
argument unpersuasive in light of the extraordinary situation imposed on all parties

MEMORANDUM DECISION AND ORDER – 13
App. 030

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 14 of 27

by the COVID-19 pandemic and the Governor’s authority to issue executive orders
in times of declared emergency.2
Using similar reasoning, the State argues that the Secretary of State did not
act and could not act to provide a remedy. The email correspondence between Ms.
Schroeder and a staff member of the Secretary’s offices shows the Secretary’s only
response to Reclaim Idaho’s inquiry was to refer back to the limitations of the
statue—in other words, to interpret the statutory conditions narrowly, even in the
face of the pandemic. See Dkt. 8 at 7. This was the Secretary’s response and a
choice that arguably impacted the ability of Reclaim Idaho to continue to exercise
its constitutional rights within the petition process. Provided the foregoing, the
Court finds that the inaction of the State resulted in the alleged injury to Reclaim
Idaho.
The Court must also address the State’s arguments that it was Reclaim
Idaho’s own decisions that resulted in its failure to collect the requisite number of
signatures. Dkt. 8 at 7. The State argues that by deciding to begin its signature
collection campaign in September 2019, Reclaim Idaho failed to take advantage of
the entire 18-month signature collection window permitted within the statute. Id.

2

As an example of such authority, during the hearing on the motion, the undersigned
noted actions taken by the Governor and the State to extend the deadline for submission of
absentee ballots, revise primary election deadlines, and to all but eliminate in-person primary
voting due to the pandemic and stay-at-home order.

MEMORANDUM DECISION AND ORDER – 14
App. 031

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 15 of 27

However, reason dictates that there is no way Reclaim Idaho could have predicted
the global COVID-19 pandemic when it began to plan its initiative drive—
planning which necessarily must have occurred in advance of August 2019 when
its petition was first submitted to the Secretary of State’s office. See Dkt. 8 at 7.
Further, Reclaim Idaho’s constitutional rights in the petition process are not
forfeitable based on a timeline. The rights exist throughout the duration of the
petition circulation process, whether on the first day or in the last months. The
Court properly addresses these concerns by determining the severity of the burden
within the context of the level of scrutiny that should be applied to evaluate the
effect of the State’s actions. See infra at pp. 17–22.
In sum, the Court finds the evidence shows Reclaim Idaho was reasonably
diligent in collecting signatures until the news of COVID-19 in Idaho and the
subsequent stay-at-home order made it impossible to do so. The Court finds the
evidence shows also, absent a preliminary injunction, Reclaim Idaho will be unable
to get the initiative on the ballot in November 2020. If the State had been willing to
extend the submission deadline or accept electronic signatures as urged by Reclaim
Idaho, the State could have redressed the alleged injury. As such, the Court finds
Reclaim Idaho has standing to proceed in this matter.

MEMORANDUM DECISION AND ORDER – 15
App. 032

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 16 of 27

B.

Likelihood of Success on the Merits

Reclaim Idaho asserts an as-applied challenge to Idaho’s initiative process
laws. As detailed above, Reclaim Idaho argues the decisions by the Governor and
Secretary of State to strictly enforce the conditions of Idaho’s ballot initiative laws
without reasonable accommodation has violated their First and Fourteenth
Amendment rights by making it impossible for the initiative to appear on the
November 2020 ballot. See Dkt. 1; Dkt. 2-1.
In response, the State argues Reclaim Idaho did not act with diligence in
collecting signatures before the 2020 general election given the 18-month
timeframe allowed by statute, and that Reclaim Idaho suspended its own campaign
in advance of the issuance of Idaho’s stay-at-home order. See Dkt. 8. To the merits
of the motion for preliminary injunction, the State argues Reclaim Idaho cannot
show the burden to their First Amendment rights was severe, due to the alleged
delay and action cited immediately above, and that the State’s regulatory interest
outweighs any harm to Reclaim Idaho—especially because they can begin the
initiative process anew for the 2022 election—and will have the entire 18-month
period to do so. Dkt. 8 at 2.
1. Constitutional Framework
Courts generally apply the framework established in Anderson v. Celebrezze,
as later refined in Burdick v. Takushi (the Anderson-Burdick framework) when

MEMORANDUM DECISION AND ORDER – 16
App. 033

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 17 of 27

considering the constitutionality of ballot access restrictions. 460 U.S. 780 (1983);
504 U.S. 428 (1992). However, because Reclaim Idaho is not challenging the base
constitutionality of Idaho’s ballot access conditions, but rather their application,
this Court finds, as did the U.S. District Court for the District of Nevada in Fair
Maps Nevada, that the test set out by the Ninth Circuit in Angle v. Miller is the
framework the Court should apply to determine whether the State’s inaction
amounts to an unconstitutional burden in this case. See 673 F.3d 1122, 1132 (9th
Cir. 2012). Notably, neither party contests the law on this issue.
In Angle, the Ninth Circuit explained the Supreme Court of the United States
has found there are two ways in which restrictions on the initiative process can
burden core political speech. 673 F.3d 1122, 1132 (9th Cir. 2012). First, when
regulations that restrict one-on-one communication between petition circulators
and voters. Id. Second, when regulations make it less likely proponents will be able
to get enough signatures to place an initiative on the ballot. Id.
The first type of restriction is largely not at issue in this case. The
management of the spread of COVID-19 has foreclosed in-person one-on-one
communication between Reclaim Idaho’s petition circulator volunteers and voters.
However, the second type of restriction is at issue because the question before the
Court is whether the State’s strict application of the statutory initiative conditions

MEMORANDUM DECISION AND ORDER – 17
App. 034

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 18 of 27

make or made it less likely for Reclaim Idaho to get enough signatures to place the
Invest in Idaho initiative on the ballot.
Reclaim Idaho has shown that the State refused to take executive action to
ensure Reclaim Idaho could continue to safely gather signatures from March 16,
2020, when the request was made to both the Governor and the Secretary of State,
through the end of the amended stay-at-home order, or April 30, 2020.
Coincidently, April 30th was also the last day permitted by statute to gather
signatures. Therefore, the Court finds the State’s refusal to make reasonable
accommodations during this time period made it less likely for Reclaim Idaho to
get enough signatures to place the Invest in Idaho initiative on the November 2020
ballot. In reality, the State’s refusal to act made it impossible for Reclaim Idaho to
get the initiative on the ballot absent an order of relief from this Court.
Having found a burden on Reclaim Idaho’s core political speech, the Court
must determine whether strict scrutiny or some lesser form of review applies to the
State’s conduct. See Arizonans for Fair Elections v. Hobbs, 2020 WL 1905747, at
*8 (D. Ariz. Apr. 17, 2020); see also Ariz. Green Party v. Reagan, 838 F.3d 983,
985 (9th Cir. 2016). Courts apply strict scrutiny when: (1) the proponents of the
initiative have been “reasonably diligent” as compared to other initiative
proponents; and (2) when the restrictions significantly inhibit the proponents’

MEMORANDUM DECISION AND ORDER – 18
App. 035

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 19 of 27

ability to place an initiative on the ballot. Fair Maps Nevada v. Cegavske, 2020
WL 2798018, at *11 (D. Nev. May 29, 2020).
a. Reasonable Diligence
As detailed above, by the start of 2020, Reclaim Idaho had held 25 volunteer
organizing and signature gathering events since receiving their ballot title a few
months prior. By the middle of February 2020, Reclaim Idaho had collected
approximately 15,000 signatures. By mid-March, they had collected approximately
30,000 signatures. At that time, they had qualified in 5 out of Idaho’s 18 legislative
districts. Dkt. 2-1 at 6. “[S]even additional districts [were] within a few hundred
signatures of qualification.” Id.
According to the committee’s records, their signature collection numbers for
the Invest in Idaho drive exceeded those for their successful Medicaid initiative
drive in the last general election cycle. In other words, by mid-March they were on
track, according to their data, to collect the necessary number of signatures, in all
legislative districts, by the May 1, 2020 submission deadline.
In presenting their argument to the Court, Reclaim Idaho stressed that, in
volunteer-led signature gathering campaigns, the momentum of the final months
prior to submission results in a significant increase in the number of signatures
gathered per week or even per day. Thus, the time Reclaim Idaho lost due to the

MEMORANDUM DECISION AND ORDER – 19
App. 036

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 20 of 27

pandemic and the subsequent stay-at-home order, was key to reaching their goal
and was anticipated in their organizing plan.
The State argues, however, that Reclaim Idaho’s decision to voluntarily
suspend its own signature collection efforts on or around March 16, 2020 and prior
to the March 25, 2020 state-at-home order, forecloses their ability to bring this
claim. The State’s logic being that it was Reclaim Idaho’s act, not any act of the
State, that suspended their signature collection efforts. This argument ignores the
elephant in the room, which is COVID-19. In reality, it was the impact of the virus
that resulted in the suspension of Reclaim Idaho’s in-person signature collection
activities. As the record shows, Reclaim Idaho immediately sought to work with
the State’s officials to come up with a State-sanctioned solution so its volunteer
members could continue the petition drive. Reclaim Idaho sought that relief on
March 16, 2020.
The State argues also that Reclaim Idaho simply should have begun its
petition drive sooner—as it had an entire 18 months to conduct the drive under
law. However, under the reasonable diligence standard applicable here, the Court
finds the argument unpersuasive. Reclaim Idaho began collecting signatures as
soon as their data from a previous successful campaign suggested they do so. Once
the group started its drive, there is no real argument to diligence in effort.

MEMORANDUM DECISION AND ORDER – 20
App. 037

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 21 of 27

Considering the foregoing, the Court finds that Reclaim Idaho was reasonably
diligent in collecting signatures.
b. Ability to Place Initiative on the Ballot
This case is about Reclaim Idaho’s First Amendment rights pertaining to the
2020 election cycle. The State argues Reclaim Idaho’s ability to place the initiative
on the ballot is not inhibited because they may simply try again in 2022. This
argument is connected to the State’s laches argument—where the State argues
Reclaim Idaho lost its opportunity for relief by failing to file this lawsuit before
May 1, 2020, the signature submission deadline. The State’s argument asks the
Court to set aside the right Reclaim Idaho had to carry its initiative process through
its final stages during this election cycle.
As the Supreme Court has recognized, “when an initiative fails to qualify for
the ballot, it does not become ‘the focus of statewide discussion.’” Angle v. Miller,
673 F.3d 1122, 1133 (9th Cir. 2012) (citing Meyer, 486 U.S. at 423). In this case,
the State’s action to strictly enforce Idaho’s ballot access conditions, i.e. to refuse
to make reasonable accommodation, during the unprecedented time of the
pandemic, reduced “the total quantum of speech” on the public issue of education
funding. See id. The State’s purported remedy belies the reason Reclaim Idaho
staged its initiative campaign during this cycle—which was to give Idaho voters a
chance, on the November 2020 ballot, to make a change to tax law to provide

MEMORANDUM DECISION AND ORDER – 21
App. 038

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 22 of 27

additional funding to public school students in the coming years. Delay in the
process until 2022 could result in impact to tens of thousands of public students
over that time—which strikes to the heart of Reclaim Idaho’s First Amendment
activity.
In its inquiry, the Court recognizes that the State has a significant regulatory
interest in its own processes—including mandating adherence to the ballot access
conditions set in statute. See Angle, 673 F.3d at 1135. However, that interest must
be weighed against the effects of strict enforcement when an extraordinary
situation arises that prevents its citizens from exercising a constitutional right. See
Buckley v. Am. Constitutional Law Found., Inc., 525 U.S. 182, 191–92 (1999)
(states have “considerable leeway” in regulating the electoral process, provided
their choices do not produce “undue hindrances to political conversations and the
exchange of ideas.”).
As acknowledged by the State during oral argument on the motion, the State
recently recognized the limits to its regulatory authority when it came to the need
to provide electronic avenues for online voter registration and absentee ballot
requests. See also Dkt. 9 at 7. The Governor provided for all-absentee voting in the
2020 primary elections due to COVID-19. Id. To do so, the Governor worked with
the Secretary of State to suspend certain statutory requirements. Id. Notably,
Idaho’s online voter-registration processes requires the individual to attest to their

MEMORANDUM DECISION AND ORDER – 22
App. 039

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 23 of 27

identity by way of a digital signature—which, presumably, state election officials
must verify.
Ultimately, even if the State decides to include the Invest in Idaho initiative
on the ballot by deeming the signatures gathered thus far sufficient, the State
retains the ultimate opportunity to verify each and every vote cast for or against the
initiative through the ballot review process.
For these reasons, the Court finds the State’s refusal to make reasonable
accommodations inhibited Reclaim Idaho’s ability to place the Invest in Idaho
initiative on the November 2020 general election ballot. As such, the Court finds
Reclaim Idaho is likely to succeed on the merits of its claims.
C.

Irreparable Harm

Absent a preliminary injunction, there is no chance their Invest in Idaho
initiative will appear on the Idaho ballot. Indeed, the deadline for signature
submission has expired. As such, without Court order, the initiative will not
appear on the 2020 general election ballot. Therefore, the Court finds Reclaim
Idaho is likely to suffer irreparable harm in the absence of preliminary relief.
D.

Balance of Equities

The Court must also balance the relative hardships on the parties should it
provide preliminary relief or decline the request. Winter v. Natural Res. Def.

MEMORANDUM DECISION AND ORDER – 23
App. 040

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 24 of 27

Council, Inc., 555 U.S. 7, 20 (2008); University of Hawaii Prof. Asm. v. Cayetano,
183 F.3d 1096, 1108 (9th Cir. 1999).
The State cites the significant burden that will be placed on its employees
and offices due to the delay in signature gathering and submission as it will take
considerable resources to verify the additional signatures that will be submitted.
The Court is sympathetic to the plight of the State and its officers and employees.
During the course of the pandemic, the courts have likewise experienced the strain
placed on employees and departments due to the need to manage new situations
and scenarios. However, this Court in particular is aware of the great resource
provided by technology to solve problems. The use of new technologically based
processes has allowed the Court to hold hearings without exposing litgants,
attorneys, or the public to the risk of COVID-19 all the while, preserving
constitutional rights and liberties.
Considering the foregoing, when balancing the harm of a severe burden on
core political speech and the not insignificant burden reasonable accommodation
may place on the State, the Court must find in favor of preserving constitutional
rights. This finding acknowledges the faith the Court has in the State’s abilities to
devise reasonable accommodations to preserve the rights at issue—as it has
successfully done in other contexts during this trying time.

MEMORANDUM DECISION AND ORDER – 24
App. 041

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 25 of 27

E.

Public Interest

Finally, the Court must consider whether issuing preliminary relief is in the
public interest. As the Court’s discussion of the other Winter factors makes clear, it
is in the public’s interest to issue relief that would provide a remedy to preserve
Reclaim Idaho’s right to have the ability to place the Invest in Idaho initiative on
the November 2020 ballot. Because the public itself would be the final arbiter of
whether the initiative is passed into law, the Court finds issuing a preliminary
injunction requiring the State to make reasonable accommodation to protect
Reclaim Idaho’s core political speech rights in the initiative process is in the
public’s interest.
In sum, the Court finds Reclaim Idaho has established it is likely to succeed
on the merits, it will suffer irreparable harm in the absence of preliminary relief,
the balance of the equities tips in its favor, and an injunction is in the interests of
the public. Having so found, the Court will now discuss the issue of a remedy.
F.

Remedy

The Court struggled in determining what would be an appropriate remedy.
The Court is disinclined to tell the State how to run the initiative process.
However, as the analysis herein explains, the First and Fourteenth Amendments do
place some restrictions on the State’s authority through the preservation of
constitutional rights. See supra at pp. 20–22.

MEMORANDUM DECISION AND ORDER – 25
App. 042

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 26 of 27

The Court considered the following facts when fashioning its remedy and
order of accommodations. First, Reclaim Idaho and its volunteers were well on
their way in obtaining the signatures necessary for inclusion of the initiative on the
November 2020 ballot. Due to Reclaim Idaho’s projected chance of success in
obtaining the necessary signatures absent the extraordinary event of the COVID-19
pandemic, the first remedy the State can choose to provide is to certify the
signatures that have been collected and place the initiative on the November 2020
ballot for voter consideration. In fashioning this remedy, the Court also considered,
as argued by Reclaim Idaho during the hearing, that Idaho’s ballot conditions are
more stringent than those found in other states. As such, the State providing some
leeway in its requirements in this extraordinary moment is a viable option.
However, recognizing the State’s interest in upholding its conditions,
specifically the numerical and geographical requirements, the Court provided that
the State may instead choose to allow Reclaim Idaho an additional 48-days to
gather signatures through online solicitation and submission. The Court declined to
issue relief simply allowing the additional time for in-person signature collection.
There is ongoing uncertainty surrounding the current and future spread of COVID19. Close personal encounters still pose an ongoing and substantial risks to health
of Idaho’s citizens and Reclaim Idaho’s volunteers who would be contacting and
communicating with them. Finally, the State has demonstrated it is comfortable

MEMORANDUM DECISION AND ORDER – 26
App. 043

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 27 of 27

relying on digital signature collection in both the voter registration and online
ballot collection processes. Neither of these processes is different from the
initiative process in that all require the verification and certification of the digital
signature. The Court’s order permits the State until 5:00 p.m. M.S.T. on June 26,
2020 to choose between the two alternative remedies.
ORDER
IT IS ORDERED that:
1.

Plaintiffs’ Expedited Motion for Preliminary Injunction (Dkt. 2) is

GRANTED.
2.

On or before June 26, 2020 at 5:00 p.m. M.S.T., Defendants must file

with the Court a notice detailing the reasonable accommodation they have
chosen to make to preserve Plaintiffs’ core political speech rights as detailed
in this Memorandum Decision and Order.

DATED: June 26, 2020
_________________________
B. Lynn Winmill
U.S. District Court Judge

MEMORANDUM DECISION AND ORDER – 27
App. 044

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 1 of 5

Exhibit A to Status Report

1
App. 045

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 2 of 5

FERGUSON DURHAM, PLLC
Deborah A. Ferguson
Craig H. Durham
Email: daf@fergusondurham.com
chd@fergusondurham.com

223 North 6th Street, Suite 325
Boise, Idaho 83702

Telephone
(208) 484-2253
Facsimile
(208) 906-8663

July 8, 2020
Via email
Robert Berry
Deputy Attorney General
Civil Litigation Division
Re: Reclaim Idaho v. Gov. Bradley Little and Secretary of State Lawerence Denney,
Case No. 20-cv-00268- BLW
Dear Robert:
Today will be our fourth meet and confer meeting to address the State’s concerns over Reclaim
Idaho’s plan for collection and submission of authentic e-signatures as set forth in the Court’s
orders dated June 30th (Dkt. 19), and June 26th, (Dkt. 14). We have already addressed these
points with you at our numerous meet and confer meetings, but wanted to provide the written
summary as well as we have discussed a lot of detailed information.
•

Collection of signatures
o Reclaim Idaho will establish a dedicated website for on-line signature collection.
Note: As you requested, we have confirmed the website will be secure, with
encryption built into it. It will be connected through https:// as opposed to
http://.
o The landing page will ask for support to place the issue on the ballot to increase
funding for K-12 education. The page will provide a link for the person to read
the full text at this initial juncture. The potential signers will see the full screen
and the long and short titles. They will have the option of clicking a “start” button
that will take them to the bottom of the page , or they can scroll to the bottom
manually. Note: As you requested, at any point they can scroll up and down
to see the full text of the entire initiative. In sum, the first page, with the short
and long titles ballot titles will be easily viewable to all signers. Moreover,
2
App. 046

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 3 of 5

Reclaim can commit to sharing a link on the landing page where potential
signers can review the full petition before entering their information, in
response to your request for this feature.
o Before a person can proceed, they will be required to check a box verifying that
they are a registered voter and that they have not previously signed this petition.
Note: In response to your concerns about informing potential signers that
they are leaving Reclaim Idaho’s landing page, we modified the language
above the form to specifically indicate Docusign’s involvement in the process
as follows, with the following message: “Please fill out the form below. After
you fill out the form, you will be redirected to a DocuSign form where you
will sign the official petition.”
o If the person elects to proceed, they will enter their name, voter registration
address, city and zip code, last 4 digits of their social security number, and their
email address. Note: The person will not be asked to enter their driver’s
license number. Docusign has informed Reclaim that a driver’s license is not
essential for meeting industry standards. In light of that, and the fact that
such a requirement would overly restrict the pool of registered voters who
are eligible to sign, there appears no need for this requirement.
o They will hit 'next' and be directed to a PDF of the petition that looks exactly like
the paper version except that: 1. It will have only one signature line, 2. It will
have fields for the last 4 digits of their SSN and the county where the elector
resides, and 3. The circulator statement will have additional wording due to the
on-line nature. Note: This PDF document will contain the Short and Long
Ballot titles, which the person can read in full before signing the initiative as
you have requested.
o All of the fields in the PDF document will populate from the information
provided by the person on the landing page and they will be asked to confirm the
information and authorize the placing of their signature on the petition. If they
elect to proceed, a cursive version of their signature will be affixed to the
signature field. Note: You have also expressed concerns about the ability to
cancel the transaction, should someone chose to do so. There is also a
separate button to cancel the transaction in the event a person declines to
sign.
o If a transaction is cancelled no information is retained. Note: In response to your
concern over the data entered by individuals who chose not to sign, no signer
data will be retained, or even accessed by Docusign.
o A few notes on authentication:

3
App. 047

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 4 of 5

•

§

The DocuSign form will capture the person’s IP address and GPS location.
The form will also capture the person’s intent to sign by requiring that
they check a box confirming their intention to provide an electronic
signature. These three factors (IP address, GPS location, and intent to
sign) all provide additional authentication. Note: Taken together with
the requirement to provide the last 4 digits of a social security
number, these measures will place Reclaim Idaho’s petition well
above industry standards for authentication.

§

For every signature Reclaim Idaho collects, it will have on file a certificate
of completion. This certificate is a legally binding document that provides
an audit trail in case the authenticity of a signature needs to be reviewed.
The audit trail includes a time stamp for when the person signed along
with their GPS location and IP address. Note: As set forth above,
Reclaim Idaho will provide the Secretary of State with a certificate for
each e-signature collected if requested, once a protective order is in
place. Should the Secretary of State decide to review the authenticity
of any signature, he can do so by reviewing the audit trail.

Submission and verification of signatures
o Each signer’s name, address, and city or zip code will be collected in CSV file
format. This is the same information the county clerks currently are provided in
connection with initiative petitions (absent a wet signature). It will be formatted
as a spread sheet and be organized as follows:
First name/Last name/ street address/ city/ zip code
Note: You requested that the county clerks also be provided with the last
four digits of the social security number of each signer. Reclaim declines this
request for several reasons. First, the clerks have never been provided this
information on petitions and have no practical use for it. Second, you have
indicated that the State may have a duty to release this information in
response to a Public Records Act request. According to our research the
petition becomes an official public record pursuant to IC § 34-1806, as we
have previously discussed with you. As such, we do not want to include these
public identifiers beyond the information required by statute and
inadvertently expose it to disclosure.
However, to address your concerns and make the process as transparent as
possible, we will provide this information to the State once a protective order
is in place, if requested. This simple measure should protect the State from
an obligation to disclose the last four digits of the social security numbers as
a public record, as currently it is our understanding that the current
exemptions upon which the Secretary of State relies -IC § 106 (25) and (34) would not protect this information from disclosure.

4
App. 048

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 5 of 5

o Reclaim Idaho will submit CSV files to each county via email, containing only
the signatures collected in that county. County clerks will then verify whether
each signer is a registered voter at the provided address. Clerks will also match a
Legislative District to each signer, as they have always done. If this information
cannot be confirmed the clerk will strike the signature, just as they have done in
the past. Note: Because the information will be provided in a typewritten
spread sheet, this should facilitate an easier and faster review than the
handwritten entries usually provided.
o In order to further lighten the burden on county clerks, Reclaim Idaho will submit
signatures periodically throughout the 48-day drive. At the close of each week
during the signature drive, Reclaim Idaho intends to email to each county a CSV
file containing all signatures collected from signers in that county during the
previous seven days.
o Reclaim Idaho will take the following measures to meet the highest industry
standards for verifying the identity and authenticity of each signature.
§

§

Reclaim Idaho’s DocuSign form will confirm each signer’s intent to sign
and their consent to do business electronically (these are the essential
measures that must be taken to ensure that signatures are authentic and
legally binding under the ESIGN Act).
For every signature Reclaim Idaho collects, it will store a certificate of
completion. This certificate is a legally binding document that provides an
audit trail. The audit trail includes a time stamp for when the person
signed along with their GPS location and IP address.

Thank you for working with us on compliance with the Court’s orders.
Very truly yours,
/s/
Deborah A. Ferguson

5
App. 049

Case 1:20-cv-00268-BLW Document 23 Filed 07/09/20 Page 1 of 5

LAWRENCE G. WASDEN
ATTORNEY GENERAL
STEVEN L. OLSEN, ISB #3586
Chief of Civil Litigation Division
ROBERT A. BERRY, ISB #7442
MEGAN A. LARRONDO, ISB #10597
Deputy Attorneys General
Civil Litigation Division
Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
Telephone:
(208) 334-2400
Facsimile:
(208) 854-8073
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho political action
committee, and LUKE MAYVILLE,
Plaintiff,
vs.
BRADLEY LITTLE, in his official capacity as
Governor of Idaho, and LAWERENCE DENNEY
his official capacity as Idaho Secretary of State,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-00268-BLW
NOTICE RE: DKT. 19

On June 30, 2020, this Court entered an Order granting in Part and Denying in Part
Plaintiffs’ Motion to Enforce the Court’s Order. (Dkt. 19.) The Court ordered counsel to meet and
confer by Thursday, July 2, 2020, to implement the process and protocol for accepting signatures
gathered through the DocuSign technology. “Absent an agreement of counsel to the contrary, that

NOTICE RE: DKT. 19 – 1
App. 050

Case 1:20-cv-00268-BLW Document 23 Filed 07/09/20 Page 2 of 5

process and protocol shall be completed by Thursday, July 9.” (Id. at p. 4.) “Should counsel be
unable to reach an agreement as to the process and protocol, Reclaim Idaho may implement an
industry standard process and protocol. Such process and protocol must ensure the highest
available standards are used to verify a signer’s identity, legislative district, and the authenticity of
the signature.” (Id.)
Counsel met and conferred on Wednesday, July 1, 2020; Friday (a holiday), July 3, 2020;
and Tuesday, July 7, 2020. Counsel for the Defendants also reviewed written proposals provided
by Reclaim Idaho. An agreement is unable to be reached.
While Defendants understand the Court ordered that Reclaim Idaho be allowed to collect
electronic signatures on its initiative petition, the Court’s order must be interpreted in the narrowest
fashion possible. Reclaim Idaho’s proposal would sweep aside a myriad of Idaho statutes, would
disrespect the Idaho Legislature’s policy judgments, and would undermine public confidence in
the election process.
Based on the most recent communication from Reclaim Idaho outlining its proposal,
Defendants see the following fundamental problems:
(1)

Regarding authentication of signatures, Reclaim Idaho’s proposal provides no

indication that DocuSign or Reclaim Idaho will, or even can, use the data that Reclaim Idaho
proposes to collect during the electronic signature process to verify the authenticity of the
“signatures” collected. Yet, Reclaim Idaho states in its proposal that it will withhold this
information from the county clerks whose statutory role it is to verify the authenticity of signatures
on initiative petitions, as well as from the Secretary of State. That is neither workable nor
acceptable.
///

NOTICE RE: DKT. 19 – 2
App. 051

Case 1:20-cv-00268-BLW Document 23 Filed 07/09/20 Page 3 of 5

(2)

Reclaim Idaho’s proposal places non-party county clerks in a Catch-22 situation

whereby they are prevented from exercising their statutory duties yet at the same time are still
bound by Idaho statute, not by the Court’s order. Under Reclaim Idaho’s proposal, the clerks
would still be required by statute to verify signatures but would no longer have the information
necessary to do so. Again, this is neither workable nor acceptable.
(3)

The process Reclaim Idaho proposes invites opportunities for fraud and abuse. For

example, the system proposed by Reclaim Idaho would allow a single person using one or different
computers to sign the petition for themselves and on behalf of others. In addition, an individual
could mask their IP address, GPS location, and time of signing to evade the detection of fraudulent
“signatures.” This is deeply troubling, particularly where the website facilitating the process was
developed in a matter of days without any testing as far as Defendants are aware.
(4)

Reclaim Idaho’s proposal would collect Idaho citizens’ highly personal

information, e.g. their IP address and GPS location, and the last four digits of their social security
number, which are not required to be disclosed when physical signatures are gathered. There are
multiple privacy, data-use, and data-security concerns surrounding private parties collecting
personal data for a political purpose. There is nothing in Reclaim Idaho’s proposal that would
prevent DocuSign or Reclaim Idaho from using any of the data collected for purposes other than
verification of “signatures” on this particular initiative campaign, including from selling this data.
Even more concerning, as stated above, the website collecting this information would have been
developed in just a few days and would not undergo any security testing to Defendants’ knowledge.
(5)

Defendants have grave concerns about the protection of Idahoan’s personal

information. There is a possibility the information collected by Reclaim Idaho and DocuSign
could be subject to a public records request. A protective order would not remedy this concern,

NOTICE RE: DKT. 19 – 3
App. 052

Case 1:20-cv-00268-BLW Document 23 Filed 07/09/20 Page 4 of 5

nor would it be appropriate. The State cannot enter into a protective order against itself.
Moreover, a protective order could not protect against loss of the data collected via a data breach.
(6)

Defendants are also concerned that the online form of the initiative petition and the

language that Reclaim Idaho proposes to use to describe the initiative petition would not comply
with Idaho law.
(7)

The compressed schedule for creating an entirely new electronic “signature”

collection system in a matter of days for initiative petitions has prevented the State from evaluating
a number of other issues. These unresolved issues illustrate the fundamental inability of the State
to be forced to partner with a private company that it did not select to provide these type of services
on a compressed timeframe. For example, Defendants do not know how DocuSign is being
compensated for its software and services; whether DocuSign has ever accepted signatures for a
ballot initiative; or whether DocuSign has ever accepted signatures from persons it has no prior
information about.
Ultimately, while Defendants engaged in good faith communications with Reclaim Idaho
regarding a protocol that could be used for the collection of electronic signatures, Defendants’
grave concerns regarding electronic signature collection on initiative petitions were confirmed.
Defendants cannot agree to Reclaim Idaho’s proposal for collecting electronic signatures on their
initiative petition. To do so would undermine public faith in elections and disregard the will of
Idaho’s elected representatives.
DATED this 9th day of July, 2020.
STATE OF IDAHO
OFFICE OF THE ATTORNEY GENERAL
By:

/s/ Megan A. Larrondo
MEGAN A. LARRONDO
Deputy Attorney General

NOTICE RE: DKT. 19 – 4
App. 053

Case 1:20-cv-00268-BLW Document 23 Filed 07/09/20 Page 5 of 5

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on July 9, 2020, I electronically filed the foregoing with the
Clerk of the Court using the CMF/ECF system which sent a Notice of Electronic Filing to the
following persons:
Deborah A. Ferguson
daf@fergusondurham.com

Craig H. Durham
chd@fergusondurham.com

/s/ Megan A. Larrondo
MEGAN A. LARRONDO
Deputy Attorney General

NOTICE RE: DKT. 19 – 5
App. 054

Case
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed
Filed05/01/20
06/26/20 Page
Page21of
of61
18
 Home (https://coronavirus.idaho.gov/) / Statewide Stay-Home Order

Statewide Stay-Home Order
View a PDF of the order  here (https://coronavirus.idaho.gov/wp-content/uploads/sites/127/2020/04/amendedstatewide-stay-home-order_041520.pdf).
View Frequently Asked Questions on the order here (https://coronavirus.idaho.gov/f requently-askedquestions-on-statewide-stay-home-order/).
View list of Essential Services and Businesses here (https://coronavirus.idaho.gov/essential-services/).
View Additional Guidance on the order here (https://coronavirus.idaho.gov/additional-guidance-statewidestay-home-order/).

IDAHO DEPARTMENT OF HEALTH AND WELFARE
ORDER OF THE DIRECTOR
ORDER TO SELF-ISOLATE
DATE OF ORDER: March 25, 2020
DATE OF AMENDMENT: April 15, 2020***
THIS ORDER DIRECTS ALL INDIVIDUALS LIVING IN THE STATE OF IDAHO TO SELF-ISOLATE AT THEIR PLACE OF
RESIDENCE.
EXCEPT THAT THEY MAY LEAVE TO PROVIDE OR RECEIVE CERTAIN ESSENTIAL SERVICES OR ENGAGE IN
CERTAIN ESSENTIAL ACTIVITIES AND WORK FOR ESSENTIAL BUSINESS AND GOVERNMENT SERVICES
EXEMPTING INDIVIDUALS EXPERIENCING HOMELESSNESS FROM THE SELF-ISOLATION ORDER BUT URGING
THEM TO FIND SHELTER AND GOVERNMENT AGENCIES TO PROVIDE IT;
DIRECTING ALL BUSINESSES AND GOVERNMENTAL AGENCIES TO CEASE
NONESSENTIALOPERATIONSATPHYSICALLOCATIONSINTHESTATEOF IDAHO;
PROHIBITING ALL NON-ESSENTIAL GATHERINGS OF ANY NUMBER OF INDIVIDUALS; AND
ORDERING CESSATION OF ALL NON-ESSENTIAL TRAVEL.
On March 25, 2020, pursuant to the Constitution of the state of Idaho and Sections 46-601 and 46-1008,
Idaho Code, the Governor ordered the Director of the Idaho Department of Health and Welfare (“the
Director”) to issue this Order to Self-Isolate.
The Director of the Idaho Department of Health and Welfare (“the Director”) is authorized by Idaho Code §
56-1003(7) “to impose and enforce orders of isolation and quarantine to protect the public f rom the spread
of infectious or communicable diseases.”
This Order originally became effective at 1:30 p.m. on March 25, 2020 and will continue to be in effect until
11:59 p.m. on April 30, 2020 or until it is extended, rescinded, superseded, or amended in writing by the
Director ().
***The amendments to this Order contained herein are made to Section 1, Section 7 regarding travel into
Idaho, Section 8.f.xxv regarding certain businesses, and Section 8.g.iii regarding Minimum Basic Operations.
This amendment is effective as of April 15, 2020 and will continue to be in effect until 11:59 p.m. on April 30,
2020 or until it is extended rescinded, superseded, or amended in writing by the Director.
Please read this Order carefully. Violation of or failure to comply with this Order could constitute a
misdemeanor punishable by fine, imprisonment, or both. Idaho Code § 56- 1003(7)(C).
SUMMARY
The virus that causes Coronavirus 2019 Disease (“COVID-19”) is easily transmitted, especially in group settings, and
it is essential that the spread of the virus be slowed to protect the ability of public and private health care
providers to handle the influx of new patients and safeguard public health and safety.
Because of the risk of the rapid spread of the virus, and the need to protect all citizens of the State of Idaho,
u
especially individuals most vulnerable to the virus and health care providers, this Order requires all individuals
anywhere in the State ofldaho to self-isolate – that is, stay at home – except for certain essential activities and
n    

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 1 of 18

App. 055

Case
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed
Filed05/01/20
06/26/20 Page
Page32of
of61
18

work to provide essential business and government services or perform essential public inf rastructure
construction, including housing.
This order begins at 1:30 p.m. on March 25, 2020 and will continue to be in effect until 11:59 p.m. on April 30, 2020
or until it is extended, rescinded, superseded, or amended in writing by the Director, subject to the limited
exceptions and under the terms and conditions more particularly set forth below.
Gatherings of individuals outside the home are prohibited, with certain exceptions for essential activities or
essential travel or to perform work for essential businesses and government agencies or perform essential
inf rastructure work.
This Order requires during the effective period of the Order that all bars and nightclubs are ordered closed.
Restaurants and cafes, regardless of their seating capacity, that serve food are ordered closed except solely for
takeout and delivery service.
Additionally, all indoor gyms and recreation facilities are ordered closed. Homeless individuals are not subject to
this Order to Self-Isolate but are strongly urged to find shelter and government agencies are urged to take steps
needed to provide shelter for those individuals.
Under any of the limited circumstances in which individuals are allowed to interact in person outside their
residence, the Director orders individuals to abide by the following requirements:
(i) Maintain at least six feet f rom other individuals, wash hands with soap and water for at least 20 seconds as
f requently as possible or using hand sanitizer, cover coughs or sneezes, and not shake hands;
(ii) For people with medical conditions, regardless of age, that put them at higher risk of serious complications
should they contract COVID-19, and other than health care workers and other essential providers, avoid leaving
their homes to the extent possible; and
(iii) For employers in the State of Idaho that do not provide essential businesses or government services, take all
steps necessary for employees to work remotely f rom home to the extent possible.
These requirements build on the United States Centers for Disease Control and Prevention guidelines issued
March 11, 2020, extended as necessary to address the health emergency affecting the State of Idaho.
No individual who is sick may go to the workplace or be outside the home except as necessary to seek or receive
medical care in accordance with guidance f rom public health officials.
The Director may revise this Order as the situation evolves. Check the Governor’s coronavirus website
(coronavirus.idaho.gov) regularly.
UNDER THE AUTHORITY OF IDAHO CODE§ 56-1003(7) THE IDAHO DEPARTMENT OF HEALTH AND WELFARE
DIRECTOR ORDERS:
1. This Order is issued based on evidence of increasing occurrence of COVID-19 within the State of Idaho, scientific
evidence and best practices regarding the most effective approaches to slow the transmission of communicable
diseases generally and COVID-19 specifically, and evidence that the age, condition, and health of a significant
portion of the population of the state places its citizens at risk for serious health complications, including death,
f rom COVID-19.
Due to the outbreak of the COVID-19 virus, which the Centers for Disease Control and Prevention (“CDC”)
considers a serious public health threat, there is a public health emergency throughout the State of Idaho.
Making the problem worse, some individuals who contract the COVID-19 virus have no symptoms or have mild
symptoms, which means they may not be aware they carry the virus. Because even people without symptoms
can transmit the disease, and because evidence shows the disease is easily spread, gatherings can result in
transmission of the virus. At present, travel is a common known source of COVID-19 infections in Idaho. All fifty
states and the District of Columbia have reported cases and declared states of emergency. Now, COVID-19
clusters with substantial community spread have developed across the United States, including in Idaho and
neighboring states. Blaine County has the highest per-capita number of cases in the state and COVID-19 is
believed to have been introduced into the county by a traveler or travelers visiting Idaho f rom out of state.
The scientific evidence shows that at this stage of the emergency, it is essential to slow virus transmission as
much as possible to protect the most vulnerable and to prevent the health care system f rom being
overwhelmed. One proven way to slow transmission is to limit interactions among people to the greatest extent
practicable. By reducing the spread of the COVID-19 virus, this Order helps preserve critical and limited
healthcare capacity in the State of Idaho.

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 2 of 18

App. 056

Case
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed
Filed05/01/20
06/26/20 Page
Page43of
of61
18

2. This Order is necessary to slow the rate of spread and will be re-evaluated as further data becomes available.
3. The intent of this Order is to ensure that the maximum number of people self-isolate in their places of
residence to the maximum extent feasible, while enabling essential services to continue, to slow the spread of
COVID-19 to the maximum extent possible. When people need to leave their places of residence, whether to
obtain or perform vital services, or to otherwise facilitate authorized activities necessary for continuity of social
and commercial life, they should at all times reasonably possible comply with Social Distancing Requirements as
defined in Section 8.j. below. All provisions of this Order should be interpreted to effectuate this intent.
4. All individuals currently living within the State ofldaho are ordered to self-isolate at their place of residence. To
the extent individuals are using shared or outdoor spaces, they must at all times as reasonably possible maintain
social distancing of at least six feet f rom any other person when they are outside their residence. All persons may
leave their residences only for Essential Activities, Essential Governmental Functions, or to operate Essential
Businesses, all as defined in Section 8. Individuals experiencing homelessness are exempt f rom this Section, but
are strongly urged to obtain shelter, and governmental and other entities are strongly urged to make such
shelter available as soon as possible and to the maximum extent practicable and to use COVID-19 risk mitigation
practices in their operation.
5. All businesses with a facility in the State ofldaho, except Essential Businesses as defined below in Section 8, are
required to cease all activities at facilities located within the state except Minimum Basic Operations, as defined
in Section 8.g. For clarity, businesses may also continue operations consisting exclusively of employees or
contractors performing activities at their own residences (i.e., working f rom home). All Essential Businesses are
strongly encouraged to remain open. To the greatest extent feasible, Essential Businesses shall comply with
Social Distancing Requirements as defined in Section 8.j. below, including by maintaining six-foot social
distancing for both employees and members of the public, including, but not limited to, when any customers are
standing in line.
6. All people in Idaho shall immediately cease hosting or participating in all public and private gatherings and
multi-person activities for social, spiritual and recreational purposes, regardless of the number of people
involved, except as specifically identified in Section 8. Such activity includes, but is not limited to, community,
civic, public, leisure, faith-based, or sporting events; parades; concerts; festivals; conventions; fundraisers; and
similar activities. This prohibition also applies to planned wedding and funeral events, with the exception that
funerals are permitted so long as they occur outside and comply with the Social Distancing Requirements as
defined in Section 8.j.
7. Travel Restrictions
a. Intrastate travel is prohibited, including but not limited to, travel on scooter, motorcycle, automobile, or public
transit, except for those purposes defined in Section 8. People must use public transit only for purposes of
performing Essential Activities or to travel to and f rom work to operate Essential Businesses or maintain
Essential Governmental Functions. All travel must comply with Social Distancing Requirements as defined in
Section 8.j. below, to the greatest extent feasible.
b. Statewide directive for individuals arriving in Idaho f rom another state or country to self-quarantine.
(i). Persons entering the state of Idaho are required to self-quarantine for 14 days. If an individual will be present
in Idaho for fewer than 14 days, that individual must self-quarantine for the duration of their visit. For purposes of
clarity, this directive does not apply to persons performing an Essential Purpose or persons who as part of their
normal life live in one state and work or gain Essential Services in another state.
(ii). “Essential Purpose” is interpreted broadly and includes travel required for personal safety; food, beverage or
medicine; medical care; pursuant to a lawful permit, license, court order, or rule; care of others; and to perform
work, services or functions deemed critical to public health and safety, as well as economic and national security.
Travel into the state of Idaho for recreation is not an Essential Purpose.
(iii). Any individual required by this directive to self-quarantine shall be responsible for any and all costs
associated with the requirement to self-quarantine, including transportation, lodging, food, and medical care.
(iv.) Persons who have tested positive for COVID-19, are presumptively diagnosed with COVID-19, or are exhibiting
symptoms identified in the CDC’s screening guidance shall not enter the state of Idaho unless doing so under
medical orders for the purposes of medical care, are being transported by emergency personnel, are being
driven directly to a medical provider for purposes of medical care, or are a resident of the state of Idaho.
8. Definitions and Exemptions

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 3 of 18

App. 057

Case
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed
Filed05/01/20
06/26/20 Page
Page54of
of61
18

a. For purposes of this Order, individuals may leave their residence only to perform any of the following
“Essential Activities.”But people at high risk of severe illness f rom COVID-19 and people who are sick are urged
to stay in their residence to the extent possible except as necessary to seek medical care.
(i). To engage in activities or perform tasks essential to their health and safety, or to the health and safety of their
family or household members (including, but not limited to, pets) or livestock, such as, by way of example only
and without limitation, obtaining medical supplies or medication, visiting a health care professional, or obtaining
supplies they need to work f rom home.
(ii). To obtain necessary services or supplies for themselves and their family or household members, or to deliver,
including by truck or rail, those services or supplies to others, such as, by way of example only and without
limitation, canned food, dry goods, f resh f ruits and vegetables, pet supplies, livestock feed and supplies, f resh
meats, fish, and poultry, and any other household consumer products, and products necessary to maintain the
safety, sanitation, and essential operation of residences.
(iii). To engage in outdoor activity, provided the individuals comply with Social Distancing Requirements as
defined in Section 8.j., such as, by way of example and without limitation, walking, hiking, bicycling, or running.
(iv). To perform work providing essential products and services at an Essential Business or to otherwise carry out
activities specifically permitted in this Order, including Minimum Basic Operations.
(v). To care for a family member or pet in another household.
b. For purposes of this Order, individuals may leave their residence to work for or obtain services at any
“Healthcare Operations”including hospitals, clinics, dentists, pharmacies, pharmaceutical and biotechnology
companies, other healthcare facilities, healthcare suppliers, home healthcare services providers, mental health
providers, or any related and/or ancillary healthcare services. “Healthcare Operations” also includes veterinary
care and all healthcare services provided to animals. This exemption shall be construed broadly to avoid any
impacts to the delivery of healthcare, broadly defined. “Healthcare Operations” does not include fitness and
exercise gyms and similar facilities.
c. For purposes of this Order, individuals may leave their residence to provide any services or perform any work
necessary to the operations and maintenance of “Essential Inf rastructure,”including, but not limited to, public
works construction, commercial construction and the transfer and selling thereof, construction of housing (in
particular affordable housing or housing for individuals experiencing homelessness) and the transfer and selling
thereof, airport operations, water, sewer, gas, electrical, oil refining, mining, roads and highways, public
transportation, solid waste collection and removal, internet, and telecommunications systems (including the
provision of essential global, national, and local inf rastructure for computing services, business inf rastructure,
communications, telecommunications relay service, and web-based services), provided that they carry out those
services or that work in compliance with Social Distancing Requirements as defined this Section, to the extent
possible. As explained in Section 8.k. below, this Order incorporates by reference the guidance in the
Memorandum on Identification of Essential Critical Inf rastructure Workers During COVID-19 Response issued by
the Cybersecurity and Inf rastructure Security Agency of the United States Homeland Security on March 19, 2020
(“CISA Guidance”).
d. For purposes of this Order, all first responders, emergency management personnel, emergency dispatchers,
court personnel, and law enforcement personnel, and others working for or to support Essential Businesses are
categorically exempt f rom this Order. Further, nothing in this Order shall prohibit any individual f rom performing
or accessing “Essential Governmental Functions.” Essential Government Functions means all services needed to
ensure the continuing operation of local, state, federal, or tribal government agencies and provide for the health,
safety and welfare of the public. All Essential Governmental Functions shall be performed in compliance with
Social Distancing Requirements as defined by Section 8.j., to the extent possible. As explained in Section 8.k.
below, if any provisions in this Order conflict with any of the guidance in the CISA Guidance then the provisions
of this Order shall control.
e. For the purposes of this Order, covered businesses include any for-profit, non-profit, or educational entities,
regardless of the nature of the service, the function they perform, or its corporate or entity structure.
f. For the purposes of this Order, “Essential Businesses” means:
(i). Healthcare Operations and Essential Inf rastructure;
(ii). Grocery stores, farmers’ markets, farm and produce stands, supermarkets, food banks, convenience stores,
and other establishments engaged in the retail sale of canned food, dry goods, f resh f ruits and vegetables, pet
supply, f resh meats, fish, and poultry, liquor, beer, and wine and any other household consumer products (such

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 4 of 18

App. 058

Case
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed
Filed05/01/20
06/26/20 Page
Page65of
of61
18

as cleaning and personal care products). This includes stores that sell groceries and also sell other non-grocery
products, and products necessary to maintaining the safety, sanitation, and essential operation of residences;
(iii). Food cultivation and production, including farming, livestock, fishing, and food processing;
(iv). Businesses that provide food, shelter, and social services, and other necessities of life for economically
disadvantaged or otherwise needy individuals;
(v). Newspapers, television, radio, and other media services;
(vi). Gas stations and auto-supply, auto-repair, and related facilities;
(vii). Banks, credit unions, and financial institutions, including processing and maintaining systems for processing
financial transactions and services (e.g., payment clearing, and settlement; wholesale funding; insurance
services; and capital markets activities);
(viii). Hardware stores and firearms businesses as provided for in Idaho Code section 46-601(3);
(ix). Plumbers, electricians, exterminators, landscapers, and other service providers who provide services that are
necessary to maintaining the safety, sanitation, and essential operation of residences, Essential Activities, and
Essential Businesses;
(x). Businesses providing mailing and shipping services, including post office boxes;
(xi). Educational institutions-including public and private K-12 schools, colleges, and universities-for purposes of
facilitating distance learning or performing essential functions, provided that social distancing of six-feet per
person is maintained to the greatest extent possible;
(xii). Laundromats, dry cleaners, and laundry service providers;
(xiii). Restaurants and other facilities that prepare and serve food, but only for delivery or carry out. Schools and
other entities that typically provide f ree food services to students or members of the public may continue to do
so under this Order on the condition that the food is provided to students or members of the public on a pick-up
and takeaway basis only. Schools and other entities that provide food services under this exemption shall not
permit the food to be eaten at the site where it is provided, or at any other gathering site;
(xiv). Hotels, motels, shared rental units, and similar facilities for purposes of housing, or to quarantine, those
individuals exempted under Section 8.
(xv). Businesses that supply products needed for people to work f rom home;
(xvi). Businesses that supply other Essential Businesses or Essential Government Functions with the support or
supplies necessary to operate;
(xvii). Businesses that ship or deliver groceries, food, goods or services directly to residences;
(xviii). Airlines, taxis, and other private transportation providers providing transportation services necessary for
Essential Activities and other purposes expressly authorized in this Order;
(xix). Home-based care for seniors, adults, or children;
(xx). Residential facilities and shelters for seniors, adults, and children;
(xxi). Essential tribal operations;
(xxii). All operations at or related to the Idaho National Laboratory or needed to support or provide supplies to the
Idaho National Laboratory;
(xxiii). Professional services, such as legal or accounting services, when necessary to assist in compliance with
legally mandated activities;
(xxiv). Childcare facilities providing services that enable employees exempted in this Order to work as permitted.
To the extent possible, childcare facilities must operate under the following condition: childcare must be carried
out in as small and stable groups as possible.

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 5 of 18

App. 059

Case
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed
Filed05/01/20
06/26/20 Page
Page76of
of61
18

(xxv.) Businesses that are able to operate via curbside services, drive in, drive through pick up, mailed services or
delivery services. Businesses must continue to maintain Social Distancing Requirements as defined in 8.j for both
customers and employees, including prohibiting any congregation of customers or employees in or around the
place of business.
As explained in Section 8.k. below, this Order incorporates by reference CISA Guidance issued by the
Cybersecurity and Inf rastructure Security Agency of the United States Homeland Security on March 19, 2020.
g. For the purposes of this Order, “Minimum Basic Operations” include the following, provided that employees
comply with Social Distancing Requirements as defined this Section, to the extent possible, while carrying out
such operations:
(i). The minimum necessary activities to maintain the value of the business’s inventory, ensure security, process
payroll and employee benefits, or for related functions.
(ii). The minimum necessary activities to facilitate employees of the business being able to continue to work
remotely f rom their residences.
(iii). The minimum necessary activities to prepare the business to reopen at such time as deemed appropriate,
including but not limited to, sanitization, obtaining personal protective equipment, and setting up procedures to
ensure compliance with Social Distancing Requirements.
h. For the purposes of this Order, “Essential Travel” includes travel for any of the following purposes. Individuals
engaged in any Essential Travel must comply with all Social Distancing Requirements as defined in Section 8.j.
(i). Any travel related to the provision of or access to Essential Activities, Essential Governmental Functions,
Essential Businesses, or Minimum Basic Operations.
(ii). Travel to care for elderly, minors, dependents, persons with disabilities, or other vulnerable persons.
(iii). Travel to or f rom educational institutions for purposes of receiving materials for distance learning, for
receiving meals, and any other related services.
(iv). Travel to return to a place of residence f rom outside the jurisdiction.
(v). Travel required by law enforcement or court order.
(vi). Travel required for non-residents to return to their place of residence outside the State of Idaho. Individuals
are strongly encouraged to verify that their transportation out of the State of Idaho remains available and
functional prior to commencing such travel.
i. For purposes of this order, residences include hotels, motels, shared rental units, and similar facilities.
j. For purposes of this order “Social Distancing Requirements” includes maintaining at least six-foot social
distancing f rom other individuals, washing hands with soap and water for at least twenty seconds as f requently
as possible or using hand sanitizer, covering coughs or sneezes (into the sleeve or elbow, not hands), regularly
cleaning high-touch surfaces, and not shaking hands.
k. This Order incorporates by reference the Memorandum on Identification of Essential Critical Inf rastructure
Workers During COVID-19 Response issued by the Cybersecurity and Inf rastructure Security Agency of the
United States Homeland Security on March 28, 2020. That guidance is located at https://www.cis
a.gov/publication/guidance-essen tial-cri tical-inf rastruct ure-wor kforce
(https://www.cisa.gov/publication/guidance-essential-critical-inf rastructure-workforce). This order also
incorporates federal guidance f rom the Department of the Treasury and the Department of defense that are
located at https://home.treasury.gov/news /press releases/sm956 and https://media.de
fense.gov/2020/Mar/22/2002268024/- 1/- 1/1/DEFENSE-INDUSTRIAL-BASE-ESSENTIAL-CRITICAL INFRASTRUCT
URE-WORKFORCE-MEMO.PDF
9. The Director requests that the Sheriff and the Chiefs of Police in the State of Idaho, and the Idaho State Police
ensure compliance with and enforce this Order. The violation of any provision of this Order constitutes an
imminent threat to public health.
10. This Order shall become effective as of April 15, 2020 and will continue to be in effect until 11:59 p.m. on April
30, 2020 or until it is extended, rescinded, superseded, or amended in writing by the Director.

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 6 of 18

App. 060

Case
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed
Filed05/01/20
06/26/20 Page
Page87of
of61
18

11. To decrease the spread of COVID-19, the cities, counties, and public health districts of the State of Idaho may
enact more stringent public health orders than those set out in this Order.
12. This Self-Isolation Order supersedes and replaces the prior Self-Isolation Order I issued for Blaine County,
Idaho on March 20, 2020.
13. Each county and each city must promptly provide copies of the Order as follows: (1) by posting the Order on its
website, (2) by posting the Order at each county courthouse and each city hall, and (3) by providing a copy to any
member of the public requesting it. The Order will also be posted on the website of the Department of Health
and Welfare.
14. If any provision of this Order or its application to any person or circumstance is held to be invalid, then the
remainder of the Order, including the application of such part or provision to other persons or circumstances,
shall not be affected and shall continue in full force and effect. To this end, the provisions of this Order are
severable.
IT IS SO ORDERED.
Signed by Dave Jeppesen, Director, Idaho Department of Health and Welfare
Dated: March 25, 2020
Amended: April 15, 2020
·

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 7 of 18

App. 061

Case
Filed05/01/20
06/26/20 Page
Page98of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 8 of 18

App. 062

Case 1:20-cv-00205-DCN
1:20-cv-00268-BLW Document 5-1
16-1 Filed
Filed05/01/20
06/26/20 Page
Page10
9 of 61
18

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 9 of 18

App. 063

Case
Filed05/01/20
06/26/20 Page
Page11
10of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 10 of 18

App. 064

Case
Filed05/01/20
06/26/20 Page
Page12
11of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 11 of 18

App. 065

Case
Filed05/01/20
06/26/20 Page
Page13
12of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 12 of 18

App. 066

Case
Filed05/01/20
06/26/20 Page
Page14
13of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 13 of 18

App. 067

Case
Filed05/01/20
06/26/20 Page
Page15
14of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 14 of 18

App. 068

Case
Filed05/01/20
06/26/20 Page
Page16
15of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 15 of 18

App. 069

Case
Filed05/01/20
06/26/20 Page
Page17
16of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 16 of 18

App. 070

Case
Filed05/01/20
06/26/20 Page
Page18
17of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 17 of 18

App. 071

Case
Filed05/01/20
06/26/20 Page
Page19
18of
of61
18
Case1:20-cv-00268-BLW
1:20-cv-00205-DCN Document
Document16-1
5-1 Filed

NOTICE AND MOTION TO STAY PURSUANT TO F.R.C.P. 62(d) AND F.R.A.P. 8
EXHIBIT A
Page 18 of 18

App. 072

Case 1:20-cv-00268-BLW Document 12-1 Filed 06/23/20 Page 1 of 7

LAWRENCE G. WASDEN
ATTORNEY GENERAL
STEVEN L. OLSEN, ISB #3586
Chief of Civil Litigation Division
ROBERT A. BERRY, ISB #7442
MEGAN A. LARRONDO, ISB #10597
Deputy Attorneys General
Civil Litigation Division
Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
Telephone:
(208) 334-2400
Facsimile:
(208) 854-8073
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho political action
committee, and LUKE MAYVILLE,
Plaintiff,
vs.
BRADLEY LITTLE, in his official capacity as
Governor of Idaho, and LAWERENCE DENNEY
his official capacity as Idaho Secretary of State,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-00268-BLW
CORRECTED SUPPLEMENTAL
DECLARATION OF PHIL MCGRANE
IN SUPPORT OF DEFENDANTS

I, PHIL MCGRANE, declare as follows:
1.

I am over the age of 18 years and competent to testify on the matters herein. I make

this declaration based upon my own personal knowledge.
2.

I am the Ada County Clerk and am responsible for the supervision and

CORRECTED SUPPLEMENTAL DECLARATION OF PHIL MCGRANE IN SUPPORT OF
DEFENDANTS – 1
App. 073

Case 1:20-cv-00268-BLW Document 12-1 Filed 06/23/20 Page 2 of 7

administration of elections in Ada County. This includes the verification of petition signatures.
3.

The Elections division of my office strives to maintain open and cooperative

communication with all parties involved the circulation of petitions. This includes the Plaintiff,
Reclaim Idaho.
4.

During all petition cycles, we work with circulators to balance the demands and

deadlines related to verifying petitions with the demands and deadlines of conducting elections.
5.

Ada County Elections has received approximately 940 petitions from Reclaim

Idaho for the petition in question. Each of these petitions contain anywhere from one to twelve
signatures needing review.
6.

On April 6th, having seen media reports that Reclaim Idaho was ceasing its efforts

to collect signatures, our Elections Director, Saul Seyler, contacted Reclaim Idaho to determine if
signature verification was still being requested. Attached to this declaration are e-mails confirming
this conversation from April 8th and 9th between Mr. Seyler and Ashley Prince, Field Director for
Reclaim Idaho. As the e-mails indicate, Reclaim Idaho was aware of the extraordinary challenges
our office is facing and confirmed that they were not asking us to validate the signatures we had
received from their campaign.
7.

Ada County relied in good faith on the phone conversation and e-mail exchange

with Ms. Prince and has not validated the signatures on the petitions from Reclaim Idaho in
advance of the June 30th deadline.
8.

Conducting a fair, free, safe and accessible election is challenging anytime. Doing

so during the current COVID-19 pandemic, has proven, and will continue to be extremely difficult.
These challenges and risks have recently been highlighted by other states, specifically Georgia and
Wisconsin, as they have recently struggled to conduct their primary elections.
CORRECTED SUPPLEMENTAL DECLARATION OF PHIL MCGRANE IN SUPPORT OF
DEFENDANTS – 2
App. 074

Case 1:20-cv-00268-BLW Document 12-1 Filed 06/23/20 Page 3 of 7

9.

In Idaho, the demand for mail ballots and the corresponding work has significantly

increased because of the pandemic. Leading up to the State’s recent May Primary election, I
increased the elections staff from ten to forty in order to keep up with the demand. Recruiting poll
workers and securing polling locations has also proven to be significantly more difficult because
of the associated health risks related to the pandemic. Every indication is that all of these
challenges will continue to exist through the August and November elections. I anticipate that our
overall workload will nearly double for each of these elections due to the necessary changes caused
by the pandemic. This is due to the requirement to maintain traditional polling places, while
simultaneously conducting significant mail out voting and the addition of safety measures needed
to protect public health in each.
10.

The Plaintiffs’ recent proposal to shorten the time for my office to verify petition

signatures from sixty (60) days to twenty-one (21) days would be extremely difficult to achieve,
particularly in the populous areas like Ada County. This burden is significantly increased by our
reliance on the communication from Reclaim Idaho that we did not need to increase resources and
personnel in order to verify the signatures they had previously provided us.
11.

As mentioned in my initial declaration, we often struggle to meet the sixty day

timeframe due to the sheer volume of signatures requiring review. Individually reviewing and
comparing tens of thousands of anything takes considerable time and resources. This is true of
reviewing signatures and looking up individuals to confirm they are actively registered to vote.
The proposed alternatives for signature gathering will not significantly alter the time needed for
review.
12.

As stated previously, both the upcoming August and November elections are going

to be extremely difficult to conduct without adding in the task of verifying initiative signatures
CORRECTED SUPPLEMENTAL DECLARATION OF PHIL MCGRANE IN SUPPORT OF
DEFENDANTS – 3
App. 075

Case 1:20-cv-00268-BLW Document 12-1 Filed 06/23/20 Page 4 of 7

during either of these elections. The proposed timeline creates a conflict between the
administration of a fair, free, safe and accessible election and the need to verify the authenticity of
signatures filed for a petition, both of which are important. This conflict is largely and intentionally
avoided under existing law.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
DATED this 23rd day of June, 2020.
/s/ Phil McGrane
PHIL MCGRANE

CORRECTED SUPPLEMENTAL DECLARATION OF PHIL MCGRANE IN SUPPORT OF
DEFENDANTS – 4
App. 076

Case 1:20-cv-00268-BLW Document 12-1 Filed 06/23/20 Page 5 of 7

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on June 23, 2020, I electronically filed the foregoing with the
Clerk of the Court using the CMF/ECF system which sent a Notice of Electronic Filing to the
following persons:
Deborah A. Ferguson
daf@fergusondurham.com

Craig H. Durham
chd@fergusondurham.com
/s/ Robert A. Berry
ROBERT A. BERRY
Deputy Attorney General

CORRECTED SUPPLEMENTAL DECLARATION OF PHIL MCGRANE IN SUPPORT OF
DEFENDANTS – 5
App. 077

Case 1:20-cv-00268-BLW Document 12-1 Filed 06/23/20 Page 6 of 7

Phil McGrane
From:
Sent:
To:
Subject:

Saul Seyler
Monday, June 22, 2020 4:30 PM
Phil McGrane
FW: [EXTERNAL] Re: Hello There!

FYI
Saul H. Seyler, JD
Director
Ada County Elections
400 N. Benjamin Lane, #100
Boise, ID 83704
(208) 287-6851

From: Ashley Prince [mailto:ashlex.prince@gmail.com]
Sent: Thursday, April 9, 2020 9:16 AM
To: Saul Seyler
Subject: [EXTERNAL] Re: Hello There!
CAUTION: This email originated from outside Ada County email servers. Do not click on links or open attachments unless you
recognize the sender and know the content is safe. Verify the sender by mouse‐hovering over their display name in order to see
the sender’s full email address and confirm it is not suspicious. If you are unsure an email is safe, please report the email by
using the 'Phish Alert' button in Outlook.

Hi Saul,
Thank you so much for following up! It looks like I had a typo in your email address when I sent my message.
As we discussed, Reclaim Idaho has suspended its signature drive due to COVID-19. Due to the remaining time
available to us per Idaho Election Code we will not be able to meet the deadline to qualify this petition for the
2020 ballot. Under the circumstances we are not asking the Ada County elections office to validate signatures
you have received from our campaign.
Please let me know if you have any questions or need anything further
Ashley Prince
Reclaim Idaho Field Director
(208) 971-3000
reclaimidaho.org [reclaimidaho.org]

On Apr 8, 2020, at 5:21 PM, Saul Seyler <sseyler@adacounty.id.gov> wrote:
Hi Ashley,

1

App. 078

Case 1:20-cv-00268-BLW Document 12-1 Filed 06/23/20 Page 7 of 7
Just circling back on our previous conversation about a letter saying that we here at Ada County do not need to
complete finalization of verifying your petition signatures. Based on the conversation we had and your groups intent to
no longer pursue this effort during this year, I would greatly appreciate this. As we discussed, we are up against some
very unique circumstances that require a lot of internal resources and it would be great to take this off of our plate given
the current environment. We obviously would continue to hold your paper copies of the petitions for pickup in the
future either by you or another member of Reclaim.
Thanks so much and please let me know if I can provide you with anything to help this process along.

<image001.png> Saul H. Seyler, JD
Director
Ada County Elections
400 N. Benjamin Lane, #100
Boise, ID 83704
(208) 287-6851
Fax: (208) 287-6939

2

App. 079

Case 1:20-cv-00268-BLW Document 11-2 Filed 06/23/20 Page 1 of 4

LAWRENCE G. WASDEN
ATTORNEY GENERAL
STEVEN L. OLSEN, ISB #3586
Chief of Civil Litigation Division
ROBERT A. BERRY, ISB #7442
MEGAN A. LARRONDO, ISB #10597
Deputy Attorneys General
Civil Litigation Division
Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
Telephone:
(208) 334-2400
Facsimile:
(208) 854-8073
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
)
)
)
)
Plaintiff,
)
)
vs.
)
)
BRADLEY LITTLE, in his official capacity as
)
Governor of Idaho, and LAWERENCE DENNEY, in )
his official capacity as Idaho Secretary of State,
)
)
Defendants.
)
)
RECLAIM IDAHO, an Idaho political action
committee, and LUKE MAYVILLE,

Case No. 1:20-cv-00268-BLW
SUPPLEMENTAL DECLARATION
OF JASON HANCOCK IN SUPPORT
OF DEFENDANTS

I, JASON HANCOCK, declare as follows:
1.

I am over the age of 18 years and competent to testify on the matters herein. I make

this declaration based upon my own personal knowledge.

SUPPLEMENTAL DECLARATION OF JASON HANCOCK IN SUPPORT OF
DEFENDANTS – 1
App. 080

Case 1:20-cv-00268-BLW Document 11-2 Filed 06/23/20 Page 2 of 4

2.

Plaintiffs’ reference the ability over the last primary to request an absentee ballot

electronically, but the reference does not identify the factors used to authenticate the identity of
the requesting party.
3.

The Secretary of State’s Office used three non-public factors to authenticate the

identity of the requesting party: date of birth; Idaho driver’s license or identification number; and
the last four digits of a person’s social security number.
4.

When individuals register to vote today, they are required to list their Idaho driver’s

license or identification number, or the last four digits of their social security number, but that has
not always been the case.
5.

In the past, individuals could register to vote simply by signing the voter

registration form.
6.

Voters with an older, signature-only voter registration form on file were unable to

request their absentee ballot for the May 2020 primary election electronically, and had to use a
signed, paper request form instead.
7.

Notably, the electronic request for an absentee ballot did not alter the requirement

that the outer envelope of the absentee ballot be signed by the voter and returned to the applicable
county clerk.
8.

Upon receipt of the absentee ballot, the county clerk would compare the signature

with the signature on file, to ensure that they matched, and would also check to ensure that the
voter was a registered voter.
9.

The signature, therefore, was a required authenticating factor, regardless of how the

absentee ballot was requested.
10.

Using DocuSign in the way the Plaintiffs suggest would also raise issues for

SUPPLEMENTAL DECLARATION OF JASON HANCOCK IN SUPPORT OF
DEFENDANTS – 2
App. 081

Case 1:20-cv-00268-BLW Document 11-2 Filed 06/23/20 Page 3 of 4

counting signatures for a petition.
11.

If individuals with an older voter registration provide DocuSign with their Idaho

driver’s license or identification number, and social security number, as proposed by the Plaintiffs,
the county clerk would not have a record with which to match the information submitted, because
this information does not exist for most older voter registrations.
12.

Unlike the driver’s license or identification number, or last four digits of the social

security number, the voter signature is the universal identifier available for all voters and petition
signers.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
DATED this 23rd day of June, 2020.
/s/ Jason Hancock
JASON HANCOCK

SUPPLEMENTAL DECLARATION OF JASON HANCOCK IN SUPPORT OF
DEFENDANTS – 3
App. 082

Case 1:20-cv-00268-BLW Document 11-2 Filed 06/23/20 Page 4 of 4

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on June 23, 2020, I electronically filed the foregoing with the
Clerk of the Court using the CMF/ECF system which sent a Notice of Electronic Filing to the
following persons:
Deborah A. Ferguson
daf@fergusondurham.com

Craig H. Durham
chd@fergusondurham.com
/s/ Robert A. Berry
ROBERT A. BERRY
Deputy Attorney General

SUPPLEMENTAL DECLARATION OF JASON HANCOCK IN SUPPORT OF
DEFENDANTS – 4
App. 083

Case 1:20-cv-00268-BLW Document 8-1 Filed 06/18/20 Page 1 of 6

LAWRENCE G. WASDEN
ATTORNEY GENERAL
STEVEN L. OLSEN, ISB #3586
Chief of Civil Litigation Division
MEGAN A. LARRONDO, ISB #10597
ROBERT A. BERRY, ISB #7442
Deputy Attorneys General
Civil Litigation Division
Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
Telephone:
(208) 334-2400
Facsimile:
(208) 854-8073
megan.larrondo@ag.idaho.gov
robert.berry@ag.idaho.gov
Attorneys for Defendants
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho political action
committee, and LUKE MAYVILLE,
Plaintiff,
vs.
BRADLEY LITTLE, in his official capacity as
Governor of Idaho, and LAWERENCE DENNEY
his official capacity as Idaho Secretary of State,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-00268-BLW
DECLARATION OF PHIL MCGRANE
IN SUPPORT OF DEFENDANTS

I, PHIL MCGRANE, declare as follows:
1.

I am over the age of 18 years and competent to testify on the matters herein. I make

this declaration based upon my own personal knowledge.

DECLARATION OF PHIL MCGRANE IN SUPPORT OF DEFENDANTS – 1
App. 084

Case 1:20-cv-00268-BLW Document 8-1 Filed 06/18/20 Page 2 of 6

2.

I am the Ada County Clerk and assumed office in 2019. Before becoming Ada

County Clerk I served as the Chief Deputy Clerk from 2010 to 2019 and an Elections Deputy from
2005 - 2007. I hold a B.A. in philosophy from the University of Washington; a juris doctorate
degree from the University of Denver; and a master of public administration degree from Boise
State University.
3.

I am charged with the supervision and administration of elections pursuant to I.C.

§34-206.
4.

Ada County elections is currently preparing for two upcoming elections. The first

election is in August and the second election is the November General Election, which also is a
presidential election.
5.

Presidential general elections consistently see the largest turnout and as a result are

difficult elections to prepare for. It takes an enormous amount of preparation and work to ensure
the each election goes smoothly, and even more so due to Covid-19.
6.

I understand that a request has been made to extend the deadline for a voter

initiative sponsored by Reclaim Idaho.
7.

The requested relief would be near impossible to achieve due to the limited time

available between now and when ballots must be prepared and mailed for the November election.
8.

As I understand the request, Reclaim Idaho is requesting an additional forty-eight

days of relief in which it could continue to obtain signatures. If so, and assuming the Court rules
on June 23, 2020, that would make the deadline to submit signatures August 10, 2020.
9.

By statute, clerks have sixty days to verify the signatures following the submission

of petitions. This time is essential to allow clerks adequate time to review and verify each signature.
Under normal circumstances, I have to hire additional staff to complete the signature review

DECLARATION OF PHIL MCGRANE IN SUPPORT OF DEFENDANTS – 2
App. 085

Case 1:20-cv-00268-BLW Document 8-1 Filed 06/18/20 Page 3 of 6

process within the sixty day timeframe. By statute the second half of the sixty day timeframe
occurs during a period when our office is not conducting and election, which allows for the
capacity to complete this task. Based on the requested relief, this would not occur during one of
the most intensive preparation periods for our largest election in November.
10.

It is a laborious process to verify the signatures submitted in support of an initiative.

As part of the process, my staff looks to ensure that each signature is valid; that the signer is a
registered voter; and that if a registered voter, the correct address was used. Based upon these three
bases, approximately 30 to 40 percent of the signatures are typically rejected. This is a known fact
to ballot initiative proponents and because of this, the volume of signatures submitted to meet the
signature threshold will be much higher. This is also why all the time is needed to review the
signatures submitted.
11.

If the requested relief was granted on June 23rd and the deadline became August

10th, the statutory sixty days needed for clerks to review signatures would end on October 9, 2020,
well after the deadlines to finalize, print and mail ballots for the November Election.
12.

Under state and federal law, namely, the Uniformed and Overseas Citizens

Absentee Voting Act (“UOCAVA”), and in particular 52 U.S. Code § 20302, absentee ballots, if
requested, must be mailed to those who requested them forty-five days in advance of the November
Election in order to allow adequate time for ballots to travel to and from voters. The deadline for
this November is September 21, 2020.
13.

Due to current health concerns by voters, Ada County will see a record number of

absentee ballot requests for this year’s November 3, 2020 general election. Ada County has already
received approximately 100,000 requests for the November Election to date. These ballots will

DECLARATION OF PHIL MCGRANE IN SUPPORT OF DEFENDANTS – 3
App. 086

Case 1:20-cv-00268-BLW Document 8-1 Filed 06/18/20 Page 4 of 6

need to be prepared, printed, and assembled for mailing prior to the September 21st deadline,
which will take ten to fourteen days.
14.

I would also note that the last day for any county clerk to print ballots is September

18, 2020 per Idaho Code § 34-1003.
15.

I understand that as part of the relief requested is to use electronic signature

gathering by DocuSign.
16.

I have concerns regarding the use of DocuSign in this context as most my staff do

not have experience using DocuSign. I imagine it would take time and training to learn and
understand how DocuSign operates, but given preparations for the upcoming two elections that
would be an undue burden. It also appears that the process may take additional time to review each
signature.
17.

When reviewing petition signatures, in addition to confirming registration, we also

compare the signature on the petition to the signature on the voter’s original registration card. The
DocuSign example provided by the petitioner shows a signature being submitted that is not a
signature that would match for a voter, but a signature that is computer generated and would not
possibly match the signer’s original signature on their registration card. Under our existing
procedures, these signatures would then be rejected.
18.

There are numerous practical and procedural challenges to the relief requested,

most notably the time needed to complete all related requirements. The combination of the required
tasks along with the requirements of conducting the August and November Elections makes this
relief near impossible to complete.
///
///

DECLARATION OF PHIL MCGRANE IN SUPPORT OF DEFENDANTS – 4
App. 087

Case 1:20-cv-00268-BLW Document 8-1 Filed 06/18/20 Page 5 of 6

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
DATED this 18th day of June, 2020.

/s/ Phil McGrane
PHIL MCGRANE

DECLARATION OF PHIL MCGRANE IN SUPPORT OF DEFENDANTS – 5
App. 088

Case 1:20-cv-00268-BLW Document 8-1 Filed 06/18/20 Page 6 of 6

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on June 18, 2020, I electronically filed the foregoing with the
Clerk of the Court using the CMF/ECF system which sent a Notice of Electronic Filing to the
following persons:
Deborah A. Ferguson
daf@fergusondurham.com

Craig H. Durham
chd@fergusondurham.com
/s/ Robert A. Berry
ROBERT A. BERRY
Deputy Attorney General

DECLARATION OF PHIL MCGRANE IN SUPPORT OF DEFENDANTS – 6
App. 089

Case 1:20-cv-00268-BLW Document 8-2 Filed 06/18/20 Page 1 of 6

LAWRENCE G. WASDEN
ATTORNEY GENERAL
STEVEN L. OLSEN, ISB #3586
Chief of Civil Litigation Division
ROBERT A. BERRY, ISB #7442
MEGAN A. LARRONDO, ISB #10597
Deputy Attorneys General
Civil Litigation Division
Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
Telephone:
(208) 334-2400
Facsimile:
(208) 854-8073
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho political action
committee, and LUKE MAYVILLE,
Plaintiff,
vs.
BRADLEY LITTLE, in his official capacity as
Governor of Idaho, and LAWERENCE DENNEY
his official capacity as Idaho Secretary of State,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-00268-BLW
DECLARATION OF JASON
HANCOCK IN SUPPORT OF
DEFENDANTS

I, JASON HANCOCK, declare as follows:
1.

I am over the age of 18 years and competent to testify on the matters herein. I make

this declaration based upon my own personal knowledge.

DECLARATION OF JASON HANCOCK IN SUPPORT OF DEFENDANTS – 1
App. 090

Case 1:20-cv-00268-BLW Document 8-2 Filed 06/18/20 Page 2 of 6

2.

I am currently employed with the Idaho Secretary of State as a Deputy Secretary of

3.

As part of my work in the Idaho Secretary of State’s office, I oversee and assist in

State.

the oversight of the elections division. I began this role on April 7, 2020.
4.

Given my role in the Idaho Secretary of State’s office, I have access to all of the

documents that are filed with the Secretary of State, including initiative related documents.
5.

Reclaim Idaho filed the initiative at issue here, “An initiative augmenting funding

for K-12 education by increasing the individual and corporate income tax rates”, referred to herein
as “Invest in Idaho,” with the Secretary of State by petition on August 30, 2019. After verification
of the signatures on the petition, the Secretary of State transmitted the proposal to the Attorney
General’s office for review on September 4, 2019. The advisory review was completed and
transmitted to the Secretary of State’s office on September 24, 2019. The Secretary of State’s
office transmitted the same by email to Reclaim Idaho on the same day. On October 15, 2019, two
copies of the Initiative were sent to the Attorney General’s office for preparation of short and long
ballot titles. The Attorney General’s office transmitted short and long ballot titles to the Secretary
on October 25, 2019, which were then transmitted along with a sample petition to Reclaim Idaho
on the same date. At that time, reclaim Idaho was legally able to start circulating the petition.
6.

Rather than giving itself the full 18 months allowed by statute, Reclaim Idaho chose

to seek to place the “Invest in Idaho” initiative on the ballot in November 2020, leaving itself only
six and a half months between October 15, 2019 and April 30, 2020 to collect the necessary
signatures.
7.

All absentee ballots must be printed no later than September 14, 2020 and this

deadline is driven by the Uniformed and Overseas Citizens Absentee Voting Act (“UOCAVA”),

DECLARATION OF JASON HANCOCK IN SUPPORT OF DEFENDANTS – 2
App. 091

Case 1:20-cv-00268-BLW Document 8-2 Filed 06/18/20 Page 3 of 6

and in particular 52 U.S. Code § 20302 and Directive 2015-1 issued by Secretary of State
Lawerence Denney, a true and correct copy of which is attached hereto as Exhibit A. The reason
for this requirement is so that ballots can be sent to those Idahoans living or serving overseas, to
ensure their ability to vote. Further, pursuant to the UOCAVA and Directive 2015-1, absentee
ballots, if requested, must be mailed by September 21, 2020 to those who request it.
8.

In reviewing the requested extension by Reclaim Idaho, it would have severe

repercussions to all of the deadlines leading up to the general election, upending the statutory
scheme that governs initiative petitions. There would not be enough time for the county clerks to
verify signatures by their deadline to print ballots, which is September 14, 2020 under Directive
2015-1. The Secretary of State also must provide sample ballots by September 7, 2020. These
ballots contain, among other things, office titles, order of office, candidate names, ballot questions,
and ballot layout. In order to provide these sample ballots to the county clerks, the Secretary of
State usually begins preparing these in July and then would create pdf files for delivery by
September 7, 2020.
9.

In a normal election year, there is a period of approximately four and a half months

from the time that signatures are turned in until ballots are printed. If the relief asked for by
Reclaim Idaho is granted it would compress all of the steps necessary to ready the State for election
into five weeks until ballots are printed. It would be unreasonable, unduly burdensome, and
unachievable with the resources the state and county clerks have in place.
10.

I also note that Reclaim Idaho wants to replace Idaho Code § 34-1807’s in-person

signature requirement and instead use a private out-of-state vendor with little to no ties to the
electoral process in Idaho. There are a multitude of reasons why this is problematic.
11.

The main issue is that the request to collect signatures electronically by a private

DECLARATION OF JASON HANCOCK IN SUPPORT OF DEFENDANTS – 3
App. 092

Case 1:20-cv-00268-BLW Document 8-2 Filed 06/18/20 Page 4 of 6

entity is a fundamental departure from Idaho law and its Constitution. The running of and integrity
of government elections is the responsibility of the state and its counties.
12.

There are serious transparency concerns in removing the signature verification role

from the county clerks (as per I.C. 1802(3)) and giving it to an out-of-state, private vendor selected
by plaintiffs, which would abrogate the statutory duties of the clerks in the verification process.
13.

The suggestion to use DocuSign also overlooks the necessary component of in-

person verification and changes the geographic scope of the initiative process from physical to
virtual.
14.

Volunteers would no longer be necessary in legislative districts and instead virtual

contact from one central location could be used.
15.

There no longer would be a “grass roots” component to any such campaign and

there would be no opportunity for face-to-face interactions in legislative districts throughout the
state.

Instead it would be replaced with an impersonal, electronic process with minimal

opportunity for questions, education, or explanation, resulting in a less informed petition-signer
and electorate.
16.

Idaho’s in person signature requirement is a part of Idaho’s statutory scheme to

allow citizens to exercise their legislative powers in an effective, valid, and informed manner.
17.

The circulator is an integral part of the scheme and the attesting affidavit helps

verify that the person signing the petition indeed is the person signing, and in this way, helps to
prevent fraud.
18.

An important aspect of fraud prevention is that a circulator in Idaho, who is an

Idaho resident aged 18 or over, would be subject to Idaho’s subpoena power, whereas DocuSign
appears to be based in San Francisco, California, not Idaho.

DECLARATION OF JASON HANCOCK IN SUPPORT OF DEFENDANTS – 4
App. 093

Case 1:20-cv-00268-BLW Document 8-2 Filed 06/18/20 Page 5 of 6

19.

The change requested would negate the geographic, in-person requirement, which

the Legislature deemed necessary to ensure the integrity of the ballot process.
20.

In addition, in review of Idaho Code § 34-1807, a circulator is required to be a

“person”, “resident of state of Idaho”, “at least (18) years of age” and the person who circulated
the petition must sign “by his or her affidavit”. DocuSign is none of these things.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
DATED this 18th day of June, 2020.

/s/ Jason Hancock
JASON HANCOCK

DECLARATION OF JASON HANCOCK IN SUPPORT OF DEFENDANTS – 5
App. 094

Case 1:20-cv-00268-BLW Document 8-2 Filed 06/18/20 Page 6 of 6

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on June 18, 2020, I electronically filed the foregoing with the
Clerk of the Court using the CMF/ECF system which sent a Notice of Electronic Filing to the
following persons:
Deborah A. Ferguson
daf@fergusondurham.com

Craig H. Durham
chd@fergusondurham.com
/s/ Robert A. Berry
ROBERT A. BERRY
Deputy Attorney General

DECLARATION OF JASON HANCOCK IN SUPPORT OF DEFENDANTS – 6
App. 095

Case 1:20-cv-00268-BLW Document 8-3 Filed 06/18/20 Page 1 of 1

STATE OF IDAHO

OFFICE OF THE SECRETARY OF STATE
LAWERENCE DENNEY

SECRETARY OF STATE DIRECTIVE
(Directive 2015-1)
In order to maintain uniformity in the application, operation and interpretation of the election laws
of the State of Idaho, and to facilitate the absentee ballot process, pursuant to Section 34-202, Idaho Code,
the Secretary of State, does hereby issue the following directive:
For a Primary and General Election held in an even numbered year, all absentee ballots shall be printed
no later than fifty (50) days prior to the election. This directive is necessary to comply with the mailing
requirement of section 34-1003(3), Idaho Code, which provides for a forty-five (45) day ballot transit time for
absentee ballots where the absentee request was received at least forty-five (45) days before an election.
For all other elections, including special district elections held in odd numbered years, all absentee
ballots shall be printed no later than forty (40) days prior to the election. This is necessary to allow for at
least 30 days transit time of the absentee ballot to the voter and transit back from the voter. However, it is
recommended that the County Clerk continue to strive to have absentee ballots mailed by the 45th day before
any election to allow for transit to all voters requesting absentee ballots at least forty-five (45) days before an
election.

LAWERENCE DENNEY
Secretary of State

Directive: 2015-1
Issued: October 2, 2015
P.O. Box 83720, Boise, Idaho 83720-0080
Elections Telephone: (208) 334-2852, FAX: (208) 334-2282
Located at 700 W Jefferson, Ste. E-205

J-3

DECLARATION OF HANCOCK
EXHIBIT A
Page 1 of 1

7/17

App. 096

Case 1:20-cv-00268-BLW Document 8-4 Filed 06/18/20 Page 1 of 3

LAWRENCE G. WASDEN
ATTORNEY GENERAL
STEVEN L. OLSEN, ISB #3586
Chief of Civil Litigation Division
ROBERT A. BERRY, ISB #7442
MEGAN A. LARRONDO, ISB #10597
Deputy Attorneys General
Civil Litigation Division
Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
Telephone:
(208) 334-2400
Facsimile:
(208) 854-8073
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho political action
committee, and LUKE MAYVILLE,
Plaintiff,
vs.
BRADLEY LITTLE, in his official capacity as
Governor of Idaho, and LAWERENCE DENNEY
his official capacity as Idaho Secretary of State,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-00268-BLW
DECLARATION OF SHERYL
MILLARD IN SUPPORT OF
DEFENDANTS

I, SHERYL MILLARD, declare as follows:
1.

I am over the age of 18 years and competent to testify on the matters herein. I make

this declaration based upon my own personal knowledge.

DECLARATION OF SHERYL MILLARD IN SUPPORT OF DEFENDANTS – 1
App. 097

Case 1:20-cv-00268-BLW Document 8-4 Filed 06/18/20 Page 2 of 3

2.

I am an Elections Compliance Specialist in the Office of the Idaho Secretary State

of Idaho. I have been with the Office since November 2019.
3.

On March 16, 2020, the Secretary of State’s Office received an email at the general

elections address, elections@sos.idaho.gov. The email was sent at 11:17 a.m. I responded to the
email that same day at 2:12 p.m. A true and correct copy of email correspondence is attached as
Exhibit A.
4.

I had no further communications with Ms. Schroeder.

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.

DATED this 17th day of June, 2020.

/s/ Sheryl Millard
SHERYL MILLARD

DECLARATION OF SHERYL MILLARD IN SUPPORT OF DEFENDANTS – 2
App. 098

Case 1:20-cv-00268-BLW Document 8-4 Filed 06/18/20 Page 3 of 3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on June 18, 2020, I electronically filed the foregoing with the
Clerk of the Court using the CMF/ECF system which sent a Notice of Electronic Filing to the
following persons:
Deborah A. Ferguson
daf@fergusondurham.com

Craig H. Durham
chd@fergusondurham.com
/s/ Robert A. Berry
ROBERT A. BERRY
Deputy Attorney General

DECLARATION OF SHERYL MILLARD IN SUPPORT OF DEFENDANTS – 3
App. 099

Case 1:20-cv-00268-BLW Document 8-5 Filed 06/18/20 Page 1 of 2

App. 100

Case 1:20-cv-00268-BLW Document 8-5 Filed 06/18/20 Page 2 of 2

App. 101

Case 1:20-cv-00268-BLW Document 8-6 Filed 06/18/20 Page 1 of 4

LAWRENCE G. WASDEN
ATTORNEY GENERAL
STEVEN L. OLSEN, ISB #3586
Chief of Civil Litigation Division
ROBERT A. BERRY, ISB #7442
MEGAN A. LARRONDO, ISB #10597
Deputy Attorneys General
Civil Litigation Division
Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
Telephone:
(208) 334-2400
Facsimile:
(208) 854-8073
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho political action
committee, and LUKE MAYVILLE,
Plaintiff,
vs.
BRADLEY LITTLE, in his official capacity as
Governor of Idaho, and LAWERENCE DENNEY
his official capacity as Idaho Secretary of State,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-00268-BLW
DECLARATION OF ANDREW
MITZEL IN SUPPORT OF
DEFENDANTS

I, ANDREW MITZEL, declare as follows:
1.

I am over the age of 18 years and competent to testify on the matters herein. I make

this declaration based upon my own personal knowledge.

DECLARATION OF ANDREW MITZEL IN SUPPORT OF DEFENDANTS – 1
App. 102

Case 1:20-cv-00268-BLW Document 8-6 Filed 06/18/20 Page 2 of 4

2.

I am a Senior Advisor, Intergovernmental Affairs for the Office of the Governor. I

have held this position since January 2019. I hold Bachelor of Arts and a Masters of Community
and Regional Planning degrees from Boise State University.
3.

I was contacted on March 16, 2020 by Rebecca Schroeder at 9:08 in the morning

by email. I have attached a true and correct copy of this email, along with the rest of the emails I
exchanged that morning with Ms. Schroeder as Exhibit A.
4.

I had never spoken with Ms. Schroeder regarding Reclaim Idaho’s “Invest in Idaho”

initiative before this email correspondence. I have not been contacted by or communicated with
Ms. Schroeder since March 16, 2020 regarding that initiative.
5.

On March 16, 2020, the legislature was still in session. The 2020 legislative

adjourned sine die on March 20, 2020.
6.

The time leading up to the end of the 2020 legislative session was extraordinarily

busy in the Governor’s Office due to the demands of finishing the session and the need to ensure
a thorough and effective response to the COVID-19 pandemic that was arising in Idaho at the time.
7.

So far as I am aware, Ms. Schroeder did not contact anyone else within the

Governor’s staff.
8.

Had she contacted the Governor’s Office after the legislature finished its session, I

believe her concerns would have been considered and she would have received a response.
///
///
///
///
///
///
DECLARATION OF ANDREW MITZEL IN SUPPORT OF DEFENDANTS – 2
App. 103

Case 1:20-cv-00268-BLW Document 8-6 Filed 06/18/20 Page 3 of 4

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
DATED this 18th day of June, 2020.

/s/ Andrew Mitzel
ANDREW MITZEL

DECLARATION OF ANDREW MITZEL IN SUPPORT OF DEFENDANTS – 3
App. 104

Case 1:20-cv-00268-BLW Document 8-6 Filed 06/18/20 Page 4 of 4

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on June 18, 2020, I electronically filed the foregoing with the
Clerk of the Court using the CMF/ECF system which sent a Notice of Electronic Filing to the
following persons:
Deborah A. Ferguson
daf@fergusondurham.com

Craig H. Durham
chd@fergusondurham.com
/s/ Robert A. Berry
ROBERT A. BERRY
Deputy Attorney General

DECLARATION OF ANDREW MITZEL IN SUPPORT OF DEFENDANTS – 4
App. 105

Case 1:20-cv-00268-BLW Document 8-7 Filed 06/18/20 Page 1 of 3

From:
To:

Andrew Mitzel
Brian Wonderlich

Rebecca,
Given our intense focus on spending as much time and resources on protecting the health and safety
of the broader population, the Governor’s Office has no intention of taking executive action on this
matter.

Andrew
Get Outlook for iOS
From: Rebecca Schroeder <rebeccaschroeder4idaho@gmail.com>
Sent: Monday, March 16, 2020 12:08:34 PM
To: Andrew Mitzel <Andrew.Mitzel@gov.idaho.gov>
Subject: Re: Ballot initiatives with CoVid-19
Dear Andrew,
The SOS has just informed us that a change to electronic signature gathering would require
Executive or Legislative action. I understand that the Governor's office is very busy dealing with this
crisis--but the SOS does not have jurisdiction to resolve this--and it absolutely falls under the realm
of protecting wider public safety. We request a meeting or phone call about this urgent matter
please.
Rebecca  
On Mon, Mar 16, 2020 at 10:58 AM Andrew Mitzel <Andrew.Mitzel@gov.idaho.gov> wrote:
Rebecca,
We understand your concerns about the limitations that the current situation presents. The
Secretary of State’s office is actively working on ways to make the election process move forward in
light of the concerns about spreading coronavirus, and your organization may benefit from using
some of their ideas. The Governor’s Office is intently focused on the health and safety of the broader
population right now, and we are referring you to the Secretary of State’s office to resolve these
concerns.
Andrew
Get Outlook for iOS
From: Rebecca Schroeder <rebeccaschroeder4idaho@gmail.com>
Sent: Monday, March 16, 2020 11:24:00 AM
To: Andrew Mitzel <Andrew.Mitzel@gov.idaho.gov>
Subject: Re: Ballot initiatives with CoVid-19
Hey Andrew,

DECLARATION OF MITZEL
EXHIBIT A
Page 1 of 3

App. 106

Case 1:20-cv-00268-BLW Document 8-7 Filed 06/18/20 Page 2 of 3
We have been simultaneously consulting with the SOS office. They advised us that it would take a
Legislative or Executive action to extend the signature deadline. We have communicated with them
about electronic signature gathering (the only safe method at this point) also, and await
their response. I hope that if Executive action is required--that Governor Little would consider a
meeting with one of us. I know you all are bombarded with trying to deal with this crisis...we are
doing the same. Hundreds of volunteers have put their hearts into this effort. We understand that
this is an extraordinary request--but we are certainly in extraordary times.
Thanks Andrew,
Rebecca
On Mon, Mar 16, 2020 at 9:04 AM Andrew Mitzel <Andrew.Mitzel@gov.idaho.gov> wrote:
Rebecca,
Thanks for reaching out. I would encourage you to reach out to the Secretary of States office with
your concerns regarding ballot initiatives as they oversee that process.
Andrew
Get Outlook for iOS
From: Rebecca Schroeder <rebeccaschroeder4idaho@gmail.com>
Sent: Monday, March 16, 2020 9:02:08 AM
To: Andrew Mitzel <Andrew.Mitzel@gov.idaho.gov>
Subject: Ballot initiatives with CoVid-19
Dear Andrew,
As you know, we are facing the unprecedented circumstances of a public health crisis. Volunteers
around the state have been working for months collecting signatures for the citizen ballot initiative
to increase funds to Idaho K-12 schools. Collecting signatures face-to-face puts both volunteers and
the general public at risk, and goes against the guidelines that we are hearing from public health
officials.
The result is that Idahoans are no longer able to exercise their constitutional right to bring
forward a ballot initiative. Please give Reclaim Idaho co-founder Luke Mayville the opportunity to
meet with the Governor about the safest way to move forward with our ballot initiative. We have
already collected over 30K signatures, and were well on our way to qualifying the initiative.
Hundreds of volunteers have already put in hundreds of hours. Along with the Governor, our priority
is the health and safety of our Idaho communities. This extraordinary situation requires action by the
Governor to ensure the public safety is maintained while we exercise our Constitutional rights.
Sincerest thanks,
Rebecca Schroeder
208-660-9038

Andrew Mitzel

Senior Advisor, Intergovernmental Affairs | Office of the Governor
phone: 208-854-3025

DECLARATION OF MITZEL
EXHIBIT A
Page 2 of 3

App. 107

Case 1:20-cv-00268-BLW Document 8-7 Filed 06/18/20 Page 3 of 3
mobile: 208-695-5440
email: Andrew.mitzel@gov.idaho.gov

DECLARATION OF MITZEL
EXHIBIT A
Page 3 of 3

App. 108

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 1 of 17

Deb o rah A. F erg u s o n
C rai g H. Du rh am
FER GUS ON DUR H AM , P LLC
2 23 N. 6 t h S t reet , S ui t e 3 2 5
B o i s e, Id ah o 8 3 7 0 2
T: (2 08 ) 72 4 -2 6 1 7
F: (2 08 ) 90 6 -8 6 6 3
daf@fe rgu s o n d u rh a m . co m
ch d@ferg u s o n d u rh a m . co m
At t orn ey s fo r P l ai n t i ffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

RECLAIM IDAHO, an Idaho Political
Action Committee; LUKE MAYVILLE

Case No. 1:20-cv-00268-BLW

Plaintiffs,

DECLARATION OF LUKE
MAYVILLE IN SUPPORT
OF MOTION FOR
PRELIMINARY
INJUNCTION

v.
BRADLEY LITTLE, in his official
capacity as Governor of Idaho;
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State;
Defendants.

I, Luke Mayville, having first been duly sworn upon oath, declare as follows:
1.

My name is Luke Mayville, and I am a Co-founder of Reclaim Idaho, the other plaintiff

in this case.
2.

I have served as a volunteer leader and organizer for Reclaim Idaho since spring 2017,

when I co-founded the organization in my hometown of Sandpoint. My role with Reclaim Idaho

Declaration of Luke Mayville-

p.1
App. 109

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 2 of 17

includes setting strategic priorities for the organization, fundraising, communicating with media,
writing opinion columns, drafting initiative proposals, and traveling the state to recruit volunteers
and leaders. I am an academic by training and was most recently employed by Columbia
University as a postdoctoral fellow and lecturer in the fields of History and American Studies. I
have also held teaching and research positions at Yale University and American University. In
2016, I published a book on the political thought of President John Adams.
3.

Reclaim Idaho is a grassroots movement designed to protect and improve the quality of

life of working Idahoans. Reclaim organizes to pass citizens’ initiatives and to elect candidates
who believe in strengthening public schools, protecting public lands, and extending healthcare
to working families.
4.

Reclaim filed an “Invest in Idaho” K-12 educational funding initiative with the Secretary

of State in the fall of 2019. If put on the ballot and passed, this initiative would invest $170
million in education in Idaho.
5.

Reclaim was operating on the model of organizing that it had successfully used during

the Medicaid expansion drive, a model of organizing we had begun to develop in 2017.
6.

That year, we filed a Medicaid Expansion initiative—a proposal that eventually qualified

for the ballot with well over the 56,000 signatures required. Several additional advocacy groups
contributed to signature collection in the final months of petitioning, but the vast majority of
required signatures were collected by Reclaim Idaho volunteers.
7.

Moreover, Reclaim Idaho volunteers easily surpassed Idaho’s requirements for

geographic distribution by collecting signatures from more than 6% of registered voters in well
over 18 of Idaho’s 35 legislative districts.

Declaration of Luke Mayville-

p.2
App. 110

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 3 of 17

8.

We attribute the success of our Medicaid signature drive to a highly effective and labor

intensive model of organizing.
9.

In the early stages of the effort, members of our statewide team visited over 20 counties

and worked to recruit volunteers and organize those volunteers into county-based teams. This
method of organizing didn’t yield large numbers of signatures during the early months of the
drive, but it did build strong, well-trained teams capable of scaling up the operation
exponentially during the final few months before the deadline.
10.

By mid-March, with just six weeks left before the deadline, we had collected fewer than

half of the required signatures. But we were able to accelerate the rate of signature collection
rapidly in the final weeks.
11.

One factor in particular contributed to our ability to ramp up signature collection in the

final stretch: the sense of urgency brought about by the impending deadline. With the deadline
looming, our most active volunteers grew more committed and more efficient in their work, and
hundreds of new volunteers joined the effort for the first time. (The motivating effects of the
looming deadline was compounded by changing weather. In the final stretch, just as volunteers
were growing more motivated, the weather warmed up and enabled them to collect signatures
much more effectively.)
12.

In my own observations and studies of different signature-drive models, I have found that

the motivating effect of a looming deadline is especially important for grassroots drives that rely
mainly on volunteers. When signature drives rely mainly on paid-signature gatherers, the final
stretch of a signature drive is not much different than the early months. Throughout the drive,
petitioners are motivated by the wages they earn. In contrast, grassroots campaigns stand to

Declaration of Luke Mayville-

p.3
App. 111

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 4 of 17

benefit enormously from the highly motivating sense of urgency that kicks in during the final
stretch of time before a deadline.
13.

The model of organizing we developed during our Medicaid drive prepared us well to

capitalize on the sense of urgency during the final weeks of the effort. By investing time and
resources during the early months in volunteer-recruitment and team-building, we were wellpoised in the final stretch to absorb hundreds of new volunteers and scale up our work
dramatically.
14.

When we began the signature drive for our “Invest in Idaho” K-12 funding initiative, we

made every effort to replicate the success of our Medicaid drive. Beginning in September
2019—over one month before our petition was approved for circulation by the Idaho Secretary
of State, organizers visited counties in every region. They recruited volunteers, organized them
into county-based teams, and trained them with effective signature-gathering tactics.
15.

Our rate of signature collection was low during the first several months, comparable to

what it had been during our Medicaid signature drive. By February 15th, we had collected an
estimated 15,000 signatures—roughly one quarter of the signatures needed to qualify the
initiative.
16.

But in the weeks that followed, as the deadline began to loom on the horizon, our rate of

signature collection accelerated dramatically. Our most active volunteers grew even more
committed and efficient in their work. Hundreds of new volunteers were motivated by the
impending deadline to join the effort.
17.

During the four weeks between mid-February and March 12th, we more than doubled our

total number of signatures from 15,000 to over 30,000. We progressed from zero legislative

Declaration of Luke Mayville-

p.4
App. 112

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 5 of 17

districts qualified to 5 districts qualified and 7 additional districts within a few hundred
signatures of qualification.
On March 12th, the day before the first case of COVID-19 was confirmed in Idaho, we

18.

were significantly ahead of where we had been by that same date during our Medicaid drive two
years earlier.
On March 13th, the first case of COVID-19 was confirmed in Idaho and Governor Little

19.

declared a state of emergency in order to prevent the spread of the coronavirus. It was on that
date that it became apparent to our team that we would need to take significant steps to adapt to
changing circumstances.
20.

On that same day, we sent an email newsletter to all supporters with the following

guidelines:

21.

•

Stay home if you are exhibiting any symptoms of illness.

•

Avoid approaching anyone that is symptomatic of illness for a signature.

•

Practice excellent hand hygiene before and after collecting signatures. Carry a small
bottle of hand sanitizer if possible.

•

Wipe down clipboards before and after a signature gathering shift.

•

Avoid shaking hands or direct physical contact when collecting signatures.

•

We recommend adopting a “KEEP THE PEN” policy. In an effort to reduce transmission
of germs, volunteers should carry packages of “disposable” pens. If the signer doesn’t
have a pen of their own, simply allow them to keep the pen. Our campaign is committed
to providing pens and/or reimbursing volunteers for the cost of pens.
We also notified volunteers that we would be transitioning toward more outdoor

signature-collection activities, considering that staying outdoors would reduce the risk of the
airborne spread of germs.

Declaration of Luke Mayville-

p.5
App. 113

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 6 of 17

22.

That week, the CDC issued guidelines for individual and community organizations

operating under conditions of “minimal to moderate” spread of COVID-19. Those guidelines
included:

23.

•

Reduction of in-person activities, especially for organizations with individuals at
increased risk of severe illness

•

Cancellation of large gatherings of 250 or more people

•

Implementation of personal protection measures such as staying home when sick,
handwashing respiratory etiquette, and cleaning frequently touched surfaces daily

Over the next five days, between March 13th and March 18th, we observed a dramatic
escalation of the public health risk. Relevant developments during those days included:

24.

On the evening of Friday, March 13th, we received an email from retired Idaho appellate

Judge Karen Lansing—one of our most active and committed volunteers—notifying us that she
was suspending her efforts to gather signatures. She wrote:
I feel that my commitment and desire to gather signatures for this critical
initiative directly conflicts with my obligation as a citizen to practice social
distancing to protect my fellow Idahoans. I appreciate the suggestion that use of
disposable pens and frequent cleaning of clipboards would reduce the risk of
disease transmission. Those measures undoubtedly would help, but it is not
possible for anyone to sign the petition without touching the page as they write, so
it seems to me that the risk substantially remains. As important as the initiative
is, I reluctantly conclude that it is outweighed by my responsibility to avoid
possibly putting others at risk.
Judge Lansing’s email was the first of many similar messages sent to us from volunteers from all
around the state.
25.

Guidelines from the CDC and other public health authorities made clear that the health

risk posed by the coronavirus was especially severe for older adults. This fact weighed heavily
on our decision-making, considering that the majority of Reclaim Idaho’s most active
volunteers are retirees over the age of 60.

Declaration of Luke Mayville-

p.6
App. 114

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 7 of 17

26.

On Saturday, March 14th, Meridian Library District announced that all libraries were

closing operations due to the coronavirus. Likewise, the City of Boise closed all libraries on
Monday, March 16th, and in subsequent weeks libraries would close across the state. On
Tuesday, March 17th, DMV offices closed in Ada and Canyon counties. This was highly
significant because libraries and DMVs had proven to be the most promising public locations
for volunteers to collect signatures.
27.

On Sunday, March 15th, the CDC recommended cancellation or postponement of all

gatherings of 50 or more. Most dramatically, the CDC also began recommending a six-foot
“social distancing” rule which quickly became a widespread norm of behavior.
28.

As I would later explain in an April 9th interview with CityLab 1, our organization

struggled over those five days to adapt to rapidly changing circumstances. As a last resort, we
considered setting up “drive-through” signature collection stations. (We had recently learned
that the Save Our Schools Arizona initiative—an initiative that would eventually suspend
operations due to the pandemic—was experimenting with drive-through signature-gathering).
But it quickly became clear that in-person signature gathering of any kind was simply too
hazardous in the midst of a deadly pandemic. The announcement of the six-foot rule made this
especially clear.
29.

As I would later explain in my interview with CityLab :
We were trying to adapt with the guidelines as they grew more and more stringent…But
once the six-foot rule settled in, it just became impractical. It also became clear at that

1

CityLab describes itself on its web site as “a partnership between Bloomberg Philanthropies, the Aspen Institute
and The Atlantic, CityLab is the preeminent meeting of city leaders and the top minds in urbanism and city
planning, economics, education, art, architecture, public sector innovation, community development, and business
— convened with the goal of creating scalable solutions to major challenges faced by cities everywhere.”

Declaration of Luke Mayville-

p.7
App. 115

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 8 of 17

point that any continuation of a signature drive would put volunteers and the wider
public at risk.
30.

On Monday, March 16th, having concluded that in-person signature gathering would be

too great a public health risk, we decided to appeal to Governor Brad Little with a request for the
authorization of electronic signature gathering. We sent an email newsletter inviting supporters
to sign our online petition to the Governor.
31.

The text of the newsletter included the following:
This pandemic is obstructing the ability of every Idahoan to participate in the ballot
initiative process…In the interest of safeguarding the health of the public and protecting
the constitutional rights of Idahoans, we're calling on Governor Brad Little to exercise
his executive powers to authorize temporary online petitioning for Idaho ballot
initiatives.

32.

As soon as supporters signed the petition online, they were then prompted with an

opportunity to email the Governor’s office and ask the Governor to authorize electronic signature
collection.
33.

That same day, Reclaim Idaho Executive Director Rebecca Schroeder corresponded via

email with Andrew Mitzel, a member of the Governor’s staff. When Mitzel directed Schroeder
and Reclaim Idaho to bring our request for electronic signature capabilities to the Idaho
Secretary of State, Schroeder immediately made contact via email with the Secretary of State’s
office. The Secretary of State’s office then claimed, in reply, that “there is no statute allowing
electronic signatures for petitions in Idaho Statutes 34 Chapter 18,” and that they were therefore
unable to take action. When Schroeder then brought this information to Mitzel and the
Governor’s office, Mitzel replied as follow:
Given our intense focus on spending as much time and resources on protecting the health
and safety of the broader population, the Governor’s Office has no intention of taking
executive action on this matter.

Declaration of Luke Mayville-

p.8
App. 116

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 9 of 17

34.

Later that day, in a public statement given to BSU Public Radio, the Governor’s Press

Secretary Marissa Morrison Hyer said “Idaho statute does not allow for the suspension of rules
regarding the physical collection of signatures, even in times of emergency.”
35.

Upon learning that the Governor did not intend to take action, we made one last attempt

to save the signature drive. I contacted Representative John Gannon and asked him to propose
legislation in the Idaho House of Representatives that would temporarily adjust Idaho’s ballot
initiative rules. The following day, Rep. Gannon reported to me that he shared a legislative
proposal with at least one member of majority leadership, but that he was unable to find support
for the bill. In his judgment, there was no legislative path forward for the proposal.
36.

By Wednesday, March 18th, we determined that we had exhausted all avenues of action.

Neither the Governor, the Secretary of State, nor the Legislature were willing to take action, and
there were no available tactics for collecting in-person signatures while also preserving the
safety of our volunteers and the wider public.
37.

That morning, we sent the following message to our supporters via email newsletter and

social media:
After carefully reviewing the latest recommendations of public health authorities, we
have concluded that it is no longer safe for volunteers to engage in the face-to-face
interactions that are necessary for effective signature gathering. In order to protect the
health of our volunteers and the wider public, we are calling on all Reclaim Idaho
volunteers to suspend signature collection until further notice.
We do not make this decision lightly. Tragically, the coronavirus pandemic brought our
signature drive to a standstill at the exact moment when we’d built our strongest
momentum. Thanks to the hard work of volunteers across the state during the past month,
our campaign cleared 30,000 signatures—more than we’d collected at this stage of the
Medicaid Expansion campaign.
But health and safety must come first. There is simply too much at risk to take chances.

Declaration of Luke Mayville-

p.9
App. 117

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 10 of 17

38.

Governor Little’s proclamation of a stay-at-home order was issued on March 25th. That

order remains in partial effect today and remained in full effect through April 30th, which
coincidentally was the final day before the official signature-gathering deadline on May 1st.
39.

Our decision to suspend operations was based on our assessment of the risks of signature

gathering in the midst of a pandemic.
40.

The stay-at-home order exacerbated the risk and made signature-gathering impossible.

41.

Reclaim Idaho has invested time in developing a model for an online signature-

collection plan that will allow the initiative campaign to obtain sufficient and verifiable
signatures of Idaho electors. Our plan will enable the county clerk offices to verify electronic
signatures in a process that closely resembles the normal verification process. In order to reduce
the burden on county clerks, we plan to submit all signatures currently in our possession that
have not yet been verified in order to give county clerks time to process these signatures prior to
the time period when electronic signatures will need to be processed. We estimate this total
amount to be approximately 20,000 signatures.
42.

Moreover, our plan will not impose significant additional burdens on the Idaho Secretary

of State. The following email, sent to me by Deputy Secretary of State Jason Hancock on
Wednesday, June 3rd, clarifies that the Secretary of State is not involved in verifying the validity
of signatures, but only in counting them in order to determine whether the petition includes the
requisite number of signatures statewide and the requisite number of signatures in 18 districts:
Since the county clerks, individually, are not in a position to know whether or not the
petition includes the requisite number of valid signatures statewide, or the requisite
number of valid signatures in at least 18 legislative districts, these tasks are performed
by the Secretary of State after the various county clerks submit their reports showing the
signatures that were submitted to them that they were able to verify.

Declaration of Luke Mayville-

p.10
App. 118

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 11 of 17

43.

Furthermore, we are prepared to reduce the additional burden on the Secretary of State by

immediately providing them with 10,593 signatures that have been verified already by county
clerks.
44.

Attached to this affidavit are slides that show how the electronic signature process would

work. It will be under a contract with DocuSign, the country’s leading company for execution of
electronic signatures on legal documents.
45.

Regarding the reliability of DocuSign as a system for collecting authentic signatures, the

following information has been published by DocuSign, Inc.:
•

In 2017, DocuSign was officially certified by the Federal Risk and Authorization
Management Program (FedRAMP), a government-wide service that vets technology
providers for security and risk. DocuSign is now used by 800 federal, state, and local
government agencies, including the Federal Communications Commission (FCC), the
state of North Carolina, the Nevada Department of Transportation, and 400 California
cities.

•

DocuSign is used by Fortune 500 companies and global financial institutions including TMobile, Apple, Aetna, VISA, and Prudential Financial.

•

More than 775,000 documents are signed using DocuSign each day, yet only in 2-3
instances have DocuSign documents been challenged in court. DocuSign maintains a
court admissible certificate of completion that provides proof of the signing process –
including who signed what, when and where – for all parties in the transaction. A
DocuSign electronic signature is more enforceable than a wet signature because of the
court-admissible evidence it contains.

•

Unlike wet signatures, e-signatures also come with an electronic record that serves as an
audit trail and proof of the transaction. The audit trail includes the history of actions taken
with the document, including the details of when it was opened, viewed and signed.
Depending on the provider, and if the signer agreed to allow access to their location, the
record will also show the geolocation where it was signed. If one of the signers disputes
their signature, or if there’s any question about the transaction, this audit trail is available
to all participants in the transaction and can resolve such objections.

•

As an additional layer of authentication, DocuSign signatures include certificates of
completion, which can include specific details about each signer on the document,
including the consumer disclosure indicating the signer agreed to use e-signature, the
signature image, key event timestamps and the signer’s IP address and other identifying
information.

Declaration of Luke Mayville-

p.11
App. 119

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 12 of 17

•

46.

Once the signing process is complete, all documents are digitally sealed using Public Key
Infrastructure (PKI), an industry-standard technology. This seal indicates the electronic
signature is valid and that the document hasn’t been tampered with or altered since the
date of signing.
Working with DocuSign, Reclaim Idaho has developed a plan to comply with Idaho’s

requirements for state initiative petitions, with additional safeguards to ensure that signatures are
those of the persons whom they purport to be. The model will work as follows:
•

Reclaim Idaho will establish a dedicated website for on-line signature collection.

•

The landing page will ask for support to place the issue on the ballot to increase funding
for K-12 education. The page will provide a link for the person to read the full text. It will
notify persons that only Idaho registered voters are permitted to sign.

•

If the person elects to proceed, they will enter their name, voter registration address, city
or zip code, the last 4 digits of their social security number, and their email address.

•

They will hit 'next' and be directed to a PDF of the petition that looks exactly like the
paper version except that: 1. It will have only one signature line, 2. It will have fields for
the last 4 digits of their SSN and the county where the elector resides, and 3. The
circulator statement will have additional wording due to the on-line nature. All of the
fields will populate from the information provided by the person on the prior page and
they will be asked to confirm the information and authorize the placing of their signature
on the petition. If they do, a cursive version of their signature will be affixed to the
signature field or they can choose to draw their own signature electronically. Either way,
the signature is legally binding, complying with the ESIGN Act. The document will be a
self-contained single signature complete part-petition.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true

and correct.
EXECUTED ON this 5th day of June 2020.

/s/Luke Mayville

Declaration of Luke Mayville-

p.12
App. 120

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 13 of 17

Declaration of Luke Mayville-

p.13
App. 121

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 14 of 17

Declaration of Luke Mayville-

p.14
App. 122

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 15 of 17

Declaration of Luke Mayville-

p.15
App. 123

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 16 of 17

Declaration of Luke Mayville-

p.16
App. 124

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 17 of 17

Declaration of Luke Mayville-

p.17
App. 125

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 1 of 5

Deb o rah A. F ergus o n
C rai g H. Durham
FER GUS ON DUR H AM , P LLC
2 2 3 N. 6 t h S t reet , S ui t e 325
B o i s e, Id aho 83702
T: (2 0 8 ) 724-2617
F: (2 0 8 ) 906-8663
d af@fe rg us ondurha m .com
ch d @ferg us ondu rha m .com
At t o rn ey s for P l ai nt i ffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho Political
Action Committee, and LUKE
MAYVILLE,

Case No. 1:20-cv-00268-BLW

Plaintiffs,
DECLARATION OF LINDA
LARSON IN SUPPORT OF
MOTION FOR
PRELIMINARY
INJUNCTION

v.
BRADLEY LITTLE, in his official
capacity as Governor of Idaho, and
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State,
Defendants.

I, Linda Larson, having first been duly sworn upon oath, declare as follows:
1.

My name is Linda Larson, and I am the Volunteer Leader for Bonner County of Reclaim

Idaho, a Plaintiff in this case.
2.

The Reclaim Idaho “Invest In Idaho” campaign was abruptly halted on March 18, 2020

due to the coronavirus pandemic, after Reclaim’s requests to state officials to allow electronic
1
App. 126

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 2 of 5

signature gathering were denied. Our volunteer team in Sandpoint--working alongside a team of
volunteers in Bonners Ferry--had already qualified District 1 and was ready to help add
signatures to the statewide totals.
3.

Had Reclaim Idaho been able to continue, there is no doubt in my mind that we would

have successfully met the state requirements needed to see this put on the November ballot. I
have provided a summary here of the events as they happened in Sandpoint, Idaho, Bonner
County, District 1.
4.

I served as a volunteer for Reclaim Idaho in the capacity of co-Leader for Bonner County

during the 2017/2018 Medicaid Expansion campaign where our team collected over 4000
signatures. We easily qualified District 1 and helped collect additional signatures that went to
the statewide totals needed to put Medicaid Expansion on the ballot. Our team consisted of over
100 dedicated volunteers.
5.

The Invest in Idaho campaign started in November of 2019 and I accepted the volunteer

position of Bonner County Leader.
6.

Our team assembled quickly and collected over 300 signatures during our first one day

event.
7.

We began with the goal of collecting 100 signatures per week and easily exceeded that

during most weeks.
8.

On February 1, we held an event in Sandpoint to tell people more about the initiative and

65 people attended. We were able to recruit 55 new volunteers who committed to collect
signatures at events or from friends and family.
9.

The momentum from that event continued to build and we collected over 800 signatures

during the month of February.

2
App. 127

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 3 of 5

10.

By early March, my team was beginning to become concerned about how the virus might

affect our campaign.
11.

We decided to set a new goal of qualifying no later than March 30 in case the virus

disrupted our collection activities.
12.

The majority of our team in Sandpoint is over 60 years old, and many had high risk

family members as well, so we were on high alert for potential risks.
13.

Starting in early March, we began purchasing masks, gloves, hand sanitizers and

disinfectant wipes.
14.

We started requiring that all volunteers use the extra hygiene precautions and provided

pocketed aprons and supplies to everyone collecting at public events.
15.

As the CDC guidelines began to be released, our team decided that the last public event

that we would collect signatures at would be March 13 as we no longer believed that we could
assure the safety of our volunteers and the public.
16.

Specifically, volunteers Nancy Gerth, Jill Trick, Carol Holmes, Rebecca Holland, and

Linda Byars, voiced concerns about safety for themselves and for the public.
17.

We all brainstormed about different possible methods for collecting in a safe manner, but

in the end Reclaim Idaho suspended the campaign on March 18 after the leadership of Reclaim
Idaho were informed we could not collect signatures electronically or get an extension to the
original signature deadline.
18.

In the absence of a solution to collect signatures during the pandemic, we were all very

discouraged, frustrated and disappointed. Reclaim Idaho’s volunteers called and emailed the
Governor and asked for an extension of the deadline or permission to collect signatures
electronically. Governor Little denied our requests which left us feeling demoralized.

3
App. 128

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 4 of 5

19.

I believe the state of Idaho has a responsibility to protect our rights during these

unprecedented times.
20.

In an interview with National Public Radio that aired on March 31st, I spoke of the

importance of the initiative process for addressing the underfunding of Idaho schools: “If our
legislators aren't willing to solve it, then, OK, fine, we'll do this, but give us the tools to be able
to do this. That's all we're asking.”
21.

We immediately stopped all collection activities and turned in our last petitions to the

elections office on March 27.
22.

Because we had increased our collection efforts in early March, we were easily able to

qualify our district, five weeks before the April 30 deadline.
23.

From my experience with the Medicaid Expansion efforts, the last six weeks were by far

the most productive weeks during the collection window.
24.

This campaign was no different except that I feel we had a stronger, more experienced

team this time around.
25.

I have no doubt that our team would have continued to work hard right up to the deadline

to ensure that the statewide totals were met. We even had a dedicated team who was ready to
travel to other districts that needed assistance. One volunteer, Rebecca Holland, offered to lead
this venture and offered to fund the travel expenses as an in-kind donation to Reclaim Idaho.
26.

My team of volunteers understood that the current level of funding for education in Idaho

is a crisis. They recognized that this effort was critical and were ready to do the work necessary
to help this initiative succeed. They were every bit as dedicated to getting this initiative onto the
ballot as were my volunteers for the Medicaid Expansion effort.

4
App. 129

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 5 of 5

27.

Based on my personal experience, I believe that had we been able to continue collecting

signatures our statewide team would have met the state requirements to put our initiative onto the
November 3, 2020 ballot.

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and
correct. EXECUTED ON this 6th day of June 2020.

/s/ Linda Larson

5
App. 130

7/13/2020

Sign Now to Put K-12 Funding on the November Ballot

SIGN THE PETITION
TO INCREASE
FUNDING FOR K-12
EDUCATION. IT ONLY
TAKES A FEW
MINUTES.
DUE TO COVID-19, WE ARE
COLLECTING SIGNATURES
ELECTRONICALLY TO QUALIFY THE
"INVEST IN IDAHO" K-12 INITIATIVE
FOR THE BALLOT. PLEASE FILL OUT
THE FORM BELOW. AFTER YOU FILL
OUT THE FORM, YOU WILL BE
REDIRECTED TO A DOCUSIGN FORM
WHERE YOU WILL SIGN THE OFFICIAL
PETITION.
(If you'd like to view a PDF of the full petition
before proceeding, click here. If you have questions
about the “Invest in Idaho” K-12 Initiative, read our
FAQ page)
Full Name *

https://www.reclaimidaho.org

1/3

App. 131

7/13/2020

Sign Now to Put K-12 Funding on the November Ballot

Email *

Residence Street and Number *

Address should match what was provided on your voter registration form.

City or Zip Code *

County *

Please ensure that your stated county matches the county in which you are registered
to vote.

Last 4 Digits of SSN *

I confirm that I am registered to vote in Idaho and I have
not previously signed this petition.

Next

This form and website are safe and secure by using SSL
encryption to keep your data protected. DocuSign is an
industry leader and the most trusted eSignature provider
in the world.

https://www.reclaimidaho.org

2/3

App. 132

7/13/2020

Sign Now to Put K-12 Funding on the November Ballot

1401 Poplar Avenue
Twin Falls, ID 83301

info@reclaimidaho.org

INFO

ACTION

Our Story

Contact

Our Campaign

Donate

Medicaid
Expansion
Campaign
Finance

UNDER CONSTRUCTION

Paid for by: Reclaim Idaho, Deborah Silver Treasurer

https://www.reclaimidaho.org

3/3

App. 133

